APPENDIX

1a

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CTIA - THE WIRELESS
ASSOCIATION,
Plaintiffs-Appellees,
v.
CITY OF BERKELEY, California;
CHRISTINE DANIEL, City
Manager of Berkeley,
California, in her official
capacity,

No. 16-15141
D.C. No.
3:15-cv-02529EMC
OPINION

Defendants-Appellants.
On Remand From the United States Supreme Court
Filed July 2, 2019
Before: William A. Fletcher, Morgan Christen,
and Michelle T. Friedland, Circuit Judges.
Opinion by Judge W. Fletcher;
Dissent by Judge Friedland

2a
SUMMARY*
First Amendment
The panel affirmed the district court’s denial of
CTIA’s request for a preliminary injunction that
sought to stay enforcement of a City of Berkeley ordinance requiring cell phone retailers to inform prospective cell phone purchasers that carrying a cell phone
in certain ways may cause them to exceed Federal
Communications Commission guidelines for exposure
to radio-frequency radiation.
CTIA challenged the compelled disclosure provision of the ordinance, arguing that it violated the First
Amendment and was preempted.
After the panel initially affirmed the district
court’s preliminary injunction, the U.S. Supreme
Court granted the CTIA’s petition for a writ of certiorari, vacated the opinion, and remanded for further
consideration in light of its decision in National Institute of Family and Life Advocates v. Becerra, 138 S.
Ct. 2361 (2018) (“NIFLA”).
In American Beverage Ass’n v. City and County of
San Francisco, 916 F.3d 749 (9th Cir. 2019) (en banc),
the en banc court held that Zauderer v. Office of Disciplinary Counsel, 471 U.S. 626, 651 (1985) (holding
that the government may compel truthful disclosure
in commercial speech as long as the compelled disclosure is “reasonably related” to a substantial govern-

*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

3a
ment interest, and involves factual and uncontroversial information that relates to the service or product
provided), provided the appropriate framework to analyze a First Amendment claim involving compelled
commercial speech.
The panel considered CTIA’s likelihood of success
on its First Amendment claim. The panel held that it
would generally apply the intermediate scrutiny test
mandated by Central Hudson Gas & Elec. Corp. v.
Pub. Serv. Comm’n of N.Y., 447 U.S. 557, 561 (1980),
in commercial speech cases where the government
acts to restrict or prohibit speech, but the Zauderer
exception to the general rule of Central Hudson could
apply. The panel held that the governmental interest
in furthering public health and safety was sufficient
under Zauderer as long as it was substantial. The
panel also held that Zauderer required that the compelled disclosure further some substantial – that is,
more than trivial – governmental interest. Applying
the Zauderer test to the speech compelled by the
Berkeley ordinance, the panel held that the text of the
compelled disclosure was literally true, Berkeley’s required disclosure was uncontroversial within the
meaning of NIFLA, and the compelled disclosure was
not unduly burdensome. The panel concluded that
CTIA had little likelihood of success on its First
Amendment claim that the disclosure compelled by
the Berkeley ordinance was unconstitutional.
Turning to the issue of federal preemption of
Berkeley’s ordinance, the panel held that far from conflicting with federal law and policy, the Berkeley ordinance complemented and enforced it. The panel held
that Berkeley’s compelled disclosure did no more than

4a
alert consumers to the safety disclosures that the Federal Communications Commission required, and directed consumers to federally compelled instructions
in their user manuals providing specific information
about how to avoid excessive exposure. The panel concluded that CTIA had little likelihood of success based
on conflict preemption.
The panel considered the other elements of its preliminary injunction analysis. The panel held that
there was no showing of irreparable harm based on
CTIA’s First Amendment claim, or based on the
preemption claim. The panel concluded that the balance of the equities favored Berkeley. The panel further held that the ordinance was in the public interest
and that an injunction would harm that interest. The
panel concluded that the district court did not abuse
its discretion in denying preliminary injunctive relief
to CTIA.
Dissenting in part, Judge Friedland wrote that
CTIA is likely to succeed on the merits of its First
Amendment challenge because Berkeley’s ordinance
violates the First Amendment by requiring businesses
to make false and misleading statements about their
own products, and therefore the ordinance should
have been preliminarily enjoined.
_________________________________________________
COUNSEL
Helgi C. Walker and Theodore B. Olson, Gibson Dunn
& Crutcher LLP, Washington, D.C.; Alexander N.
Harris, Joshua D. Dick, and Joshua S. Lipshutz, Gibson Dunn & Crutcher LLP, San Francisco, California;
for Plaintiff-Appellant.

5a
Lester Lawrence Lessig, III, Cambridge, Massachusetts; Amanda Shanor, New Haven, Connecticut; Jerome Mayer-Cantu, Deputy City Attorney; Farimah
Brown, City Attorney; Berkeley City Attorney’s Office, Berkeley, California; for Defendants-Appellees.
_________________________________________________
OPINION
W. FLETCHER, Circuit Judge:
A City of Berkeley ordinance requires cell phone
retailers to inform prospective cell phone purchasers
that carrying a cell phone in certain ways may cause
them to exceed Federal Communications Commission
guidelines for exposure to radio-frequency radiation.
CTIA, a trade association formerly known as Cellular
Telephone Industries Association, challenges the ordinance on two grounds. First, it argues that the ordinance violates the First Amendment. Second, it argues that the ordinance is preempted.
CTIA requested a preliminary injunction staying
enforcement of the ordinance. The district court denied CTIA’s request, and CTIA filed an interlocutory
appeal. We affirmed the district court in a published
opinion. See CTIA–The Wireless Ass’n v. City of Berkeley, 854 F.3d 1105 (9th Cir. 2017) (“CTIA”). CTIA then
filed a petition for writ of certiorari. The Supreme
Court granted the petition, vacated our opinion, and
remanded for further consideration in light of its decision in National Institute of Family and Life Advocates v. Becerra, — U.S. —, 138 S. Ct. 2361 (2018)
(“NIFLA”). CTIA–The Wireless Ass’n v. City of Berkeley, — U.S. —, 138 S. Ct. 2708 (2018) (mem.).

6a
Following remand, our three-judge panel requested supplemental briefing from the parties regarding the effect of NIFLA on CTIA’s First Amendment claims. We waited for an en banc panel of our
court to address a similar issue in a separate case. In
American Beverage Ass’n v. City and County of San
Francisco, 916 F.3d 749 (9th Cir. 2019) (en banc)
(“American Beverage”), the en banc panel “reaffirm[ed] our reasoning and conclusion in CTIA that
[Zauderer v. Office of Disciplinary Counsel, 471 U.S.
626 (1985)] provides the appropriate framework to analyze a First Amendment claim involving compelled
commercial speech.” Id. at 756. In light of our en banc
decision in American Beverage, and having considered
the parties’ supplemental briefing on NIFLA, we
again affirm the district court’s decision.
Our
amended opinion addresses NIFLA’s clarification of
the Zauderer framework. See Section IV.A.1, infra.
I.

Factual and Procedural Background

In May 2015, the City of Berkeley passed an ordinance requiring cell phone retailers to disclose information to prospective cell phone purchasers about the
federal government’s radio-frequency radiation exposure guidelines relevant to cell phone use. Under
“Findings and Purpose,” the ordinance provided:
A. Requirements for the testing of
cell phones were established by the federal government in 1996.
B. These requirements established
“Specific Absorption Rates” (SAR) for cell
phones.
C. The protocols for testing the SAR
for cell phones carried on a person’s body

7a
assumed that they would be carried a
small distance away from the body, e.g.,
in a holster or belt clip, which was the
common practice at that time. Testing of
cell phones under these protocols has
generally been conducted based on an assumed separation of 10–15 millimeters.
D. To protect the safety of their consumers, manufacturers recommend that
their cell phones be carried away from
the body, or be used in conjunction with
hands-free devices.
E. Consumers are not generally
aware of these safety recommendations.
F. Currently, it is much more common for cell phones to be carried in pockets or other locations rather than holsters or belt clips, resulting in much
smaller separation distances than the
safety recommendations specify.
G. Some consumers may change
their behavior to better protect themselves and their children if they were
aware of these safety recommendations.
H. While the disclosures and warnings that accompany cell phones generally advise consumers not to wear them
against their bodies, e.g., in pockets,
waistbands, etc., these disclosures and
warnings are often buried in fine print,
are not written in easily understood language, or are accessible only by looking
for the information on the device itself.

8a
I. The purpose of this Chapter is to
assure that consumers have the information they need to make their own
choices about the extent and nature of
their exposure to radio-frequency radiation.
Berkeley Mun. Code § 9.96.010 (2015).
CTIA challenged the compelled disclosure provision of the ordinance, arguing that it violated the First
Amendment and was preempted. One sentence of the
compelled disclosure stated, “The potential risk is
greater for children.” The district court held that this
sentence was preempted, and it issued a preliminary
injunction against enforcement of the ordinance. In
December 2015, Berkeley re-passed the ordinance
without the offending sentence. In its current form,
the compelled disclosure provision provides:
A. A Cell phone retailer shall provide
to each customer who buys or leases a
Cell phone a notice containing the following language:
The City of Berkeley requires that
you be provided the following notice:
To assure safety, the Federal Government requires that cell phones meet
radio-frequency (RF) exposure guidelines. If you carry or use your phone
in a pants or shirt pocket or tucked
into a bra when the phone is ON and
connected to a wireless network, you
may exceed the federal guidelines for
exposure to RF radiation. Refer to
the instructions in your phone or user

9a
manual for information about how to
use your phone safely.
Berkeley Mun. Code § 9.96.030(A) (2015).
The ordinance requires that the compelled disclosure be provided either on a prominently displayed
poster no less than 81/2 by 11 inches with no smaller
than 28-point font, or on a handout no less than 5 by
8 inches with no smaller than 18-point font. The logo
of the City of Berkeley must be placed on the poster
and handout. The ordinance provides that a cell
phone retailer may include additional information on
the poster or handout if it is clear that the additional
information is not part of the compelled disclosure. §
9.96.030(B) (“The paper on which the notice is printed
may contain other information in the discretion of the
Cell phone retailer, as long as that information is distinct from the notice language required by subdivision
(A) of this Section.”).
CTIA challenged the current ordinance, arguing,
as it had before, that the ordinance violates the First
Amendment and is preempted. The district court
noted that the preempted sentence had been removed
from the ordinance, dissolved its previously entered
injunction, and denied CTIA’s request for a new preliminary injunction. CTIA filed an interlocutory appeal.
II. Jurisdiction and Standard of Review
We have jurisdiction under 28 U.S.C. § 1292. We
review a denial of a preliminary injunction for abuse
of discretion. Inst. of Cetacean Research v. Sea Shepherd Conservation Soc’y, 725 F.3d 940, 944 (9th Cir.
2013). “An abuse of discretion occurs when the district
court based its ruling on an erroneous view of the law

10a
or on a clearly erroneous assessment of the evidence.”
Friends of the Wild Swan v. Weber, 767 F.3d 936, 942
(9th Cir. 2014) (citation and internal quotation marks
omitted). We will not reverse the district court where
it “got the law right,” even if we “would have arrived
at a different result,” so long as the district court did
not clearly err in its factual determinations. Lands
Council v. McNair, 537 F.3d 981, 987 (9th Cir. 2008)
(en banc).
III. Regulatory Background
The Federal Communications Commission
(“FCC”) has regulatory jurisdiction over transmitting
services in the United States. In 1996, after extensive
consultation with other agencies, the FCC issued a
rule designed to limit the Specific Absorption Rate
(“SAR”) of radio-frequency (“RF”) radiation from FCCregulated transmitters, including cell phones:
1. By this action, we are amending
our rules to adopt new guidelines and
methods for evaluating the environmental effects of radio-frequency (RF) radiation from FCC-regulated transmitters.
We are adopting Maximum Permissible
Exposure (MPE) limits for electric and
magnetic field strength and power density for transmitters operating at frequencies from 300 kHz to 100 GHz . . .
We are also adopting limits for localized
(“partial body”) absorption that will apply to certain portable transmitting devices . . . We believe that the guidelines we
are adopting will protect the public and

11a
workers from exposure to potentially
harmful RF fields.
2. In reaching our decision on the
adoption of new RF exposure guidelines
we have carefully considered the large
number of comments submitted in this
proceeding, and particularly those submitted by the U.S. Environmental Protection Agency (EPA), the Food and Drug
Administration (FDA) and other federal
health and safety agencies. The new
guidelines we are adopting are based
substantially on the recommendations of
those agencies, and we believe that these
guidelines represent a consensus view of
the federal agencies responsible for matters relating to the public safety and
health.
In re Guidelines for Evaluating the Environmental
Effects of Radio-frequency Radiation, 61 Fed. Reg.
41006, 41006–07 (Aug. 7, 1996) (emphases added).
Out of concern for the safety of cell phone users,
the FCC rejected an industry proposal to exclude “lowpower devices” such as cell phones from the rule
adopting SAR limits:
Most commenting parties, including
Federal health and safety agencies, support the use of the ANSI/IEEE [American National Standards Institute/ Institute of Electrical and Electronic Engineers] SAR limits for localized (partial
body) exposure for evaluating low-power

12a
devices designed to be used in the immediate vicinity of the body. . . . Therefore,
in view of the consensus and the scientific
support in the record, we are adopting the
SAR limits for the determination of safe
exposure from low-power devices designed to be used in the immediate vicinity of the body based upon the 1992
ANSI/IEEE guidelines. . . .
The SAR limits we are adopting will
generally apply to portable devices . . .
that are designed to be used with any
part of the radiating structure of the device in direct contact with the body of the
user or within 20 cm of the body under
normal conditions of use. For example,
this definition would apply to hand-held
cellular telephones. . . .
In re Guidelines for Evaluating the Environmental
Effects of Radio-frequency Radiation (“FCC Guidelines for Radio-frequency Radiation”), FCC 96-326, ¶¶
62–63(Aug. 1, 1996) (emphases added).
The FCC has a better-safe-than-sorry policy with
respect to SAR limits:
. . . The intent of our exposure limits
is to provide a cap that both protects the
public based on scientific consensus and
allows for efficient and practical implementation of wireless services. The present Commission exposure limit is a
“bright-line rule.” That is, so long as exposure levels are below a specified limit
value, there is no requirement to further

13a
reduce exposure. . . . Our current RF exposure guidelines are an example of such
regulation, including a significant
“safety” factor, whereby the exposure
limits are set at a level on the order of 50
times below the level at which adverse
biological effects have been observed in
laboratory animals as a result of tissue
heating resulting from RF exposure.
In re Reassessment of FCC Radiofrequency Exposure
Limits and Policies, 28 FCC Rcd. 3498, 3582 (Mar. 29,
2013). The FCC recognizes that its required margin
of safety is large:
. . . [E]xceeding the SAR limit does
not necessarily imply unsafe operation,
nor do lower SAR quantities imply
“safer” operation. The limits were set
with a large safety factor, to be well below a threshold for unacceptable rises in
tissue temperature. As a result, exposure well above the specified SAR limit
should not create an unsafe condition. . .
. In sum, using a device against the body
without a spacer will generally result in
actual SAR below the maximum SAR
tested; moreover, a use that possibly results in non-compliance with the SAR
limit should not be viewed with significantly greater concern than compliant
use.
Id. at 3588 (emphasis added).
There are two ways to ensure compliance with
SAR limits—by reducing the amount of RF radiation

14a
from a transmitting device, or by increasing the distance between the device and the user. Different lowpower devices emit different amounts of RF radiation,
with the result that the minimum distance between
the device and the user to achieve compliance with
SAR limits varies somewhat from device to device.
The FCC requires that cell phone user manuals contain information that alerts users to the minimum distances appropriate for the device they are using:
Specific information must be included in the operating manuals to enable users to select body-worn accessories
that meet the minimum test separation
distance requirements. Users must be
fully informed of the operating requirements and restrictions, to the extent that
the typical user can easily understand
the information, to acquire the required
body-worn accessories to maintain compliance. Instructions on how to place
and orient a device in body-worn accessories, in accordance with the test results, should also be included in the user
instructions. All supported body-worn
accessory operating configurations must
be clearly disclosed to users, through conspicuous instructions in the user guide
and user manual, to ensure unsupported
operations are avoided.
In re Exposure Procedures and Equipment Authorization Policies for Mobile and Portable Devices, FCC Office of Engineering and Technology Laboratory Division § 4.2.2(d) (Oct. 23, 2015) (“FCC Exposure Proce-

15a
dures”) (emphasis added). Compliance with this disclosure requirement is a prerequisite for approval of a
transmitting device by the FCC. See id. at § 1.
The following are examples of cell phone user
manuals that comply with the FCC’s disclosure requirement:
Apple:
iPhone’s SAR measurement may exceed
the FCC exposure guidelines for bodyworn operation if positioned less than 15
mm (5/8 inch) from the body (e.g. when
carrying iPhone in your pocket).
See iPhone 3G manual, at 7, http://manuals.info.apple.com/MANUALS/0/MA618/en_US/iPhone_3G_Important_Product_Information_Guide.pdf.
Samsung:
If there is a risk from being exposed to
radio-frequency energy (RF) from cell
phones - and at this point we do not know
that there is - it is probably very small.
But, if you are concerned about avoiding
even potential risks, you can take a few
simple steps to minimize your RF exposure.
 Reduce the amount of time spent using
your cell phone;
 Use speaker mode or a headset to place
more distance between your head and
the cell phone.

16a
See Samsung Common Phone Health and Safety and
Warranty Guide, at 8, http://www.samsung.com/us/
Legal/PHONE-HS_GUIDE_English.pdf.
LG:
The highest SAR value for this model
phone when tested for use at the ear is
1.08 W/Kg (1g) and when worn on the
body, as described in this user guide, is
0.95 W/Kg (1g) (body-worn measurements differ among phone models, depending upon available accessories and
FCC requirements). While there may be
differences between SAR levels of various phones and at various positions, they
all meet the government requirement for
safe exposure. The FCC has granted an
Equipment Authorization for this model
phone with all reported SAR levels evaluated as in compliance with the FCC RF
emission guidelines. SAR information
on this model phone is on file with the
FCC and can be found under the Display
Grant
section
of
http://www.fcc.gov/oet/ea/fccid/
after
searching on FCC ID ZNFL15G.
See
LG
Sunrise
User
Guide,
at
93,
http://www.lg.com/us/ support/manuals-documents.
IV. Discussion
“A plaintiff seeking a preliminary injunction must
establish [1] that he is likely to succeed on the merits,
[2] that he is likely to suffer irreparable harm in the
absence of preliminary relief, [3] that the balance of
equities tips in his favor, and [4] that an injunction is

17a
in the public interest.” Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). “[A] stronger showing
of one element may offset a weaker showing of another.” All. for the Wild Rockies v. Cottrell, 632 F.3d
1127, 1131 (9th Cir. 2011). For example, “a preliminary injunction could issue where the likelihood of
success is such that ‘serious questions going to the
merits were raised and the balance of hardships tips
sharply in [plaintiff’s] favor.’” Id. at 1132 (quoting
Clear Channel Outdoor, Inc. v. City of L.A., 340 F.3d
810, 813 (9th Cir. 2003)).
A. Likelihood of Success
CTIA makes two merits-based arguments against
the Berkeley ordinance. First, it argues that the ordinance violates the First Amendment. Second, it argues that the ordinance is preempted. We take the
arguments in turn.
1. First Amendment
The disclosure underlying Berkeley’s ordinance is
the disclosure the FCC requires cell phone manufacturers to provide to consumers. However, CTIA has
not sued the FCC. Rather, CTIA has sued Berkeley.
Berkeley’s ordinance requires cell phone retailers to
disclose, in summary form, the information to consumers that the FCC already requires cell phone manufacturers to disclose. The Berkeley disclosure directs
consumers to user manuals for the specifics of the information required by the FCC.
a. Central Hudson or Zauderer
The parties agree that Berkeley’s ordinance is a
regulation of commercial speech. Cent. Hudson Gas &
Elec. Corp. v. Pub. Serv. Comm’n of N.Y., 447 U.S. 557,

18a
561 (1980); see Hunt v. City of L.A., 638 F.3d 703, 715
(9th Cir. 2011).
However, they disagree about
whether the ordinance’s compliance with the First
Amendment should be analyzed under Central Hudson or under Zauderer v. Office of Disciplinary Counsel of the Supreme Court of Ohio, 471 U.S. 626 (1985).
Under Central Hudson, the government may restrict or prohibit commercial speech that is neither
misleading nor connected to unlawful activity, as long
as the governmental interest in regulating the speech
is substantial. 477 U.S. at 564. The restriction or prohibition must “directly advance the governmental interest asserted,” and must not be “more extensive
than is necessary to serve that interest.” Id. at 566.
Under Zauderer as we interpret it today, the government may compel truthful disclosure in commercial
speech as long as the compelled disclosure is “reasonably related” to a substantial governmental interest,
Zauderer, 471 U.S. at 651, and involves “purely factual and uncontroversial information” that relates to
the service or product provided. NIFLA, 138 S. Ct. at
2372 (quoting Zauderer, 471 U.S. at 651).
We apply the intermediate scrutiny test mandated by Central Hudson in commercial speech cases
where the government acts to restrict or prohibit
speech, on the ground that in such cases intermediate
scrutiny appropriately protects the interests of both
the speaker (the seller) and the audience (the purchaser). But one size does not fit all in commercial
speech cases. In Central Hudson itself, the Supreme
Court cautioned, “The protection available for particular commercial expression turns on the nature both
of the expression and of the governmental interests

19a
served by its regulation.” Central Hudson, 477 U.S. at
563.
Five years after Central Hudson, the Court held
that Central Hudson’s intermediate scrutiny test does
not apply to compelled, as distinct from restricted or
prohibited, commercial speech. In Zauderer, defendant Zauderer advertised legal services to prospective
Dalkon Shield plaintiffs in a number of Ohio newspapers. The advertisement stated, inter alia, “‘The cases
are handled on a contingent fee basis of the amount
recovered. If there is no recovery, no legal fees are
owed by our clients.’” Zauderer, 471 U.S. at 631. Zauderer was disciplined under Ohio state bar disciplinary rules on the ground that the advertisement was
“deceptive” within the meaning of the rules, id. at 633,
because it failed to disclose “the client’s potential liability for costs even if her suit were unsuccessful.” Id.
at 635. The Court noted that the bar disciplinary
rules required Zauderer to “include in his advertising
purely factual and uncontroversial information about
the terms under which his services will be available.”
Id. at 651. The Court wrote, “Ohio has not attempted
to prevent attorneys from conveying information to
the public; it has only required them to provide somewhat more information than they might otherwise be
inclined to present.” Id. at 650. The Supreme Court
declined to apply the Central Hudson test:
Because the extension of First Amendment protection to commercial speech is
justified principally by the value to consumers of the information such speech
provides, appellant’s constitutionally
protected interest in not providing any

20a
particular factual information is minimal. . . . We recognize that unjustified or
unduly burdensome disclosure requirements might offend the First Amendment by chilling protected commercial
speech. But we hold that an advertiser’s
rights are adequately protected as long
as disclosure requirements are reasonably related to the State’s interest in preventing deception of consumers.
Id. at 651 (internal citation omitted). See also Milavetz, Gallop & Milavetz, P.A. v. United States, 559
U.S. 229, 253 (2010) (following Zauderer and using its
“preventing deception” language).
b. The Zauderer Test
i.

Substantial Governmental Interest

CTIA contends that the Zauderer exception to the
general rule of Central Hudson does not apply in this
case because the speech compelled by the Berkeley ordinance does not prevent deception of consumers.
This is the first time we have had occasion in this circuit to squarely address the question whether, in the
absence of a prevention-of-deception rationale, the
Zauderer compelled-disclosure test applies. Cf. Video
Software Dealers Ass’n v. Schwarzenegger, 556 F.3d
950, 967 (9th Cir. 2009) (invalidating compelled disclosure on video game packaging, noting that the disclosure would “arguably now convey a false statement
that certain conduct is illegal when it is not, and the
State has no legitimate reason to force retailers to affix false information on their products”). Several of
our sister circuits, however, have answered this ques-

21a
tion. They have unanimously concluded that the Zauderer exception for compelled speech applies even in
circumstances where the disclosure does not protect
against deceptive speech.
In American Meat Institute v. U.S. Department of
Agriculture, 760 F.3d 18 (D.C. Cir. 2014) (en banc), a
Department of Agriculture regulation required identification of the country of origin on the packaging of
meat and meat products. Id. at 20. The regulation implemented a federal statute requiring country-oforigin labeling. See 7 U.S.C. § 1638, 1638a. The D.C.
Circuit held that Zauderer should not be read to apply
only to cases where government-compelled speech
prevents or corrects deceptive speech. It noted that
on the facts of both Zauderer and Milavetz (in which
the Court repeated Zauderer’s “preventing deception”
language) there had been deceptive speech: “Given the
subject of both cases, it was natural for the Court to
express the rule in such terms. The language could
have been simply descriptive of the circumstances to
which the Court applied its new rule[.]” Am. Meat, 760
F.3d at 22. The D.C. Circuit concluded, “The language
with which Zauderer justified its approach . . . sweeps
far more broadly than the interest in remedying deception.” Id.
In National Electrical Manufacturers Association
v. Sorrell, 272 F.3d 104 (2d Cir. 2001), a Vermont statute required manufacturers of mercury-containing
products to label their products and packaging to inform consumers that the products contained mercury
and instructing them that the products should be disposed of or recycled as hazardous waste. Id. at 107.
The Second Circuit held that the compelled disclosure

22a
was supported by a “substantial state interest in protecting human health and the environment.” Id. at
115 n. 6. Citing Zauderer, the court recognized that
the compelled disclosure did not “prevent ‘consumer
confusion or deception.’” Sorrell, 272. F.3d at 115. It
nonetheless upheld the disclosure as not “inconsistent
with the policies underlying First Amendment protection of commercial speech.” Id. “[M]andated disclosure
of accurate, factual, commercial information does not
offend the core First Amendment values of promoting
efficient exchange of information or protecting individual liberty interests.” Id. at 114; see also N.Y. State
Rest. Ass’n v. N.Y.C. Bd. of Health, 556 F.3d 114, 133
(2d Cir. 2009) (“Zauderer’s holding was broad enough
to encompass nonmisleading disclosure requirements.”); Discount Tobacco City & Lottery, Inc. v.
United States, 674 F.3d 509, 556–58 (6th Cir. 2012)
(upholding federally required health warnings on cigarette packaging and in cigarette advertisements, relying on the Second Circuit’s opinion in Sorrell);
Pharm. Care Mgmt. Ass’n v. Rowe, 429 F.3d 294, 310
n.8 (1st Cir. 2005) (noting that the court had found no
cases limiting application of the Zauderer compelled
speech test to prevention or correction of deceptive advertising); cf. Dwyer v. Cappell, 762 F.3d 275, 281–82
(3d Cir. 2014) (describing but not relying on Zauderer’s preventing-deception criterion).
Our sister circuits have thus held under Zauderer
that the prevention of consumer deception is not the
only governmental interest that may permissibly be
furthered by compelled commercial speech. The Supreme Court also signaled its agreement with this
reading of Zauderer. In NIFLA, the Court cited Zauderer and other cases to explain that its “precedents

23a
have applied more deferential review to some laws
that require professionals to disclose factual, noncontroversial information in their ‘commercial speech,’”
138 S. Ct. at 2372, and that it was “not question[ing]
the legality of health and safety warnings, long considered permissible, or purely factual and uncontroversial disclosures about commercial products.” Id. at
2376.
We therefore hold that the governmental interest
in furthering public health and safety is sufficient under Zauderer so long as it is substantial. In so holding, we do not foreclose that other substantial interests in other cases may suffice as well. In American
Meat, the D.C. Circuit declined to decide whether the
governmental interest must be substantial, leaving
open the question whether a less-thansubstantial interest might suffice. See Am. Meat, 760 F.3d at 23
(“Because the interest motivating the 2013 [countryoforigin] rule is a substantial one, we need not decide
whether a lesser interest could suffice under Zauderer.”). We answer the question avoided in American
Meat, holding that Zauderer requires that the compelled disclosure further some substantial—that is,
more than trivial—governmental interest. Central
Hudson explicitly requires that a substantial interest
be furthered by a challenged regulation prohibiting or
restricting commercial speech, and we see nothing in
Zauderer that would allow a lesser interest to justify
compelled commercial speech. To use the words of the
Second Circuit in Sorrell, the interest at stake must
be more than the satisfaction of mere “consumer curiosity.” Sorrell, 272 F.3d at 115 n.6; see also Am. Meat,
760 F.3d at 23 (“Country-of-origin information has an

24a
historical pedigree that lifts it well beyond ‘idle curiosity.’”). To use the words of the Supreme Court, “Disclosures must remedy a harm that is ‘potentially real
not purely hypothetical[.]’” NIFLA, 138 S. Ct. at 2367
(quoting Ibanez v. Fla. Dep’t of Bus. & Prof’l. Regulation, 512 U.S. 136, 146 (1994)).
ii.

Purely Factual and Uncontroversial
Information

The Court in Zauderer noted that the compelled
disclosure in that case was of “purely factual and uncontroversial information.” Zauderer, 471 U.S. at 651.
But the Court did not explicitly require in its constitutional test that the disclosed information be “purely
factual and uncontroversial.” In NIFLA, however, the
Court held that the Zauderer standard did not apply
to one of two government-mandated notices at issue
in that case because it was “not limited to ‘purely factual and uncontroversial information about the terms
under which . . . services will be available.’” 138 S. Ct.
at 2372 (quoting Zauderer, 471 U.S. at 651) (omission
in original). NIFLA thus stands for the proposition
that the Zauderer standard applies only if the compelled disclosure involves “purely factual and uncontroversial” information.
NIFLA elaborated on Zauderer’s “purely factual
and uncontroversial” criteria in two respects.
First, the Court held in NIFLA that the required
information about state-provided abortion services
was controversial. The question in NIFLA was
whether California could require clinics that did not
provide abortion services to post a notice giving factual information about state-provided services, including abortion, offered elsewhere. The Court wrote,

25a
“[The State] requires these clinics to disclose information about state-sponsored services—including
abortion, anything but an ‘uncontroversial’ topic.” Id.
at 2372 (emphasis in original). We do not read the
Court as saying broadly that any purely factual statement that can be tied in some way to a controversial
issue is, for that reason alone, controversial. The dispute in NIFLA was whether the state could require a
clinic whose primary purpose was to oppose abortion
to provide information about “state-sponsored services,” including abortion. While factual, the compelled statement took sides in a heated political controversy, forcing the clinic to convey a message fundamentally at odds with its mission. Under these circumstances, the compelled notice was deemed controversial within the meaning of Zauderer and NIFLA.
Second, the Court in NIFLA required that the
compelled speech relate to the product or service that
is provided by an entity subject to the requirement.
Thus, in addition to holding that clinics could not be
required to post the notice because it was controversial, the Court struck down the requirement that clinics post information about services they did not provide. Id.
c.

Application of Zauderer Test

Under Zauderer, compelled disclosure of commercial speech complies with the First Amendment if the
information in the disclosure is reasonably related to
a substantial governmental interest and is purely factual and uncontroversial. The question before us is
whether the speech compelled by the Berkeley ordinance satisfies this test.

26a
i.

Reasonably Related to a Substantial
Governmental Interest

There is no question that protecting the health
and safety of consumers is a substantial governmental
interest. See, e.g., Posadas de Puerto Rico Assocs. v.
Tourism Co. of Puerto Rico, 478 U.S. 328, 341 (1986)
(“[H]ealth, safety, and welfare constitute[] a ‘substantial’ governmental interest”). The federal government
and Berkeley have both sought to further that interest. By adopting SAR limits on exposure to RF radiation, the FCC has furthered the interest of protecting
the health and safety of cell phone users in the United
States. It has done so by adopting a highly protective
policy, setting low SAR limits on RF radiation and
compelling cell phone manufacturers to disclose information to cell phone users that will allow them to
avoid exceeding those limits. By passing its ordinance, the City of Berkeley furthers that same interest. After finding that cell phone users are largely unaware of the FCC policy and of the information in
their user manuals, the Berkeley City Council decided
to compel retailers in Berkeley to provide, in summary
form, the same information that the FCC already requires cell phone manufacturers to provide to those
same consumers, and to direct those consumers to
consult their user manuals for more detailed information. See Jensen Decl., Ex. A (survey) (reflecting
that a majority of persons surveyed were not “aware
that the government’s radiation tests to assure the
safety of cell phones assume that a cell phone would
not be carried against your body, but would instead be
held at least 1 to 15 millimeters from your body”).

27a
CTIA argues strenuously that radio-frequency radiation from cell phones has not been proven dangerous to consumers. Limiting itself to research published when the record was made in this case, CTIA is
correct in pointing out that there was nothing then before the district court showing that such radiation had
been proven dangerous. But this is beside the point.
The fact that RF radiation from cell phones had not
been proven dangerous was well known to the FCC in
1996 when it adopted SAR limits to RF radiation; was
well known in 2013 when it refused to exclude cell
phones from its rule adopting SAR limits; and was
well known in 2015 when it required cell phone manufacturers to tell consumers how to avoid exceeding
SAR limits. After extensive consultation with federal
agencies with expertise about the health effects of radio-frequency radiation, the FCC decided, despite the
lack of proof of dangerousness, that the best policy
was to adopt SAR limits with a large margin of safety.
The FCC concluded that requiring cell phone
manufacturers to inform consumers in their users
manuals of SAR limits on RF radiation, and to tell
them how to avoid excessive exposure, furthered the
federal government’s interest in protecting their
health and safety. The City of Berkeley concluded
that consumers were largely unaware of the contents
of their users manuals. Agreeing with the FCC that
the information about SAR limits and methods of
avoiding excessive exposure is important, Berkeley requires cell phone retailers to provide some of that
same information to consumers and to direct them to
their user manuals for further details. We are not in
a position to disagree with the conclusions of FCC and
Berkeley that this compelled disclosure is “reasonably

28a
related” to protection of the health and safety of consumers.
ii. Purely Factual and Uncontroversial
CTIA argues that Berkeley’s compelled disclosure
is not “purely factual” within the meaning of Zauderer. We disagree.
For the convenience of the reader, we again provide the full text of the compelled disclosure:
The City of Berkeley requires that you be
provided the following notice:
To assure safety, the Federal Government requires
that cell phones meet radiofrequency (RF) exposure
guidelines. If you carry or
use your phone in a pants
or shirt pocket or tucked
into a bra when the phone
is ON and connected to a
wireless network, you may
exceed the federal guidelines for exposure to RF radiation. Refer to the instructions in your phone or
user manual for information about how to use
your phone safely.
Berkeley Mun. Code § 9.96.030(A) (2015).
The text of the compelled disclosure is literally
true. We take it sentence by sentence:

29a
(1) “To assure safety, the Federal Government requires that cell phones meet radio-frequency (RF) exposure guidelines.” This statement is true. As recounted above, beginning in 1996 the federal government has set RF exposure guidelines with which cell
phones must comply.
(2) “If you carry or use your cell phone in a pants
or shirt pocket or tucked into a bra when the phone is
ON and connected to a wireless network, you may exceed the federal guidelines for exposure to RF radiation.” This statement is also true. The FCC has established SAR limits for RF radiation premised on maintaining a certain separation between a cell phone and
the user’s body. Maintaining that separation protects
consumers from exceeding the SAR limits.
(3) “Refer to the instructions in your phone or
user manual for information about how to use your
phone safely.” This sentence is an instruction rather
than a direct factual statement. However, it clearly
implies a factual statement that “information about
how to use your phone safely” in compliance with the
FCC’s RF “exposure guidelines” “to assure safety,”
may be found either in a cell phone or user manual.
This implied statement, too, is true.
We recognize, of course, that a statement may be
literally true but nonetheless misleading and, in that
sense, untrue. That is what CTIA argues here. CTIA
argues that the compelled disclosure is inflammatory
and misleading, and that it is therefore not “purely
factual.” CTIA bases its argument solely on the text of
the ordinance.
CTIA argues that “[t]he Ordinance requires an inflammatory warning about unfounded safety risks”;

30a
that “[t]he Ordinance clearly and deliberately suggests that the federal RF energy testing guideline (the
SAR limit) is the demarcation point of ‘safety’ for cell
phones, such that ‘exposure’ to RF energy above that
limit creates a safety hazard”; and that “[t]he Ordinance is misleading for the additional reason that it
uses the inflammatory term ‘radiation,’ which is
fraught with negative associations, in order to stoke
consumer anxiety.” CTIA argues further that the
phrase “RF radiation” is “fraught with negative associations,” that it is used in the compelled disclosure
“in order to stoke consumer anxiety,” and that it is
therefore not “purely factual.”
We read the text differently. The first sentence
tells consumers that cell phones are required to meet
federal “RF exposure guidelines” in order “[t]o assure
safety.” Far from inflammatory, this statement is
largely reassuring. It assures consumers that the cell
phones they are about to buy or lease meet federally
imposed safety guidelines.
The second sentence tells consumers what to do in
order to avoid exceeding federal guidelines. This
statement may not be reassuring, but it is hardly inflammatory. It provides in summary form information that the FCC has concluded that consumers
should know in order to ensure their safety. Indeed,
the FCC specifically requires cell phone manufacturers to provide this information to consumers. See
“FCC Exposure Procedures” § 4.2.2(d) (“Specific information must be included in the operating manuals to
enable users to select body-worn accessories that meet
the minimum test separation distance requirements. .
. . All supported body-worn accessory operating configurations must be clearly disclosed to users, through

31a
conspicuous instructions in the user guide and user
manual, to ensure unsupported operations are
avoided.”) (emphasis added).
The third sentence tells consumers to consult
their user manuals to obtain further information—
that is, to obtain the very information the FCC requires cell phone manufacturers to provide in “conspicuous instructions” in user manuals.
Further, the phrase “RF radiation,” used in the
second sentence, is precisely the phrase the FCC has
used, beginning in 1996, to refer to radio-frequency
emissions from cell phones. See FCC Guidelines for
Radio frequency Radiation at ¶ 1, supra at 6 (“radiofrequency (RF) radiation”). We do not fault Berkeley
for using the term “RF radiation” to refer to cell phone
emissions when it is not only the technically correct
term, but also the term the FCC itself uses to refer to
such emissions.
Finally, we note that the Berkeley ordinance allows a cell phone retailer to add to the compelled disclosure. If a retailer is concerned, as CTIA contends
it should be, that the term “RF radiation” is inflammatory and misleading, the retailer may add to the
compelled disclosure any further statement it sees fit
to add. See § 9.96.030(B) (“The paper on which the
notice is printed may contain other information in the
discretion of the Cell phone retailer[.]”). CTIA has put
nothing in the record to indicate that any Berkeley retailer has felt it necessary, or even useful, to add explanatory information about the nature of RF radiation. Nor has CTIA presented any evidence in the district court showing how Berkeley consumers have un-

32a
derstood the compelled disclosure, or evidence showing that sales of cell phones in Berkeley were, or are
likely to be, depressed as a result of the compelled disclosure.
In its supplemental briefing, CTIA presses its argument that Berkeley’s compelled disclosure is controversial. Specifically, CTIA argues that the disclosure is controversial because, in its view, it is misleading rather than factual. Because we have determined
that the disclosure is factual and not misleading, we
reject CTIA’s argument that the disclosure is controversial.
Notably, CTIA does not argue that Berkeley’s
compelled disclosure is controversial as a result of disagreement about whether radio-frequency radiation
can be dangerous to cell phone users. We agree with
CTIA’s tacit admission that the required disclosure is
not controversial on that account. We recognize that
there is a controversy concerning whether radio-frequency radiation from cell phones can be dangerous if
the phones are kept too close to a user’s body over a
sustained period. CTIA stoutly maintains that cell
phones present no danger whatsoever; the FCC, on
the other hand, has determined that cell phone users
should be cautioned to store their cell phones at a certain distance from their bodies in order to avert any
possible danger. Despite this disagreement, Berkeley’s required disclosure is uncontroversial within the
meaning of NIFLA. It does not force cell phone retailers to take sides in a heated political controversy. The
FCC’s required disclosure is no more and no less than
a safety warning, and Berkeley’s required disclosure
is a short-hand description of the warning the FCC already requires cell phone manufacturers to include in

33a
their user manuals. See NIFLA, 138 S. Ct. at 2376
(“[W]e do not question the legality of health and safety
warnings long considered permissible[.]”).
CTIA also argues that Zauderer does not apply because the disclosure “has nothing to do with the terms
upon which cell phones are offered[.]” But NIFLA
plainly contemplates applying Zauderer to “purely
factual and uncontroversial disclosures about commercial products.” NIFLA, 138 S. Ct. at 2376 (emphasis added). Berkeley’s ordinance falls squarely within
this category. It requires cell phone retailers to disclose information to prospective cell phone purchasers
about what the FCC has concluded is appropriate use
of the product they are about to buy.
d. Unduly Burdensome
Finally, CTIA argues that Berkeley’s compelled
disclosure is unconstitutional under Zauderer because
it is “unduly burdensome.” NIFLA, 138 S. Ct. at 2377
(quoting Zauderer, 471 U.S. at 651). In American Beverage, we considered en banc a similar challenge to a
San Francisco ordinance requiring health warnings
on some advertisements for certain sugar-sweetened
beverages. The San Francisco ordinance included “a
requirement that the warning occupy at least 20% of
the advertisement and be set off with a rectangular
border.” American Beverage, 916 F.3d at 754 (quoting
City & Cty. of S.F., Cal., Health Code art. 42, div. I, §
4203(b)). We concluded that San Francisco had not
met its burden of showing that the warning “does not
‘drown out’ Plaintiffs’ messages and ‘effectively rule[]
out the possibility of having [an advertisement] in the
first place.” Id. at 757 (quoting NIFLA, 138 S. Ct. at
2378). We thus held that the 20% requirement was

34a
“unduly burdensome when balanced against its likely
burden on protected speech.” Berkeley’s ordinance, in
contrast, does not unduly burden speech. As noted
above, the ordinance may be satisfied by a single 8.5
x 11” posted notice or 5 x 8” handout to which the retailer may add additional information so long as that
information is distinct from the compelled disclosure.
This minimal requirement does not interfere with advertising or threaten to drown out messaging by the
cell phone retailers subject to the requirement.
e.

Likelihood of Success

Based on the foregoing, we conclude that CTIA
has little likelihood of success on its First Amendment
claim that the disclosure compelled by the Berkeley
ordinance is unconstitutional.
2. Preemption
a. Conflict Preemption
“Federal preemption occurs when: (1) Congress
enacts a statute that explicitly preempts state law; (2)
state law actually conflicts with federal law; or (3) federal law occupies a legislative field to such an extent
that it is reasonable to conclude that Congress left no
room for state regulation in the legislative field.” Chae
v. SLM Corp., 593 F.3d 936, 941 (9th Cir. 2010) (internal quotation marks omitted). CTIA contends that
Berkeley’s compelled disclosure is invalid because of
conflict preemption.
“Conflict preemption is implicit preemption of
state law that occurs where there is an actual conflict
between state and federal law.” McClellan v. I-Flow
Corp., 776 F.3d 1035, 1039 (9th Cir. 2015) (citations

35a
and internal quotation marks omitted). “When Congress charges an agency with balancing competing objectives, it intends the agency to use its reasoned judgment to weigh the relevant considerations and determine how best to prioritize those objectives. Allowing
a state law to impose a different standard [impermissibly] permits a rebalancing of those objectives.” Farina v. Nokia Inc., 625 F.3d 97, 123 (3d Cir. 2010).
Conflict preemption arises either when “compliance
with both federal and state regulations is a physical
impossibility . . . or when state law stands as an obstacle to the accomplishment and execution of the full
purposes and objectives of Congress.” McClellan, 776
F.3d at 1039 (citations and internal quotation marks
omitted). We are concerned here with “obstacle”
preemption. CTIA contends that Berkeley’s compelled disclosure creates an impermissible obstacle by
requiring more disclosure than is required by the
FCC. See Crosby v. Nat’l Foreign Trade Council, 530
U.S. 363, 373 (2000) (finding preemption where a
challenged state law “stands as an obstacle to the accomplishment and execution of the full purposes and
objectives of Congress.”) (internal quotation marks
omitted).
b. Telecommunications Act of 1996
“Preemption analysis ‘start[s] with the assumption that the historic police powers of the States were
not to be superseded by the Federal Act unless that
was the clear and manifest purpose of Congress.’” City
of Columbus v. Ours Garage and Wrecker Serv., Inc.,
536 U.S. 424, 438 (quoting Medtronic, Inc. v. Lohr, 518
U.S. 470, 485 (1996)). “Congressional intent, therefore, is the ultimate touchstone of preemption analysis.” Engine Mfrs. Ass’n v. S. Coast Air Quality Mgmt.

36a
Dist., 498 F.3d 1031, 1040 (9th Cir. 2007) (citing
Tocher v. City of Santa Ana, 219 F.3d 1040, 1045 (9th
Cir. 2000)).
The FCC’s organic statute is the Telecommunications Act of 1996 (“the Act”), 110 Stat. 56. Legislative
hearings, as well as the Act itself, show that Congress
desired “uniform, consistent requirements, with adequate safeguards of public health and safety” in nationwide telecom services. See H.R. Rep. No. 104-204,
94 (1996). The Act delegated to the FCC the authority
“to ‘make effective rules regarding the environmental
effects of [RF] emissions.’” Farina v. Nokia Inc., 625
F.3d 97, 106 (3d Cir. 2010) (quoting 110 Stat. 56, 152).
Specifically, “the FCC was tasked not only with protecting the health and safety of the public, but also
with ensuring the rapid development of an efficient
and uniform network[.]” Id. at 125. This led to the creation of the regulatory measures described supra.
The centerpiece of CTIA’s argument is that the
FCC does not compel cell phone manufacturers to provide information to consumers about SAR limits on
RF radiation exposure. CTIA did not make this argument in the district court. Indeed, it conceded in its
briefing in the district court that the FCC did so require. See, e.g., Plaintiff’s Reply in Support of Motion
for a Preliminary Injunction at 12 (“The manner in
which Berkeley requires CTIA’s members to deliver
Berkeley’s message—at the point of sale, rather than
in a user manual—also distinguishes the Ordinance
from the FCC’s requirements.”) (emphasis added).
CTIA made this argument for the first time in its Reply Brief in this court, and it repeated the argument
during oral argument to our panel.

37a
Because CTIA conceded the point in the district
court and made its argument to the contrary only before us (and even then only in its Reply Brief and during oral argument), it is waived. See Conn. Gen. Life
Ins. Co. v. New Images of Beverly Hills, 321 F.3d 878,
882 (9th Cir. 2003) (“This issue is raised for the first
time on appeal, and we therefore treat the issue as
waived.”); United States v. Bohn, 956 F.2d 208, 209
(9th Cir. 1992) (“we ordinarily decline to consider arguments raised for the first time in a reply brief”). But
we note that if we were to consider CTIA’s argument
on the merits, we would reject it. Beginning in October 2015, the FCC required cell phone manufacturers
to inform consumers of minimum separation distances in user manuals. We quoted the relevant passage, supra at 14–15. For the convenience of the
reader, we repeat much of the passage here:
Specific information must be included in
the operating manuals to enable users to
select body-worn accessories that meet
the minimum test separation distance
requirements. Users must be fully informed of the operating requirements
and restrictions, to the extent that the
typical user can easily understand this
information, to acquire the required
body-worn accessories to maintain compliance. . . . All supported body-worn accessory operating configurations must be
clearly disclosed to users, through conspicuous instructions in the user guide
and user manual, to ensure unsupported
operations are avoided.

38a
In re Exposure Procedures and Equipment Authorization Policies for Mobile and Portable Devices, FCC Office of Engineering and Technology Laboratory Division § 4.2.2(d) at 11 (Oct. 23, 2015) (“FCC Exposure
Procedures”) (emphases added). The FCC document
containing this language “is one of a collection of guidance publications referred to as the published RF exposure KDB procedures.” Id. § 1 at 1 (emphasis in original). The document specifies that “[a]pplications for
equipment authorization must meet all the requirements described in the applicable published RF exposure KDB procedures.” Id. § 2 at 3 (emphasis in original). That is, in order for a cell phone to be authorized
by the FCC for consumer use, it must satisfy the requirements outlined in FCC Exposure Procedures.
c.

Likelihood of Success

Given the FCC’s requirement that cell phone
manufacturers must inform consumers of “minimum
test separation distance requirements,” and must
“clearly disclose[ ]” accessory operating configurations
“through conspicuous instructions in the user guide
and user manual, to ensure unsupported operations
are avoided,” we see little likelihood of success based
on conflict preemption. Berkeley’s compelled disclosure does no more than alert consumers to the safety
disclosures that the FCC requires, and direct consumers to federally compelled instructions in their user
manuals providing specific information about how to
avoid excessive exposure. Far from conflicting with
federal law and policy, the Berkeley ordinance complements and reinforces it.

39a
B. Irreparable Harm
Irreparable harm is relatively easy to establish in
a First Amendment case. “[A] party seeking preliminary injunctive relief in a First Amendment context
can establish irreparable injury . . . by demonstrating
the existence of a colorable First Amendment claim.”
Sammartano v. First Judicial District Court, 303 F.3d
959, 973 (9th Cir. 2002) (citation omitted), abrogated
on other grounds by Winter v. Nat. Res. Def. Council.,
555 U.S. 7, 22 (2008). We nonetheless conclude that
it has not been established here.
“[T]he loss of First Amendment freedoms, for even
minimal periods of time, unquestionably constitutes
irreparable injury.” Id. (citing Elrod v. Burns, 427
U.S. 347, 373 (1976)). But the mere assertion of First
Amendment rights does not automatically require a
finding of irreparable injury. It is the “purposeful unconstitutional suppression of speech [that] constitutes
irreparable harm for preliminary injunction purposes.” Goldie’s Bookstore v. Superior Ct., 739 F.2d
466, 472 (9th Cir. 1984). We have already concluded
under the Zauderer test for compelled disclosure that,
on the record before us, Berkeley’s ordinance complies
with the First Amendment. Sammartano, 303 F.3d at
973–74 (“[T]he test for granting a preliminary injunction is ‘a continuum in which the required showing of
harm varies inversely with the required showing of
meritoriousness,’ when the harm claimed is a serious
infringement on core expressive freedoms, a plaintiff
is entitled to an injunction even on a lesser showing of
meritoriousness.”). Further, there is nothing in the
record showing harm to CTIA or its members through
actual or threatened reduction in sales of cell phones
caused by the disclosure compelled by the ordinance.

40a
We conclude similarly that there has been no
showing of irreparable harm based on preemption.
C. Balance of the Equities
A court must “balance the interests of all parties
and weigh the damage to each” in determining the
balance of the equities. Stormans, Inc. v. Selecky, 586
F.3d 1109, 1138 (9th Cir. 2009).
CTIA asserts that implementing the ordinance
will cause its members substantial economic harm
and violate their First Amendment rights. We have
concluded that CTIA’s First Amendment claim is unlikely to succeed, and the record provides no evidence
to support a finding of economic or reputational harm
to cell phone retailers. However, CTIA relies on Pacific Gas & Electric Co. v. Public Utilities Commission
of California, 475 U.S. 1, 15–16 (1986), to argue that,
while disclosures may not violate the First Amendment, the ordinance imposes an “undue burden” on
CTIA’s members because it creates significant “pressure to respond,” and that this pressure is “antithetical to the free discussion that the First Amendment
seeks to foster.” There is no showing of any such pressure. The ordinance requires CTIA’s members to inform their customers that the FCC has promulgated
regulations concerning RF emissions and to advise
customers to refer to their user manuals for more information. To the extent a cell phone retailer is dissatisfied with the disclosure as written, it can append
additional disclosures.
Berkeley Ordinance, §
9.96.030(C) ( May 26, 2015). CTIA has put nothing in
the record showing that any Berkeley cell phone retailer has felt pressured, or has sought to take advantage of the provision of the ordinance allowing it

41a
to make any additional disclosure it desires. See also
Milavetz, 559 U.S. at 250 (“not preventing . . . [the]
convey[ance] of any additional information” is one of
the essential features of a Zauderer disclosure).
Berkeley properly asserts that it has a substantial
interest in protecting the health of its citizens. CTIA,
on the other hand, has failed to demonstrate any hardship tipping the balance in its favor. We conclude that
the balance of the equities favors Berkeley.
D. The Public Interest
“The public interest inquiry primarily addresses
impact on non-parties rather than parties. It embodies the Supreme Court’s direction that[,] in exercising
their sound discretion, courts of equity should pay
particular regard for the public consequences in employing the extraordinary remedy of injunction.”
Bernhardt v. L.A. Cty., 339 F.3d 920, 931–32 (9th Cir.
2003) (internal quotation marks and citation omitted)
(citing Weinberger v. Romero-Barcelo, 456 U.S. 305,
312 (1982)). We agree with the district court that an
injunction would injure the public interest in having
a free flow of accurate information.
“Protection of the robust and free flow of accurate
information is the principal First Amendment justification for protecting commercial speech, and requiring disclosure of truthful information promotes that
goal.” Nat’l Elec. Mfrs. Ass’n, 272 F.3d at 114. The
district court found that while “‘accurate and balanced
disclosures regarding RF energy are already available’ . . . there is evidence that the public does not know
about those disclosures.” Because “disclosure furthers, rather than hinders . . . the efficiency of the
‘marketplace of ideas,’” we hold that the ordinance is

42a
in the public interest and that an injunction would
harm that interest. See Nat’l Elec. Mfrs. Ass’n, 272
F.3d at 114.
Conclusion
Our assessment of the probability of CTIA’s success on the merits, the likelihood of irreparable harm,
the balance of the hardships, and the public interest
lead us to conclude that the district court did not
abuse its discretion in denying preliminary injunctive
relief to CTIA. Accordingly, the district court’s order
denying such relief is
AFFIRMED.
_________________________________________________
FRIEDLAND, Circuit Judge, dissenting in part:
The majority interprets the sentences in Berkeley’s forced disclosure statement one at a time and
holds that each is “literally true.” But consumers
would not read those sentences in isolation the way
the majority does. Taken as a whole, the most natural
reading of the disclosure warns that carrying a cell
phone in one’s pocket is unsafe. Yet Berkeley has not
attempted to argue, let alone to prove, that message
is true.
It is clear that the First Amendment prevents the
government from requiring businesses to make false
or misleading statements about their own products.
See Video Software Dealers Ass’n v. Schwarzenegger,
556 F.3d 950, 967 (9th Cir. 2009), aff’d sub nom.
Brown v. Entm’t Merchs. Ass’n, 564 U.S. 786 (2011).
Because—at least on the current record—that is what
Berkeley’s ordinance would do, I believe the ordinance

43a
violates the First Amendment and therefore should
have been preliminarily enjoined.1
See Klein v. City of San Clemente, 584 F.3d 1196,
1207–08 (9th Cir. 2009) (“Both this court and the Supreme Court have repeatedly held that ‘[t]he loss of
First Amendment freedoms, for even minimal periods
of time, unquestionably constitutes irreparable injury.’” (quoting Elrod v. Burns, 427 U.S. 347, 373
(1976))).
I
Berkeley’s ordinance requires stores selling cell
phones to provide a disclosure stating:
To assure safety, the Federal Government requires that cell phones meet radio-frequency (RF) exposure guidelines.
If you carry or use your phone in a pants
or shirt pocket or tucked into a bra when
the phone is ON and connected to a wireless network, you may exceed the federal
guidelines for exposure to RF radiation.
Refer to the instructions in your phone or
use manual for information about how to
use your phone safely.
Berkeley Mun. Code § 9.96.030(A) (2015).
The majority parses these sentences individually
and concludes that each is “literally true.” In my view,
this approach misses the forest for the trees. On its
face, the disclosure begins and ends with references to

1

I agree with the majority’s preemption analysis so dissent
only from sections IV.A.1., IV.B., IV.C., and IV.D. of the majority
opinion.

44a
safety, plainly conveying that the intervening language describes something unsafe. Indeed, the disclosure directs consumers to their user manuals for instructions on “how to use your phone safely.” The message of the disclosure as a whole is clear: carrying a
phone “in a pants or shirt pocket or tucked into a bra”
is not safe. Yet that implication is a problem for
Berkeley because it has not offered any evidence that
carrying a cell phone in a pocket is in fact unsafe. Instead, it has expressly denied that the required disclosure conveys that message. I disagree.
Berkeley insists the ordinance “rests exclusively
upon existing FCC regulations.” But those regulations
communicate something far different than does the
ordinance. The FCC guidelines make clear that they
are designed to incorporate a many-fold safety factor,
such that exposure to radiation in excess of the guideline level is considered by the FCC to be safe:
Our current RF exposure guidelines . . .
include[e] a significant “safety” factor,
whereby the exposure limits are set at a
level on the order of 50 times below the
level at which adverse biological effects
have been observed in laboratory animals as a result of tissue heating resulting from RF exposure. This “safety” factor can well accommodate a variety of
variables such as different physical characteristics and individual sensitivities —
and even the potential for exposures to
occur in excess of our limits without posing a health hazard to humans.

45a
In re Reassessment of FCC Radiofrequency Exposure Limits and Policies, 28 FCC Rcd. 3498, 3582
(Mar. 29, 2013) (emphasis added). There is thus no
evidence in the record that the message conveyed by
the ordinance is true.2
II
The First Amendment clearly does not permit the
government to force businesses to make false or misleading statements about their products. In Video
Software Dealers, we considered a challenge to a California law requiring that “violent” video games be labeled with a sticker that said “18” and preventing the
sale or rental of violent video games to minors. 556
F.3d at 953–54. After striking down the law’s sale and

2

Because even under Zauderer v. Office of Disciplinary Counsel, 471 U.S. 626 (1985), any forced disclosure statement must be
truthful, see id. at 651; Am. Beverage Ass’n v. City & County of
San Francisco, 916 F.3d 749, 756 (9th Cir. 2019) (en banc), I do
not think that any discussion of the scope of Zauderer’s applicability is necessary in this case. Were I writing on a blank slate
about that issue, however, I would conclude that Zauderer applies only when the government compels a truthful disclosure to
counter a false or misleading advertisement. Given that the disclosure in Zauderer itself prevented an advertisement from being
misleading, I have serious doubt that the Supreme Court intended the Zauderer test to apply in broader circumstances. See
Zauderer, 471 U.S. at 651 (“[W]e hold that an advertiser’s rights
are adequately protected as long as disclosure requirements are
reasonably related to the State’s interest in preventing deception
of consumers.”). Although our en banc decision in American Beverage held that Zauderer is not so limited, see 916 F.3d at 756, I
agree with Judge Nguyen’s statement in her separate concurrence there that “[t]he Supreme Court recently had the opportunity to expand Zauderer’s application beyond deceptive speech
but declined to do so.” Id. at 768 (Nguyen, J., concurring in the
judgment).

46a
rental prohibition, we concluded that continuing to require the label “18” “would arguably . . . convey a false
statement” that minors could not buy or rent the video
game, and was therefore unconstitutional. Id. at 965–
67. The same principle applies here: the First Amendment prohibits Berkeley from compelling retailers to
communicate a misleading message. I would thus
hold that CTIA is likely to succeed on the merits of its
First Amendment challenge.
There are downsides to false, misleading, or unsubstantiated product warnings. Psychological and
other social science research suggests that overuse
may cause people to pay less attention to warnings
generally: “[A]s the number of warnings grows and
the prevalence of warnings about low level risks increases, people will increasingly ignore or disregard
them.” J. Paul Frantz et al., Potential Problems Associated with Overusing Warnings, Proceedings of the
Human Factors & Ergonomics Soc’y 43rd Ann. Meeting 916, 916 (1999). Relatedly, “[w]arnings about very
minor risks or risks that are extremely remote have
raised concerns about negative effects on the believability and credibility of warnings. . . . In essence, such
warnings represent apparent false alarms as they appear to be ‘crying wolf.’” Id. at 918; see also David W.
Stewart & Ingrid M. Martin, Intended and Unintended Consequences of Warning Messages: A Review
and Synthesis of Empirical Research, 13 J. Pub. Pol’y
& Marketing 1, 7 (1994). If Berkeley wants consumers
to listen to its warnings, it should stay quiet until it is
prepared to present evidence of a wolf.

47a

APPENDIX B
(ORDER LIST: 585 U.S.)
THURSDAY, JUNE 28, 2018
CERTIORARI -- SUMMARY DISPOSITIONS
*
17-976

*

*

CTIA - THE WIRELESS ASSOCIATION
V. BERKELEY, CA, ET AL.

The petitions for writs of certiorari are granted.
The judgments are vacated, and the cases are remanded to the United States Court of Appeals for the
Ninth Circuit for further consideration in light of National Institute of Family and Life Advocates v.
Becerra, 585 U. S. ____ (2018).
*

*

*

48a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CTIA - THE WIRELESS
ASSOCIATION,
Plaintiffs-Appellees,
v.

No. 16-15141
D.C. No.
3:15-cv-02529EMC

CITY OF BERKELEY,
California; CHRISTINE
DANIEL, City Manager of
Berkeley, California, in her
official capacity,

OPINION

Defendants-Appellants.

Appeal from the United States District Court
for the Northern District of California
Edward M. Chen, District Judge, Presiding
Argued and Submitted September 13, 2016
San Francisco, California
Filed April 21, 2017
Before: William A. Fletcher, Morgan B. Christen,
and Michelle T. Friedland, Circuit Judges.
Opinion by Judge W. Fletcher;
Dissent by Judge Friedland

49a
SUMMARY*
First Amendment/Preemption
The panel affirmed the district court’s order denying a request for a preliminary injunction seeking to
stay enforcement of a City of Berkeley ordinance requiring cell phone retailers to inform prospective cell
phone purchasers that carrying a cell phone in certain
ways may cause them to exceed Federal Communications Commission guidelines for exposure to radio-frequency radiation.
Applying Zauderer v. Office of Disciplinary Counsel of the Supreme Court of Ohio, 471 U.S. 626 (1985),
the panel held that the City’s compelled disclosure of
commercial speech complied with the First Amendment because the information in the disclosure was
reasonably related to a substantial governmental interest and was purely factual. Accordingly, the panel
concluded that plaintiff had little likelihood of success
on its First Amendment claim that the disclosure compelled by the Berkeley ordinance was unconstitutional.
The panel determined that there was little likelihood of success on plaintiff’s contention that the
Berkeley ordinance was preempted. The panel held
that Berkeley’s compelled disclosure did no more than
alert consumers to the safety disclosures that the Federal Communication Commission requires, and to direct consumers to federally compelled instructions in

*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of
thereader.

50a
their user manuals providing specific information
about how to avoid excessive exposure. The panel held
that far from conflicting with federal law and policy,
the Berkeley ordinance complements and reinforces
it.
In affirming the denial of a preliminary injunction, the panel further determined that there was no
irreparable harm based on the First Amendment or
preemption, that the balance of equities tipped in
Berkeley’s favor, that the ordinance was in the public
interest, and that an injunction would harm that interest.
Dissenting in part, Judge Friedland stated that
Berkeley’s ordinance likely violates the First Amendment and therefore should have been preliminarily
enjoined. She stated that taken as a whole, the most
natural reading of the Berkeley disclosure warns that
carrying a cell phone in one’s pocket is unsafe. Yet
Berkeley had not attempted to argue, let alone to
prove, that message was true.
_________________________________________________
COUNSEL
Theodore B. Olson (argued), Helgi C. Walker, Michael
R. Huston, and Jacob T. Spencer, Gibson Dunn &
Crutcher LLP, Washington, D.C.; Joshua S. Lipshutz
and Joshua D. Dick, Gibson Dunn & Crutcher LLP,
San Francisco, California; for Plaintiff-Appellant.
Lester Lawrence Lessig, III (argued), Cambridge,
Massachusetts; Amana Shanor, New Haven, Connecticut; Savith Iyengar, Deputy City Attorney; Zach
Cowan, City Attorney; Berkeley City Attorney’s

51a
Of- fice, Berkeley, California; for Defendants-Appellants.
Robert Corn-Revere and Ronald G. London, Davis
Wright Tremaine LLP, Washington, D.C., for Amicus
Curiae The Association of National Advertisers, Inc.
Selena Kyle, Chicago, Illinois; Aaron Colangelo,
Washington, D.C.; as and for Amicus Curiae Natural
Resources Defense Council.
R. Matthew Wise, Deputy Attorney General; Mark R.
Beckington, Supervising Deputy Attorney General;
Douglas J. Woods, Senior Assistant Attorney General;
Kathleen A. Kenealy, Chief Assistant Attorney General; Sacramento, California; as and for Amicus Curiae Attorney General of California.
_________________________________________________
OPINION
W. FLETCHER, Circuit Judge:
A City of Berkeley ordinance requires cell phone
retailers to inform prospective cell phone purchasers
that carrying a cell phone in certain ways may cause
them to exceed Federal Communications Commission
guidelines for exposure to radio-frequency radiation.
CTIA, a trade association formerly known as Cellular
Telephone Industries Association, challenges the ordinance on two grounds. First, it argues that the ordinance violates the First Amendment. Second, it argues that the ordinance is preempted.
CTIA requested a preliminary injunction staying
enforcement of the ordinance. The district court denied CTIA’s request, and CTIA filed an interlocutory

52a
appeal. We affirm and remand for further proceedings.
I.

Factual and Procedural Background

In May 2015, the City of Berkeley passed an ordinance requiring cell phone retailers to disclose information to prospective cell phone purchasers about the
federal government’s radio-frequency radiation exposure guidelines relevant to cell phone use. Under
“Findings and Purpose,” the ordinance provided:
A. Requirements for the testing of cell
phones were established by the federal
government in 1996.
B. These requirements established
“Specific Absorption Rates” (SAR) for cell
phones.
C. The protocols for testing the SAR
for cell phones carried on a person’s body
assumed that they would be carried a
small distance away from the body, e.g.,
in a holster or belt clip, which was the
common practice at that time. Testing of
cell phones under these protocols has
generally been conducted based on an assumed separation of 10–15 millimeters.
D. To protect the safety of their consumers, manufacturers recommend that
their cell phones be carried away from
the body, or be used in conjunction with
hands-free devices.
E. Consumers are not generally aware
of these safety recommendations.

53a
F. Currently, it is much more common
for cell phones to be carried in pockets or
other locations rather than holsters or
belt clips, resulting in much smaller separation distances than the safety recommendations specify.
G. Some consumers may change their
behavior to better protect themselves
and their children if they were aware of
these safety recommendations.
H. While the disclosures and warnings
that accompany cell phones generally advise consumers not to wear them against
their bodies, e.g., in pockets, waistbands,
etc., these disclosures and warnings are
often buried in fine print, are not written
in easily understood language, or are accessible only by looking for the information on the device itself.
I.
The purpose of this Chapter is to
assure that consumers have the information they need to make their own
choices about the extent and nature of
their exposure to radio-frequency radiation.
Berkeley Mun. Code § 9.96.010 (2015).
CTIA challenged the compelled disclosure provision of the ordinance, arguing that it violated the First
Amendment and was preempted. One sentence of the
compelled disclosure stated, “The potential risk is
greater for children.” The district court held that this
sentence was preempted, and it issued a preliminary
injunction against enforcement of the ordinance. In

54a
December 2015, Berkeley re-passed the ordinance
without the offending sentence. In its current form,
the compelled disclosure provision provides:
A. Cell phone retailer shall provide to
each customer who buys or leases a Cell
phone a notice containing the following
language:
The City of Berkeley requires that you be
provided the following notice:
To assure safety, the Federal Government requires that cell phones meet radio-frequency (RF) exposure guidelines.
If you carry or use your phone in a pants
or shirt pocket or tucked into a bra when
the phone is ON and connected to a wireless network, you may exceed the federal
guidelines for exposure to RF radiation.
Refer to the instructions in your phone or
user manual for information about how
to use your phone safely.
Berkeley Mun. Code § 9.96.030(A) (2015).
The ordinance requires that the compelled disclosure be provided either on a prominently displayed
poster no less than 81/2 by 11 inches with no smaller
than 28-point font, or on a handout no less than 5 by
8 inches with no smaller than 18-point font. The logo
of the City of Berkeley must be placed on the poster
and handout. The ordinance provides that a cell
phone retailer may include additional information on
the poster or handout if it is clear that the additional
information is not part of the compelled disclosure. §
9.96.030(B) (“The paper on which the notice is printed
may contain other information in the discretion of the

55a
Cell phone retailer, as long as that information is distinct from the notice language required by subdivision
(A) of this Section.”).
CTIA challenged the current ordinance, arguing,
as it had before, that the ordinance violates the First
Amendment and is preempted. The district court
noted that the preempted sentence had been removed
from the ordinance, dissolved its previously entered
injunction, and denied CTIA’s request for a new preliminary injunction. CTIA filed an interlocutory appeal.
II. Jurisdiction and Standard of Review
We have jurisdiction under 28 U.S.C. § 1292. We
review a denial of a preliminary injunction for abuse
of discretion. Inst. of Cetacean Research v. Sea Shepherd Conservation Soc’y, 725 F.3d 940, 944 (9th Cir.
2013). “An abuse of discretion occurs when the district
court based its ruling on an erroneous view of the law
or on a clearly erroneous assessment of the evidence.”
Friends of the Wild Swan v. Weber, 767 F.3d 936, 942
(9th Cir. 2014) (citation and internal quotation marks
omitted). We will not reverse the district court where
it “got the law right,” even if we “would have arrived
at a different result,” so long as the district court did
not clearly err in its factual determinations. Lands
Council v. McNair, 537 F.3d 981, 987 (9th Cir. 2008)
(en banc).
III. Regulatory Background
The Federal Communications Commission
(“FCC”) has regulatory jurisdiction over transmitting
services in the United States. In 1996, after extensive
consultation with other agencies, the FCC issued a
rule designed to limit the Specific Absorption Rate

56a
(“SAR”) of radio-frequency (“RF”) radiation from FCCregulated transmitters, including cell phones:
1. By this action, we are amending
our rules to adopt new guidelines and
methods for evaluating the environmental effects of radio-frequency (RF) radiation from FCC-regulated transmitters.
We are adopting Maximum Permissible
Exposure (MPE) limits for electric and
magnetic field strength and power density for transmitters operating at frequencies from 300 kHz to 100 GHz . . .
We are also adopting limits for localized
(“partial body”) absorption that will apply to certain portable transmitting devices . . . We believe that the guidelines we
are adopting will protect the public and
workers from exposure to potentially
harmful RF fields.
2. In reaching our decision on the
adoption of new RF exposure guidelines
we have carefully considered the large
number of comments submitted in this
proceeding, and particularly those submitted by the U.S. Environmental Protection Agency (EPA), the Food and Drug
Administration (FDA) and other federal
health and safety agencies. The new
guidelines we are adopting are based
substantially on the recommendations of
those agencies, and we believe that these
guidelines represent a consensus view of

57a
the federal agencies responsible for matters relating to the public safety and
health.
In re Guidelines for Evaluating the Environmental
Effects of Radio-frequency Radiation, 61 Fed. Reg.
41006, 41006–07 (Aug. 7, 1996) (emphases added).
Out of concern for the safety of cell phone users,
the FCC rejected an industry proposal to exclude “lowpower devices” such as cell phones from the rule
adopting SAR limits:
Most commenting parties, including
Federal health and safety agencies, support the use of the ANSI/IEEE [American National Standards Institute/ Institute of Electrical and Electronic Engineers] SAR limits for localized (partial
body) exposure for evaluating low-power
devices designed to be used in the immediate vicinity of the body. . . . Therefore,
in view of the consensus and the scientific
support in the record, we are adopting the
SAR limits for the determination of safe
exposure from low-power devices designed to be used in the immediate vicinity of the body based upon the 1992
ANSI/IEEE guidelines. . . .
The SAR limits we are adopting will
generally apply to portable devices . . .
that are designed to be used with any
part of the radiating structure of the device in direct contact with the body of the
user or within 20 cm of the body under
normal conditions of use. For example,

58a
this definition would apply to hand-held
cellular telephones. . . .
In re Guidelines for Evaluating the Environmental
Effects of Radio-frequency Radiation (“FCC Guidelines for Radio-frequency Radiation”), FCC 96-326, ¶¶
62–63(Aug. 1, 1996) (emphases added).
The FCC has a better-safe-than-sorry policy with
respect to SAR limits:
. . . The intent of our exposure limits
is to provide a cap that both protects the
public based on scientific consensus and
allows for efficient and practical implementation of wireless services. The present Commission exposure limit is a
“bright-line rule.” That is, so long as exposure levels are below a specified limit
value, there is no requirement to further
reduce exposure. . . . Our current RF exposure guidelines are an example of such
regulation, including a significant
“safety” factor, whereby the exposure
limits are set at a level on the order of 50
times below the level at which adverse
biological effects have been observed in
laboratory animals as a result of tissue
heating resulting from RF exposure.
In re Reassessment of FCC Radiofrequency Exposure
Limits and Policies, 28 FCC Rcd. 3498, 3582 (Mar. 29,
2013). The FCC recognizes that its required margin
of safety is large:
. . . [E]xceeding the SAR limit does
not necessarily imply unsafe operation,
nor do lower SAR quantities imply

59a
“safer” operation. The limits were set
with a large safety factor, to be well below a threshold for unacceptable rises in
tissue temperature. As a result, exposure well above the specified SAR limit
should not create an unsafe condition. . .
. In sum, using a device against the body
without a spacer will generally result in
actual SAR below the maximum SAR
tested; moreover, a use that possibly results in non-compliance with the SAR
limit should not be viewed with significantly greater concern than compliant
use.
Id. at 3588 (emphasis added).
There are two ways to ensure compliance with
SAR limits—reducing the amount of RF radiation
from a transmitting device, and increasing the distance between the device and the user. Different lowpower devices emit different amounts of RF radiation,
with the result that the minimum distance between
the device and the user to achieve compliance with
SAR limits varies somewhat from device to device.
The FCC requires that cell phone user manuals contain information that alerts users to the minimum distances appropriate for the device they are using:
Specific information must be included
in the operating manuals to enable users
to select body-worn accessories that meet
the minimum test separation distance requirements. Users must be fully informed of the operating requirements
and restrictions, to the extent that the

60a
typical user can easily understand the
information, to acquire the required
body-worn accessories to maintain compliance. Instructions on how to place
and orient a device in body-worn accessories, in accordance with the test results, should also be included in the user
instructions. All supported body-worn
accessory operating configurations must
be clearly disclosed to users, through conspicuous instructions in the user guide
and user manual, to ensure unsupported
operations are avoided.
In re Exposure Procedures and Equipment Authorization Policies for Mobile and Portable Devices, FCC Office of Engineering and Technology Laboratory Division § 4.2.2(d) (Oct. 23, 2015) (“FCC Exposure Procedures”) (emphasis added). Compliance with this disclosure requirement is a prerequisite for approval of a
transmitting device by the FCC. See id. at § 1.
The following are examples of cell phone user
manuals that comply with the FCC’s disclosure requirement:
Apple:
iPhone’s SAR measurement may exceed
the FCC exposure guidelines for bodyworn operation if positioned less than 15
mm (5/8 inch) from the body (e.g. when
carrying iPhone in your pocket). See iPhone 3G manual, at 7, http://manuals.info.apple.com/MANU-

61a
ALS/0/MA618/en_US/iPhone_3G_Important_Product_Infor- mation_Guide.pdf.
Samsung:
If there is a risk from being exposed to
radio-frequency energy (RF) from cell
phones - and at this point we do not know
that there is - it is probably very small.
But, if you are concerned about avoiding
even potential risks, you can take a few
simple steps to minimize your RF exposure.
 Reduce the amount of time spent using your
cell phone;
 Use speaker mode or a headset to place more
distance between your head and the cell phone.
See Samsung Common Phone Health and Safety and
Warranty Guide, at 8, http://www.samsung.com/us/
Legal/PHONE-HS_GUIDE_English.pdf.
LG:
The highest SAR value for this model
phone when tested for use at the ear is
1.08 W/Kg (1g) and when worn on the
body, as described in this user guide, is
0.95 W/Kg (1g) (body-worn measurements differ among phone models, depending upon available accessories and
FCC requirements). While there may be
differences between SAR levels of various phones and at various positions, they
all meet the government requirement for
safe exposure. The FCC has granted an

62a
Equipment Authorization for this model
phone with all reported SAR levels evaluated as in compliance with the FCC RF
emission guidelines. SAR information
on this model phone is on file with the
FCC and can be found under the Display
Grant section of http://www. fcc.gov/oet/
ea/fccid/ after searching on FCC ID
ZNFL15G.
See
LG
Sunrise
User
Guide,
at
93,
http://www.lg.com/us/ support/manuals-documents
IV. Discussion
“A plaintiff seeking a preliminary injunction must
establish [1] that he is likely to succeed on the merits,
[2] that he is likely to suffer irreparable harm in the
absence of preliminary relief, [3] that the balance of
equities tips in his favor, and [4] that an injunction is
in the public interest.” Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). “[A] stronger showing
of one element may offset a weaker showing of another.” Alliance for the Wild Rockies v. Cottrell, 632
F.3d 1127, 1131 (9th Cir. 2011). For example, “a preliminary injunction could issue where the likelihood
of success is such that ‘serious questions going to the
merits were raised and the balance of hardships tips
sharply in [plaintiff’s] favor.’” Id. at 1132 (quoting
Clear Channel Outdoor, Inc. v. City of Los Angeles,
340 F.3d 810, 813 (9th Cir. 2003).
A. Likelihood of Success
CTIA makes two merits-based arguments against
the Berkeley ordinance. First, it argues that the ordi-

63a
nance violates the First Amendment. Second, it argues that the ordinance is preempted. We take the
arguments in turn.
1. First Amendment
The underlying disclosure at issue is the disclosure that the FCC compels cell phone manufacturers
to provide to consumers. However, CTIA has not sued
the FCC. Rather, CTIA has sued Berkeley, challenging the disclosure Berkeley compels cell phone retailers to provide to the same consumers. The Berkeley
ordinance requires cell phone retailers to disclose, in
summary form, the same information to consumers
that the FCC already requires cell phone manufacturers to disclose. The Berkeley disclosure then directs
consumers to user manuals for more specific information.
a. Central Hudson or Zauderer
The parties agree that Berkeley’s ordinance is a
regulation of commercial speech. Central Hudson Gas
& Elec. Corp. v. Pub. Serv. Comm’n of N.Y., 447 U.S.
557, 561 (1980); see Hunt v. City of L.A., 638 F.3d 703,
715 (9th Cir. 2011). However, they disagree about
whether the ordinance’s compliance with the First
Amendment should be analyzed under Central Hudson or under Zauderer v. Office of Disciplinary Counsel of the Supreme Court of Ohio, 471 U.S. 626 (1985).
Under Central Hudson, the government may restrict or prohibit commercial speech that is neither
misleading nor connected to unlawful activity, as long
as the governmental interest in regulating the speech
is substantial. 477 U.S. at 564. The restriction or prohibition must “directly advance the governmental interest asserted,” and must not be “more extensive

64a
than is necessary to serve that interest.” Id. at 566.
Under Zauderer as we interpret it today, the government may compel truthful disclosure in commercial
speech as long as the compelled disclosure is “reasonably related” to a substantial governmental interest.
Zauderer, 471 U.S. at 651; see discussion infra.
We apply the intermediate scrutiny test mandated by Central Hudson in commercial speech cases
where speech is restricted or prohibited, on the
ground that in such cases intermediate scrutiny appropriately protects the interests of both the speaker
(the seller) and the audience (the purchaser). But one
size does not fit all in commercial speech cases. In
Central Hudson itself, the Supreme Court cautioned,
“The protection available for particular commercial
expression turns on the nature both of the expression
and of the governmental interests served by its regulation.” Central Hudson, 477 U.S. at 563.
Five years after Central Hudson, the Court held
that Central Hudson’s intermediate scrutiny test does
not apply to compelled, as distinct from restricted or
prohibited, commercial speech. In Zauderer, defendant Zauderer advertised legal services to prospective
Dalkon Shield plaintiffs in a number of Ohio newspapers. The advertisement stated, inter alia, “‘The cases
are handled on a contingent fee basis of the amount
recovered. If there is no recovery, no legal fees are
owed by our clients.’” Zauderer, 471 U.S. at 631. Zauderer was disciplined under Ohio state bar disciplinary rules on the ground that the advertisement was
“deceptive” within the meaning of the rules, id. at 633,
because it failed to disclose “the client’s potential liability for costs even if her suit were unsuccessful.” Id.
at 635. The Court noted that the bar disciplinary

65a
rules required Zauderer to “include in his advertising
purely factual and uncontroversial information about
the terms under which his services will be available.”
Id. at 651. The Court wrote, “Ohio has not attempted
to prevent attorneys from conveying information to
the public; it has only required them to provide somewhat more information than they might otherwise be
inclined to present.” Id. at 650. The Supreme Court
declined to apply the Central Hudson test:
Because the extension of First Amendment protection to commercial speech is
justified principally by the value to consumers of the information such speech
provides, appellant’s constitutionally
protected interest in not providing any
particular factual information is minimal. . . . We recognize that unjustified or
unduly burdensome disclosure requirements might offend the First Amendment by chilling protected commercial
speech. But we hold that an advertiser’s
rights are adequately protected as long
as disclosure requirements are reasonably related to the State’s interest in preventing deception of consumers.
Id. at 651 (internal citation omitted). See also Milavetz, Gallop & Milavetz, P.A. v. United States, 559
U.S. 229, 253 (2010) (following Zauderer and using its
“preventing deception” language).
b. The Zauderer Test
i.

Substantial Governmental Interest

CTIA contends that the Zauderer exception to the
general rule of Central Hudson does not apply in this

66a
case because the speech compelled by the Berkeley ordinance does not prevent deception of consumers.
This is the first time we have had occasion in this circuit to squarely address the question whether, in the
absence of a prevention-of-deception rationale, the
Zauderer compelled-disclosure test applies. Cf. Video
Software Dealers Ass’n v. Schwarzenegger, 556 F.3d
950, 967 (9th Cir. 2009) (invalidating compelled disclosure on video game packaging, noting that the disclosure would “arguably now convey a false statement
that certain conduct is illegal when it is not, and the
State has no legitimate reason to force retailers to affix false information on their products”). Several of
our sister circuits, however, have answered this question. They have unanimously concluded that the Zauderer exception for compelled speech applies even in
circumstances where the disclosure does not protect
against deceptive speech.
In American Meat Institute v. U.S. Department of
Agriculture, 760 F.3d 18 (D.C. Cir. 2014) (en banc), a
Department of Agriculture regulation required identification of the country of origin on the packaging of
meat and meat products. Id. at 20. The regulation implemented a federal statute requiring countryoforigin labeling. See 7 U.S.C. § 1638, 1638a. The D.C.
Circuit held that Zauderer should not be read to apply
only to cases where government-compelled speech
prevents or corrects deceptive speech. It noted that
on the facts of both Zauderer and Milavetz (in which
the Court repeated Zauderer’s “preventing deception”
language) there had been deceptive speech: “Given the
subject of both cases, it was natural for the Court to
express the rule in such terms. The language could
have been simply descriptive of the circumstances to

67a
which the Court applied its new rule[.]” Am. Meat, 760
F.3d at 22. The D.C. Circuit concluded, “The language
with which Zauderer justified its approach . . . sweeps
far more broadly than the interest in remedying deception.” Id.
In National Electrical Manufacturers Association
v. Sorrell, 272 F.3d 104 (2d Cir. 2001), a Vermont statute required manufacturers of mercury-containing
products to label their products and packaging to inform consumers that the products contained mercury
and instructing them that the products should be disposed of or recycled as hazardous waste. Id. at 107.
The Second Circuit held that the compelled disclosure
was supported by a “substantial state interest in protecting human health and the environment.” Id. at
115 n. 6. Citing Zauderer, the court recognized that
the compelled disclosure did not “prevent ‘consumer
confusion or deception.’” Sorrell, 272. F.3d at 115. It
nonetheless upheld the disclosure as not “inconsistent
with the policies underlying First Amendment protection of commercial speech.” Id. “[M]andated disclosure
of accurate, factual, commercial information does not
offend the core First Amendment values of promoting
efficient exchange of information or protecting individual liberty interests.” Id. at 114; see also N.Y. St.
Rest. Ass’n v. N.Y. City Bd. of Health, 556 F.3d 114,
133 (2d Cir. 2009) (“Zauderer’s holding was broad
enough to encompass nonmisleading disclosure requirements.”); Discount Tobacco City & Lottery, Inc. v.
United States, 674 F.3d 509, 556–58 (6th Cir. 2012)
(upholding federally required health warnings on cigarette packaging and in cigarette advertisements, relying on the Second Circuit’s opinion in Sorrell);
Pharm. Care Mgmt. Ass’n v. Rowe, 429 F.3d 294, 310

68a
n.8 (1st Cir. 2005) (noting that the court had found no
cases limiting application of the Zauderer compelled
speech test to prevention or correction of deceptive advertising); cf. Dwyer v. Cappell, 762 F.3d 275, 281–82
(3d Cir. 2014) (describing but not relying on Zauderer’s preventing-deception criterion).
We agree with our sister circuits that under Zauderer the prevention of consumer deception is not the
only governmental interest that may permissibly be
furthered by compelled commercial speech. We conclude that any governmental interest will suffice so
long as it is substantial. In American Meat, the D.C.
Circuit declined to decide whether the governmental
interest must be substantial, leaving open the question whether a less-than-substantial interest might
suffice. See Am. Meat, 760 F.3d at 23 (“Because the
interest motivating the 2013 [country-of-origin] rule is
a substantial one, we need not decide whether a lesser
interest could suffice under Zauderer.”). We answer
the question avoided in American Meat, holding that
Zauderer requires that the compelled disclosure further some substantial—that is, more than trivial governmental interest. Central Hudson explicitly requires that a substantial interest be furthered by a
challenged regulation prohibiting or restricting commercial speech, and we see nothing in Zauderer that
would allow a lesser interest to justify compelled commercial speech. To use the words of the Second Circuit in Sorrell, the interest at stake must be more than
the satisfaction of mere “consumer curiosity.” Sorrell,
272 F.3d at 115 n.6; see also Am. Meat, 760 F.3d at 23
(“Country-of-origin information has an historical pedigree that lifts it well beyond ‘idle curiosity.’”).

69a
ii. Purely Factual Information
The Court in Zauderer noted that the compelled
disclosure in that case was of “purely factual and uncontroversial information.” Zauderer, 471 U.S. at 651.
The Court did not, however, require in its constitutional test that the disclosed information be “purely
factual and uncontroversial.” Some lower courts have
recited, without discussion, the “purely factual and
uncontroversial” language as part of the Zauderer
test. See, e.g., Nat’l Ass’n of Mfrs. v. S.E.C., 800 F.3d
518, 541 (D.C. Cir. 2015) (“But whatever may be the
complexities of applying the standard in discrete situations, as a matter of precedent, an obligation in the
commercial sphere to disclose ‘purely factual and uncontroversial’ information about a product draws deferential First Amendment review.”); Safelite Grp.,
Inc. v. Jepsen, 764 F.3d 258, 263 (2d Cir. 2014) (“On a
cursory review, our precedent arguably supports the
district court’s conclusion that this law simply requires disclosure of accurate, factual information.”);
Cent. Illinois Light Co. v. Citizens Util. Bd., 827 F.2d
1169, 1173 (7th Cir. 1987) (“In Zauderer, the Court
held that Ohio could constitutionally require an attorney to include in a commercial advertisement, purely
factual and uncontroversial information about the
terms under which the attorney’s services are available.”).
Given that the purpose of the compelled disclosure
is to provide accurate factual information to the consumer, we agree that any compelled disclosure must
be “purely factual.” However, “uncontroversial” in this
context refers to the factual accuracy of the compelled
disclosure, not to its subjective impact on the audience. This is clear from Zauderer itself. The State of

70a
Ohio required attorneys to disclose “the client’s potential liability for costs even if her suit were unsuccessful.” Zauderer, 471 U.S. at 635. Ohio law permitted
attorneys to charge clients for costs even after advertising and agreeing to represent their clients on a contingency-fee basis and losing the suit. Recognizing
that the difference between fees and costs might not
be apparent to prospective clients, Ohio required attorneys to disclose that a contingency fee arrangement might still require the client to pay some money
to the attorney. This required disclosure was factually accurate. That the disclosure may have caused
controversy, for example by discouraging customers
from hiring lawyers who offered contingency-fee arrangements because they feared “hidden costs” or by
harming the reputation of the lawyers who offered
such fee arrangements, did not affect the constitutional analysis. What mattered was that the disclosure provided accurate factual information to the consumer. We therefore conclude that Zauderer requires
only that the information be “purely factual.”
c.

Application of Zauderer Test

Under Zauderer, compelled disclosure of commercial speech complies with the First Amendment if the
information in the disclosure is reasonably related to
a substantial governmental interest and is purely factual. The question before us is whether the speech
compelled by the Berkeley ordinance satisfies this
test.
i. Reasonably Related to a Substantial Governmental
Interest
There is no question that protecting the health
and safety of consumers is a substantial governmental

71a
interest. See, e.g., Posadas de Puerto Rico Assocs. v.
Tourism Co. of Puerto Rico, 478 U.S. 328, 341 (1986)
(“[H]ealth, safety, and welfare constitute[] a ‘substantial’ governmental interest”). The federal government
and Berkeley have both sought to further that interest. By adopting SAR limits on exposure to RF radiation, the FCC has furthered the interest of protecting
the health and safety of cell phone users in the United
States. It has done so by adopting a highly protective
policy, setting low SAR limits on RF radiation and
compelling cell phone manufacturers to disclose information to cell phone users that will allow them to
avoid exceeding those limits. By passing its ordinance, the City of Berkeley has furthered that same
interest. After finding that cell phone users are
largely unaware of the FCC policy and of the information in their user manuals, the Berkeley City
Council decided to compel retailers in Berkeley to provide, in summary form, the same information that the
FCC already requires cell phone manufacturers to
provide to those same consumers, and to direct those
consumers to their user manuals for more detailed information. See Jensen Decl., Ex. A (survey) (reflecting
that a majority of persons surveyed were not “aware
that the government’s radiation tests to assure the
safety of cell phones assume that a cell phone would
not be carried against your body, but would instead be
held at least 1 to 15 millimeters from your body”).
CTIA argues strenuously that radio-frequency radiation from cell phones has not been proven dangerous to consumers. Limiting itself to research published when the record was made in this case, CTIA is
correct in pointing out that there was nothing then before the district court showing that such radiation had

72a
been proven dangerous. But this is beside the point.
The fact that RF radiation from cell phones had not
been proven dangerous was well known to the FCC in
1996 when it adopted SAR limits to RF radiation; was
well known in 2013 when it refused to exclude cell
phones from its rule adopting SAR limits; and was
well known in 2015 when it required cell phone manufacturers to tell consumers how to avoid exceeding
SAR limits. After extensive consultation with federal
agencies with expertise about the health effects of radio-frequency radiation, the FCC decided, despite the
lack of proof of dangerousness, that the best policy
was to adopt SAR limits with a large margin of safety.
The FCC concluded that requiring cell phone
manufacturers to inform consumers in their users
manuals of SAR limits on RF radiation, and to tell
them how to avoid excessive exposure, furthered the
federal government’s interest in protecting their
health and safety. The City of Berkeley concluded
that consumers were largely unaware of the contents
of their users manuals. Agreeing with the FCC that
the information about SAR limits and methods of
avoiding excessive exposure is important, Berkeley requires cell phone retailers to provide some of that
same information to consumers and to direct them to
their user manuals for further details. We are not in
a position to disagree with the conclusions of FCC and
Berkeley that this compelled disclosure is “reasonably
related” to protection of the health and safety of consumers.

73a
ii. Purely Factual
CTIA argues that Berkeley’s compelled disclosure
is not “purely factual” within the meaning of Zauderer. We disagree.
For the convenience of the reader, we again provide the full text of the compelled disclosure:
The City of Berkeley requires that you be provided
the following notice:
To assure safety, the Federal Government requires that cell phones meet radio-frequency (RF) exposure guidelines.
If you carry or use your phone in a pants
or shirt pocket or tucked into a bra when
the phone is ON and connected to a wireless network, you may exceed the federal
guidelines for exposure to RF radiation.
Refer to the instructions in your phone or
user manual for information about how
to use your phone safely.
Berkeley Mun. Code § 9.96.030(A) (2015).
The text of the compelled disclosure is literally
true. We take it sentence by sentence:
(1) “To assure safety, the Federal Government requires that cell phones meet radio-frequency (RF) exposure guidelines.” This statement is true. As recounted above, beginning in 1996 the federal government has set RF exposure guidelines with which cell
phones must comply.
(2) “If you carry or use your cell phone in a pants
or shirt pocket or tucked into a bra when the phone is

74a
ON and connected to a wireless network, you may exceed the federal guidelines for exposure to RF radiation.” This statement is also true. The FCC has established SAR limits for RF radiation, and has concluded
that maintaining a certain separation between a cell
phone and the user’s body protect consumers from exceeding these limits.
(3) “Refer to the instructions in your phone or
user manual for information about how to use your
phone safely.” This sentence is an instruction rather
than a direct factual statement. However, it clearly
implies a factual statement that “information about
how to use your phone safely” in compliance with the
FCC’s RF “exposure guidelines” “to assure safety,”
may be found either in a cell phone or user manual.
This implied statement, too, is true.
We recognize, of course, that a statement may be
literally true but nonetheless misleading and, in that
sense, untrue. That is what CTIA argues here. CTIA
argues that the compelled disclosure is inflammatory
and misleading, and that it is therefore not “purely
factual.” CTIA bases its argument solely on the text of
the ordinance.
CTIA argues that “[t]he Ordinance requires an inflammatory warning about unfounded safety risks”;
that “[t]he Ordinance clearly and deliberately suggests that the federal RF energy testing guideline (the
SAR limit) is the demarcation point of ‘safety’ for cell
phones, such that ‘exposure’ to RF energy above that
limit creates a safety hazard”; and that “[t]he Ordinance is misleading for the additional reason that it
uses the inflammatory term ‘radiation,’ which is
fraught with negative associations, in order to stoke

75a
consumer anxiety.” CTIA argues further that the
phrase “RF radiation” is “fraught with negative associations,” that it is used in the compelled disclosure
“in order to stoke consumer anxiety,” and that it is
therefore not “purely factual.”
We read the text differently. The first sentence
tells consumers that cell phones are required to meet
federal “RF exposure guidelines” in order “[t]o assure
safety.” Far from inflammatory, this statement is
largely reassuring. It assures consumers that the cell
phones they are about to buy or lease meet federally
imposed safety guidelines.
The second sentence tells consumers what to do in
order to avoid exceeding federal guidelines. This
statement may not be reassuring, but it is hardly inflammatory. It provides in summary form information that the FCC has concluded that consumers
should know in order to ensure their safety. Indeed,
the FCC specifically requires cell phone manufacturers to provide this information to consumers. See
“FCC Exposure Procedures” § 4.2.2(d) (“Specific information must be included in the operating manuals to
enable users to select body-worn accessories that meet
the minimum test separation distance requirements. .
. . All supported body-worn accessory operating configurations must be clearly disclosed to users, through
conspicuous instructions in the user guide and user
manual, to ensure unsupported operations are
avoided.”) (emphasis added).
The third sentence tells consumers to consult
their user manuals to obtain further information—

76a
that is, to obtain the very information the FCC requires cell phone manufacturers to provide in “conspicuous instructions” in user manuals.
Further, the phrase “RF radiation,” used in the
second sentence, is precisely the phrase the FCC has
used, beginning in 1996, to refer to radio-frequency
emissions from cell phones. See FCC Guidelines for
Radio frequency Radiation at ¶ 1, supra at 9 (“radiofrequency (RF) radiation”). We do not fault Berkeley
for using the term “RF radiation” when referring to
cell phone emissions when it is not only the technically correct term, but also the term the FCC itself
uses to refer to such emissions.
Finally, we note that the Berkeley ordinance allows a cell phone retailer to add to the compelled disclosure. If a retailer is concerned, as CTIA contends
it should be, that the term “RF radiation” is inflammatory and misleading, the retailer may add to the
compelled disclosure any further statement it sees fit
to add. See § 9.96.030(B) (“The paper on which the
notice is printed may contain other information in the
discretion of the Cell phone retailer[.]”). CTIA has put
nothing in the record to indicate that any Berkeley retailer has felt it necessary, or even useful, to add explanatory information about the nature of RF radiation. Nor has CTIA presented any evidence in the district court showing how Berkeley consumers have understood the compelled disclosure, or evidence showing that sales of cell phones in Berkeley were, or are
likely to be, depressed as a result of the compelled disclosure.

77a
d. Likelihood of Success
Based on the foregoing, we conclude that CTIA
has little likelihood of success on its First Amendment
claim that the disclosure compelled by the Berkeley
ordinance is unconstititutional.
2. Preemption
a. Conflict Preemption
“Federal preemption occurs when: (1) Congress
enacts a statute that explicitly preempts state law; (2)
state law actually conflicts with federal law; or (3) federal law occupies a legislative field to such an extent
that it is reasonable to conclude that Congress left no
room for state regulation in the legislative field.” Chae
v. SLM Corp., 593 F.3d 936, 941 (9th Cir. 2010) (internal quotation marks omitted). CTIA contends that
Berkeley’s compelled disclosure is invalid because of
conflict preemption.
“Conflict preemption is implicit preemption of
state law that occurs where there is an actual conflict
between state and federal law.” McClellan v. I-Flow
Corp., 776 F.3d 1035, 1039 (9th Cir. 2015) (citations
and internal quotation marks omitted). “When Congress charges an agency with balancing competing objectives, it intends the agency to use its reasoned judgment to weigh the relevant considerations and determine how best to prioritize those objectives. Allowing
a state law to impose a different standard [impermissibly] permits a rebalancing of those objectives.” Farina v. Nokia Inc., 625 F.3d 97, 123 (3d Cir. 2010).
Conflict preemption arises either when “compliance
with both federal and state regulations is a physical
impossibility . . . or when state law stands as an obstacle to the accomplishment and execution of the full

78a
purposes and objectives of Congress.” McClellan, 776
F.3d at 1039 (citations and internal quotation marks
omitted). We are concerned here with “obstacle”
preemption. CTIA contends that Berkeley’s compelled disclosure creates an impermissible obstacle by
requiring more disclosure than is required by the
FCC. See Crosby v. Nat’l Foreign Trade Council, 530
U.S. 363, 373 (2000) (finding preemption where a
challenged state law “stands as an obstacle to the accomplishment and execution of the full purposes and
objectives of Congress.”) (internal quotation marks
omitted).
b. Telecommunications Act of 1996
“Preemption analysis ‘start[s] with the assumption that the historic police powers of the States were
not to be superseded by the Federal Act unless that
was the clear and manifest purpose of Congress.’” City
of Columbus v. Ours Garage and Wrecker Serv., Inc.,
536 U.S. 424, 438 (quoting Medtronic, Inc. v. Lohr, 518
U.S. 470, 485 (1996)). “Congressional intent, therefore, is the ultimate touchstone of preemption analysis.” Engine Mfrs. Ass’n v. S. Coast Air Quality Mgmt.
Dist., 498 F.3d 1031, 1040 (9th Cir. 2007) (citing
Tocher v. City of Santa Ana, 219 F.3d 1040, 1045 (9th
Cir. 2000)).
The FCC’s organic statute is the Telecommunications Act of 1996 (“the Act”), 110 Stat. 56. Legislative
hearings, as well as the Act itself, show that Congress
desired “uniform, consistent requirements, with adequate safeguards of public health and safety” in nationwide telecom services. See H.R. Rep. No. 104-204,
94 (1996). The Act delegated to the FCC the authority
“to ‘make effective rules regarding the environmental

79a
effects of [RF] emissions.’” Farina v. Nokia Inc., 625
F.3d 97, 106 (3d Cir. 2010) (quoting 110 Stat. 56, 152).
Specifically, “the FCC was tasked not only with protecting the health and safety of the public, but also
with ensuring the rapid development of an efficient
and uniform network[.] Id. at 125. This led to the creation of the regulatory measures described supra.
The centerpiece of CTIA’s argument is that the
FCC does not compel cell phone manufacturers to provide information to consumers about SAR limits on
RF radiation exposure. CTIA did not make this argument in the district court. Indeed, it conceded in its
briefing in the district court that the FCC did so require. See, e.g., Plaintiff’s Reply in Support of Motion
for a Preliminary Injunction at 12 (“The manner in
which Berkeley requires CTIA’s members to deliver
Berkeley’s message—at the point of sale, rather than
in a user manual—also distinguishes the Ordinance
from the FCC’s requirements.”) (emphasis added).
CTIA made this argument for the first time in its Reply Brief in this court, and it repeated the argument
during oral argument to our panel.
Because CTIA conceded the point in the district
court and made its argument to the contrary only before us (and even then only in its Reply Brief and during oral argument), it is waived. See Conn. Gen. Life
Ins. Co. v. New Images of Beverly Hills, 321 F.3d 878,
882 (9th Cir. 2003) (“This issue is raised for the first
time on appeal, and we therefore treat the issue as
waived.”); United States v. Bohn, 956 F.2d 208, 209
(9th Cir. 1992) (“we ordinarily decline to consider arguments raised for the first time in a reply brief”). But
we note that if we were to consider CTIA’s argument

80a
on the merits, we would reject it. Beginning in October 2015, the FCC required cell phone manufacturers
to inform consumers of minimum separation distances in user manuals. We quoted the relevant passage, supra at 12–13. For the convenience of the
reader, we repeat much of the passage here:
Specific information must be included in
the operating manuals to enable users to
select body-worn accessories that meet
the minimum test separation distance
requirements. Users must be fully informed of the operating requirements
and restrictions, to the extent that the
typical user can easily understand this
information, to acquire the required
body-worn accessories to maintain compliance. . . . All supported body-worn accessory operating configurations must be
clearly disclosed to users, through conspicuous instructions in the user guide
and user manual, to ensure unsupported
operations are avoided.
In re Exposure Procedures and Equipment Authorization Policies for Mobile and Portable Devices, FCC Office of Engineering and Technology Laboratory Division § 4.2.2(d) at 11 (Oct. 23, 2015) (“FCC Exposure
Procedures”) (emphases added). The FCC document
containing this language “is one of a collection of guidance publications referred to as the published RF exposure KDB procedures.” Id. § 1 at 1 (emphasis in original). The document specifies that “[a]pplications for
equipment authorization must meet all the requirements described in the applicable published RF expo-

81a
sure KDB procedures.” Id. § 2 at 3 (emphasis in original). That is, in order for a cell phone to be authorized
by the FCC for consumer use, it must satisfy the requirements outlined in FCC Exposure Procedures.
c.

Likelihood of Success

Given the FCC’s requirement that cell phone
manufacturers must inform consumers of “minimum
test separation distance requirements,” and must
“clearly disclose[ ]” accessory operating configurations
“through conspicuous instructions in the user guide
and user manual, to ensure unsupported operations
are avoided,” we see little likelihood of success based
on conflict preemption. Berkeley’s compelled disclosure does no more than to alert consumers to the
safety disclosures that the FCC requires, and to direct
consumers to federally compelled instructions in their
user manuals providing specific information about
how to avoid excessive exposure. Far from conflicting
with federal law and policy, the Berkeley ordinance
complements and reinforces it.
B. Irreparable Harm
Irreparable harm is relatively easy to establish in
a First Amendment case. “[A] party seeking preliminary injunctive relief in a First Amendment context
can establish irreparable injury . . . by demonstrating
the existence of a colorable First Amendment claim.”
Sammartano v. First Judicial District Court, 303 F.3d
959, 973 (9th Cir. 2002) (citation omitted), abrogated
on other grounds by Winter v. Natural Res. Def. Council., 555 U.S. 7, 22 (2008). We nonetheless conclude
that it has not been established here.
“[T]he loss of First Amendment freedoms, for even
minimal periods of time, unquestionably constitutes

82a
irreparable injury.” Id. (citing Elrod v. Burns, 427
U.S. 347, 373 (1976)). But the mere assertion of First
Amendment rights does not automatically require a
finding of irreparable injury. It is the “purposeful unconstitutional suppression of speech [that] constitutes
irreparable harm for preliminary injunction purposes.” Goldie’s Bookstore v. Superior Ct., 739 F.2d
466, 472 (9th Cir. 1984). We have already concluded
under the Zauderer test for compelled disclosure that,
on the record before us, Berkeley’s ordinance complies
with the First Amendment. Sammartano, 303 F.3d at
973–74 (“[T]he test for granting a preliminary injunction is ‘a continuum in which the required showing of
harm varies inversely with the required showing of
meritoriousness,’ when the harm claimed is a serious
infringement on core expressive freedoms, a plaintiff
is entitled to an injunction even on a lesser showing of
meritoriousness.”). Further, there is nothing in the
record showing harm to CTIA or its members through
actual or threatened reduction in sales of cell phones
caused by the disclosure compelled by the ordinance.
We conclude similarly that there has been no irreparable harm based on preemption.
C. Balance of the Equities
A court must “balance the interests of all parties
and weigh the damage to each” in determining the
balance of the equities. Stormans, Inc. v. Selecky, 586
F.3d 1109, 1138 (9th Cir. 2009).
CTIA asserts that implementing the ordinance
will cause its members substantial economic harm
and violate their First Amendment rights. We have
concluded that CTIA’s First Amendment claim is unlikely to succeed, and the record provides no evidence

83a
to support a finding of economic or reputational harm
to cell phone retailers. However, CTIA relies on Pacific Gas & Electric Co. v. Public Utilities Commission
of California, 475 U.S. 1, 15–16 (1986), to argue that,
while disclosures may not violate the First Amendment, the ordinance imposes an “undue burden” on
CTIA’s members because it creates significant “pressure to respond,” and that this pressure is “antithetical to the free discussion that the First Amendment
seeks to foster.” There is no showing of any such pressure. The ordinance requires CTIA’s members to inform their customers that the FCC has promulgated
regulations concerning RF emissions and to advise
customers to refer to their user manuals for more information. To the extent that a cell phone retailer is
dissatisfied with the disclosure as written, it can append additional disclosures. Berkeley Ordinance, §
9.96.030(C) (May 26, 2015). CTIA has put nothing in
the record showing that any Berkeley cell phone retailer has felt pressured, or has sought to take advantage of the provision of the ordinance allowing it
to make any additional disclosure it desires. See also
Milavetz, 559 U.S. at 250 (“not preventing . . . [the]
convey[ance] of any additional information” is one of
the essential features of a Zauderer disclosure).
Berkeley properly asserts that it has a substantial
interest in protecting the health of its citizens. CTIA,
on the other hand, has failed to demonstrate any hardship tipping the balance in its favor. We conclude that
the balance of the equities favors Berkeley.

84a
D. The Public Interest
“The public interest inquiry primarily addresses
impact on non-parties rather than parties. It embodies the Supreme Court’s direction that[,] in exercising
their sound discretion, courts of equity should pay
particular regard for the public consequences in employing the extraordinary remedy of injunction.”
Bernhardt v. Los Angeles Cty., 339 F.3d 920, 931–32
(9th Cir. 2003) (internal quotation marks and citation
omitted) (citing Weinberger v. Romero-Barcelo, 456
U.S. 305, 312 (1982)). We agree with the district court
that an injunction would injure the public interest in
having a free flow of accurate information.
“Protection of the robust and free flow of accurate
information is the principal First Amendment justification for protecting commercial speech, and requiring disclosure of truthful information promotes that
goal.” Nat’l Elec. Mfrs. Ass’n, 272 F.3d at 114. The
district court found that while “‘accurate and balanced
disclosures regarding RF energy are already available’ . . . there is evidence that the public does not know
about those disclosures.” (citing Jensen Decl., Ex. A
(survey)). Because “disclosure furthers, rather than
hinders . . . the efficiency of the ‘marketplace of ideas,’”
we hold that the ordinance is in the public interest
and that an injunction would harm that interest. See
Nat’l Elec. Mfrs. Ass’n, 272 F.3d at 114.
Conclusion
Our assessment of the probability of CTIA’s success on the merits, the likelihood of irreparable harm,
the balance of the hardships, and the public interest
lead us to conclude that the district court did not
abuse its discretion in denying preliminary injunctive

85a
relief to CTIA. Accordingly, the district court’s order
denying such relief is
AFFIRMED.
_________________________________________________
FRIEDLAND, Circuit Judge, dissenting in part:
The majority interprets the sentences in Berkeley’s forced disclosure statement one at a time and
holds that each is “literally true.” But consumers
would not read those sentences in isolation the way
the majority does. Taken as a whole, the most natural
reading of the disclosure warns that carrying a cell
phone in one’s pocket is unsafe. Yet Berkeley has not
attempted to argue, let alone to prove, that message
is true.
It is clear that the First Amendment prevents the
government from requiring businesses to make false
or misleading statements about their own products.
See Video Software Dealers Ass’n v. Schwarzenegger,
556 F.3d 950, 967 (9th Cir. 2009), aff’d sub nom.
Brown v. Entm’t Merchs. Ass’n, 564 U.S. 786 (2011).
Because—at least on the current record—that is what
Berkeley’s ordinance would do, I believe the ordinance
likely violates the First Amendment and therefore
should have been preliminarily enjoined.1
See Klein v. City of San Clemente, 584 F.3d 1196,
1207–08 (9th Cir. 2009) (“Both this court and the Supreme Court have repeatedly held that ‘[t]he loss of
First Amendment freedoms, for even minimal periods

1

I agree with the majority’s preemption analysis so dissent
only from sections IV.A.1., IV.B., IV.C., and IV.D. of the majority
opinion.

86a
of time, unquestionably constitutes irreparable injury.’” (quoting Elrod v. Burns, 427 U.S. 347, 373
(1976))).
I
Berkeley’s ordinance requires stores selling cell
phones to provide a disclosure stating:
To assure safety, the Federal Government requires that cell phones meet radio-frequency (RF) exposure guidelines.
If you carry or use your phone in a pants
or shirt pocket or tucked into a bra when
the phone is ON and connected to a wireless network, you may exceed the federal
guidelines for exposure to RF radiation.
Refer to the instructions in your phone or
use manual for information about how to
use your phone safely.
Berkeley Mun. Code § 9.96.030(A) (2015).
The majority parses these sentences individually
and concludes that each is “literally true.” In my view,
this approach misses the forest for the trees. On its
face, the disclosure begins and ends with references to
safety, plainly conveying that the intervening language describes something unsafe. Indeed, the disclosure directs consumers to their user manuals for instructions on “how to use your phone safely.” The message of the disclosure as a whole is clear: carrying a
phone “in a pants or shirt pocket or tucked into a bra”
is not safe. Yet that implication is a problem for
Berkeley because it has not offered any evidence that
carrying a cell phone in a pocket is in fact unsafe. Instead, it has expressly denied that the required disclosure conveys that message. I disagree.

87a
Berkeley insists the ordinance “rests exclusively upon
existing FCC regulations.” But those regulations communicate something far different than does the ordinance. The FCC guidelines make clear that they are
designed to incorporate a many-fold safety factor,
such that exposure to radiation in excess of the guideline level is considered by the FCC to be safe:
Our current RF exposure guidelines . . .
include[e] a significant “safety” factor,
whereby the exposure limits are set at a
level on the order of 50 times below the
level at which adverse biological effects
have been observed in laboratory animals as a result of tissue heating resulting from RF exposure. This “safety” factor can well accommodate a variety of
variables such as different physical characteristics and individual sensitivities—
and even the potential for exposures to
occur in excess of our limits without posing a health hazard to humans.
In re Reassessment of FCC Radiofrequency Exposure
Limits and Policies, 28 FCC Rcd. 3498, 3582 (Mar. 29,
2013) (emphasis added). There is thus no evidence in
the record that the message conveyed by the ordinance is true.2
2

Because even under Zauderer v. Office of Disciplinary Counsel of Supreme Court of Ohio, 471 U.S. 626 (1985), any forced disclosure statement must be truthful, see id. at 651, I do not think
that any discussion of Zauderer is appropriate in this case. If
nevertheless I were to consider the extent of Zauderer’s applicability, as the majority does, I would be inclined to conclude that
Zauderer applies only when the government compels a truthful
disclosure to counter a false or misleading advertisement. Given

88a
II
The First Amendment clearly does not permit the
government to force businesses to make false or misleading statements about their products. In Video
Software Dealers, we considered a challenge to a California law requiring that “violent” video games be labeled with a sticker that said “18” and preventing the
sale or rental of violent video games to minors. 556
F.3d at 953–54. After striking down the law’s sale and
rental prohibition, we concluded that continuing to require the label “18” “would arguably . . . convey a false
statement” that minors could not buy or rent the video
game, and was therefore unconstitutional. Id. at 965–
67. The same principle applies here: the First Amendment prohibits Berkeley from compelling retailers to
communicate a misleading message. I would thus
hold that CTIA is likely to succeed on the merits of its
First Amendment challenge.
There are downsides to false, misleading, or unsubstantiated product warnings. Psychological and
other social science research suggests that overuse
that the disclosure in Zauderer itself prevented an advertisement from being misleading, I have serious doubt that the Supreme Court intended the Zauderer test to apply in broader circumstances. See id. (“[W]e hold that an advertiser’s rights are
adequately protected as long as disclosure requirements are reasonably related to the State’s interest in preventing deception of
consumers.”). The majority’s contrary conclusion also seems to
me to be in tension with our decision in Video Software Dealers,
which treated Zauderer as applying only in the context of disclosures aimed at combatting otherwise misleading advertising. See
556 F.3d at 967 (“[T]he labeling requirement fails Zauderer’s rational relationship test, which asks if the ‘disclosure requirements are reasonably related to the State’s interest in preventing
deception of customers.’” (quoting Zauderer, 471 U.S. at 651)).

89a
may cause people to pay less attention to warnings
generally: “[A]s the number of warnings grows and
the prevalence of warnings about low level risks increases, people will increasingly ignore or disregard
them.” J. Paul Frantz et al., Potential Problems Associated with Overusing Warnings, Proceedings of the
Human Factors & Ergonomics Soc’y 43rd Ann. Meeting 916, 916 (1999). Relatedly, “[w]arnings about very
minor risks or risks that are extremely remote have
raised concerns about negative effects on the believability and credibility of warnings. . . . In essence, such
warnings represent apparent false alarms as they appear to be ‘crying wolf.’” Id. at 918; see also David W.
Stewart & Ingrid M. Martin, Intended and Unintended Consequences of Warning Messages: A Review
and Synthesis of Empirical Research, 13 J. Pub. Pol’y
& Marketing 1, 7 (1994). If Berkeley wants consumers to listen to its warnings, it should stay quiet until
it is prepared to present evidence of a wolf.

90a

APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
CTIA - THE WIRELESS
ASSOCIATION,
Plaintiff,

v.

Case No. 15-cv-02529 EMC
ORDER GRANTING
DEFENDANTS’ MOTION
TO DISSOLVE
PRELIMINARY
INJUNCTION
Docket No. 59

CITY OF BERKELEY, et
al.,
Defendants.
Plaintiff CTIA – The Wireless Association has
filed suit against Defendants the City of Berkeley and
its City Manager (collectively, “City” or “Berkeley”),
asserting that a Berkeley ordinance is preempted by
federal law and further violates the First Amendment. Previously, CTIA moved for a preliminary injunction and, in September 2015, the Court granted
CTIA relief, enjoining the ordinance “unless and until
the sentence in the City notice regarding children
safety is excised from the notice.” Docket No. 53 (Order at 35).
Subsequently, the City amended the ordinance to
excise the language regarding children’s safety.
Berkeley now moves for dissolution of the preliminary

91a
injunction. Having considered the parties’ briefs and
accompanying submissions, as well as the oral argument of counsel, the Court hereby GRANTS Berkeley’s motion. The Court also DENIES CTIA’s request
for a stay of dissolution pending appeal.
I. FACTUAL & PROCEDURAL BACKGROUND
In granting in part and denying in part CTIA’s
motion for preliminary injunction, the Court found
that Berkeley’s required notice warning about risk to
children was preempted, but that the remainder of the
required notice was not preempted because it was consistent with the FFC’s statements and testing procedures. The Court noted the “disclosure, for the most
part, simply refers consumers to the fact that there
are FCC standards on RF energy exposure – standards which assume a minimum spacing of the cell
phone away from the body – and advises consumers to
refer to their manuals regarding maintenance of such
spacing.” Docket No. 53 (Order at 14). The notice was
consistent with the FCC’s requirement that cell phone
manufacturers disclose to consumers information and
advice about spacing between the body and a cell
phone. See Docket No. 53 (Order at 14).
The Court also concluded the notice (after omission of the statement regarding children’s safety) did
not violate the First Amendment, and noted the distinction drawn by cases between commercial and noncommerical speech, between restrictions on and compelled disclosures of commercial speech, and between
compelling speech by the speaker and requiring disclosure of the government’s speech. It found the City ordinance in this case was subject to rational basis review, under both a general rational basis test (more

92a
particularly rational basis “with a bite”) and the particularized test under Zauderer v. Office of Disciplinary Counsel of the Supreme Court of Ohio, 471 U.S.
626 (1985), and Milavetz Gallop & Milavetz, P.A. v.
United States, 559 U.S. 229 (2010). The Court found
that Zauderer applied a species of the rational basis
test and that Zauderer was not limited to disclosures
designed to prevent consumer deception, but extended
to matters of public health and safety. See Docket No.
53 (Order at 21-23). In applying Zauderer, the Court
adopted the Sixth Circuit’s analysis of the phrase
“‘purely factual and uncontroversial’” as used in Zauderer, Docket No. 53 (Order at 18-19, 29-33) (quoting
Zauderer, 471 U.S. at 651), and concluded that the
compelled disclosure must only be factual and accurate, not undisputed. See Docket No. 53 (Order at 30).
The Court found the information mandated by the ordinance met the Zauderer test because the information that “the FCC has put limits on RF energy
emission with respect to cell phones and that wearing
a cell phone against the body (without any spacer)
may lead the wearer to exceed the limits,” Docket No.
53 (Order at 31), was consistent with the FCC’s directive. It was factual and accurate because “the FCC
established certain limits regarding SAR limits which
have not been challenged as illegal. The mandated
disclosure truthfully states that federal guidelines
may be exceeded where spacing is not observed,”
Docket No. 53 (Order at 32-33), and accurately advises
users “to consult the manual wherein the FCC itself
mandates disclosures about maintaining spacing.”
Docket No. 53 (Order at 33). The Court found that
any burden on cell phone retailers was minimal because there likely was no First Amendment right violated, and retailers were authorized by the ordinance

93a
to add their own language clarifying or countering the
City’s message on the required notice. See Docket No.
53 (Order at 33-34). The Court thus issued a preliminary injunction against the portion of the ordinance
regarding children’s safety, but denied CTIA’s motion
as to the remainder of the notice language.
Thereafter, the City amended the ordinance to excise the language regarding children’s safety. Berkeley now moves for dissolution of the preliminary injunction.
II. DISCUSSION
Given the Court’s prior ruling, the fact that the
ordinance has now been amended should lead to dissolution of the preliminary injunction. However,
CTIA has taken this opportunity to argue in its opposition brief that the Court’s analysis in its preliminary
injunction order was erroneous. While CTIA has not
technically asked the Court to reconsider its prior order (nor would it since the Court ultimately issued
CTIA’s requested preliminary injunction), CTIA has
asked the Court to stay dissolution of the preliminary
injunction pending appeal because of the purported
errors. Accordingly, evaluating CTIA’s request for a
stay essentially requires this Court to retread ground
already covered in its prior order.
A. Legal Standard
In Hilton v. Braunskill, 481 U.S. 770 (1987), the
Supreme Court held that, in evaluating whether there
should be a stay of an order pending appeal, a court
should consider the following:

94a
(1) whether the stay applicant has made
a strong showing that he is likely to succeed on the merits; (2) whether the applicant will be irreparably injured absent a
stay; (3) whether issuance of the stay will
substantially injure the other parties interested in the proceeding; and (4) where
the public interest lies.
Id. at 776. “The ‘irreparably-injured’ and ‘likelihoodofsuccess’ factors are considered on ‘a sliding scale . . .
.’” Stormans Inc. v. Selecky, 526 F.3d 406, 412 (9th Cir.
2008) (discussing applications for a stay pending appeal). That is, relief may be appropriate where the
likelihood of success is such that serious questions going to the merits are raised and the balance of hardships tips sharply in the stay applicant’s favor. Cf. Alliance For The Wild Rockies v. Cottrell, 632 F.3d 1127,
1131 (9th Cir. 2011) (holding that the serious questions approach survives in the context of deciding
whether a preliminary injunction should issue).
B. Likelihood of Success on the Merits or Serious
Questions Going to the Merits
In its opposition, CTIA largely makes arguments
that it previously made as part of the briefing on the
motion for preliminary injunction. The Court shall
not re-address those arguments but instead will focus
on the arguments made by CTIA that are different
from, or least slightly different from, those made as
part of the briefing on the preliminary injunction motion. CTIA’s new arguments concern the First
Amendment issue rather than the preemption issue.

95a
1. Retail Digital
Post-briefing, CTIA provided the Court with a recent decision issued by the Ninth Circuit, Retail Digital Network, LLC v. Appelsmith, No. 13-56069 (9th
Cir. Jan. 7, 2016). See Docket No. 67 (statement of recent decision). CTIA asserts that Retail Digital supports its position that a more demanding standard of
review should apply in evaluating the City’s ordinance
for constitutionality.
In Retail Digital, the Ninth Circuit held that Central Hudson’s immediate scrutiny test should not be
applied when there are content- or speaker-based restrictions on nonmisleading commercial speech regarding lawful goods or services; rather, under the Supreme Court’s decision in Sorrell v. IMS Health, Inc.,
131 S. Ct. 2653 (2011), heightened judicial scrutiny
should apply. See Retail Digital, slip. op. at 4, 16. The
Ninth Circuit implicitly acknowledged that Sorrell did
not precisely define what heightened judicial scrutiny
meant but indicated that it was something less than
strict scrutiny, see slip op. at 16 n.3, but more than
intermediate scrutiny. In essence, the Ninth Circuit
suggested that a more exacting form of Central Hudson review would constitute heightened judicial scrutiny within the meaning of Sorrell. See also slip. op. at
16-18 (stating that “[h]eightened judicial scrutiny
may be applied using the familiar framework of the
four-factor Central Hudson test”).
While Retail Digital is undoubtedly a significant
case, it does not address the critical issue here which
is what impact Sorrell should have on the Zauderer
line of cases. Retail Digital involved outright restriction on commercial speech based on content, and

96a
the court described Sorrell as involving “content- or
speaker-based restrictions” on non-misleading commercial speech. Slip op. at 16. The court also described Eighth, Second, and Third Circuit opinions as
involving “restrictions” on speech as well. See slip. op.
at pp. 18-19. Quoting Sorrell, the Retail Digital court
emphasized that heightened security was designed to
check the raw paternalism of laws which “‘keep people
in the dark,’” slip. op. at 18 (quoting Sorrell) and
which allowed the government to “silence truthful
speech.” Slip. op. at 22.
As this Court indicated in its prior order, Zauderer and other cases have noted that laws requiring
disclosure of accurate information does not silence
truthful speech or keep people in the dark; disclosures
are designed precisely to accomplish the opposite.
Thus, nothing in Retail Digital’s holding or reasoning
suggests Sorrell did away with the Supreme Court’s
distinction (as articulated in Zauderer and embraced
in Milavetz) between restrictions on commercial
speech and compelled disclosure of such speech. Unless and until Zauderer and Milavetz are overruled or
narrowed by the Supreme Court or Ninth Circuit, this
Court adheres to its earlier analysis.
2. Rational Review
CTIA argues next that the Court erred in holding
that “even the more forgiving requirements of Zauderer do not apply because the compelled commercial
speech in this case is attributed to the City of Berkeley.” Opp’n at 7. In other words, according to CTIA,
the Court improperly applied rational review (with
some bite) rather than Zauderer. But CTIA has not
cited any authority involving the combination of (1)

97a
commercial speech, (2) compelled disclosure (as opposed to restriction or suppression), and (3) speech
clearly and expressly attributed to the government to
support its position.
The CTIA’s reliance upon United States v. United
Foods, Inc., 533 U.S. 405 (2001), is misplaced. There,
the Supreme Court was called upon to evaluate
whether a mushroom producer was fairly subject to a
mandatory assessment under federal law (the Mushroom Act), where the funds were used to sponsor an
advertising message with which it did not agree. The
message was that “mushrooms are worth consuming
whether or not they are branded,” and the mushroom
producer disagreed with this message because it
wanted “to convey the message that its brand of mushrooms is superior to those grown by other producers.”
Id. at 411. The Supreme Court held that there was a
First Amendment violation. But it is not clear from
the opinion whether the advertising message was
clearly attributed to the federal government in the
first place. Moreover, the Supreme Court did not evaluate the First Amendment issue under Zauderer. It
simply stated that its conclusion was not inconsistent
with Zauderer. See id. at 416 (“There is no suggestion
in the case now before us that the mandatory assessments imposed to require one group of private persons
to pay for speech by others are somehow necessary to
make voluntary advertisements nonmisleading for
consumers [as in Zauderer].”). Notably, the Supreme
Court’s analysis was guided by a different line of cases
involving the compelled subsidization of speech with
which the speaker/contributor disagreed. See id. at
413 (“conclud[ing] . . . that the mandated support is
contrary to the First Amendment principles set forth

98a
in cases involving expression by groups which include
persons who object to the speech, but who, nevertheless, must remain members of the group by law or necessity”) (citing, inter alia, Abood v. Detroit Bd. of
Educ., 431 U.S. 209, 234 (1977) (agreeing that union
members “may constitutionally prevent the Union’s
spending a part of their required service fees to contribute to political candidates and to express political
views unrelated to its duties as exclusive bargaining
representative”)).
In any event, the Court need not dwell on this argument because, in its prior order, the Court did not
take a firm position as to whether general rational basis review should in fact apply – i.e., rational review
without the specific requirement in Zauderer that the
compelled speech be factual and uncontroversial.
While the Court did note that there was a “persuasive
argument” in favor of such general rational review,
Docket No. 53 (Order at 23, 26), ultimately, it applied
both general rational review and Zauderer.
3. Voluntary Advertising
In its papers, CTIA presents the new argument
(not articulated in its briefing on the preliminary injunction) that Zauderer is applicable only when a
party has put out “‘voluntary advertisements’” and,
here, “the Amended Ordinance does not ‘involve voluntary commercial advertising.’” Opp’n at 6. In support of this argument, CTIA relies primarily on two
cases: United Foods, Inc., 533 U.S. at 405, and National Association of Manufacturers v. SEC, 800 F.3d
518 (D.C. Cir. 2015) (hereinafter “NAM”).

99a
United Foods, however, provides little support for
CTIA’s position. United Foods simply states that Zauderer was
a case involving attempts by a State to
prohibit certain voluntary advertising by
licensed attorneys. The Court invalidated the restrictions in substantial part
but did permit a rule requiring that attorneys who advertised by their own
choice and who referred to contingent
fees should disclose that clients might be
liable for costs.
United Foods, 533 U.S. at 416. But the rationale of
Zauderer’s holding was not conditioned on the fact
that the plaintiff therein had engaged in voluntary advertising. Rather, it was based on the reasoning that
the plaintiff in Zauderer had a minimal constitutional
interest in not disclosing purely factual and uncontroversial information. See, e.g., Zauderer, 471 U.S. at
651 (stating that “the interests at stake in this case
are not of the same order as those discussed in [other
cases;] Ohio has not attempted to ‘prescribe what
shall be orthodox in politics, nationalism, religion, or
other matters of opinion or force citizens to confess by
word or act their faith therein’”). United Foods did not
purport to change the core rational of Zauderer; as
noted above, its analysis was focused on Abood, not
Zauderer and Milavetz.
CTIA’s citation to NAM does provide more support
for its position. There, the D.C. Circuit, in a divided
opinion, considered certain SEC-required disclosures
regarding “conflict minerals” (i.e., certain minerals
such as gold, tantalum, tin, and tungsten which can

100a
be used by armed groups, e.g., in the Congo, to finance
their war operations). See NAM, 800 F.3d at 522 (noting that “[c]onflict mineral disclosures are to be made
on each reporting company’s website and in its reports
to the SEC”). The specific issue for the court was
“whether Zauderer . . . reaches compelled disclosures
that are unconnected to advertising or product labeling at the point of sale.” NAM, 800 F.3d at 521. The
panel majority in NAM held that Zauderer does not:
[T]he Supreme Court’s opinion in Zauderer is confined to advertising, emphatically, and, one may infer, intentionally.
In a lengthy opinion, the Court devoted
only four pages to the issue of compelled
disclosures. Yet in those few pages the
Court explicitly identified advertising as
the reach of its holding no less than thirteen times. Quotations in the preceding
footnote prove that the Court was not
holding that any time a government
forces a commercial entity to state a message of the government’s devising, that
entity’s First Amendment interest is
minimal. Instead, the Zauderer Court . .
. held that the advertiser’s “constitutionally protected interest in not providing
any particular factual information in his
advertising is minimal.”
Id. at 522 (emphasis in original). But CTIA has read
too much into the statements from NAM above. NAM
understandably focused on advertising because of the
specific issue presented before it – i.e., whether Zauderer should apply to SEC disclosures, a context entirely different from the typical case which involves

101a
speech directed at consumers which lies at the core of
the definition of commercial speech – proposal of a
commercial transaction. See Retail Digital, slip op. at
12. Although the Court in Zauderer may have referred
repeatedly to advertising (as noted by the court in
NAM), theses references were contextual and not the
sine qua non of Zauderer’s reasoning. Zauderer did
not base its holding on any notion of estoppel or equity, but on the lack of a significant constitutional interest in not disclosing factual and noncontroversial
information to consumers.
In any event, the NAM majority opinion did not
restrict Zauderer’s reach to advertising only. Indeed,
as indicated above, the court noted that Zauderer required a connection to either advertising or a pointofsale disclosure. See also id. (stating that the SEC
“recognized that this case does not deal with advertising or with point of sale disclosures”) (emphasis
added). In restricting Zauderer’s reach, the majority
in NAM accepted the D.C. Circuit’s en banc decision
in America Meat Institute v. U.S. Department of Agriculture, 760 F.3d 18 (D.C. Cir. 2014) (en banc), which
applied Zauderer to a law requiring disclosure of country-oforigin information about meat products at the
time of sale, even though there had been no voluntary
advertising to the contrary. See id. at 20.
In the instant case, the ordinance requires a
point-of-sale disclosure: “The notice required by this
Section shall either be provided to each customer who
buys or leases a Cell phone or shall be prominently
displayed at any point of sale where Cell phones are
purchased or leased. “ Berkeley Mun. Code §
9.96.030(B). Like the disclosure in AMI, and unlike
the disclosure in NAM, the notice in the case at bar

102a
occurs at the time of sale and is targeted directly at
the consumer who has a direct interest in the matter.
Accordingly, even under NAM, Zauderer is applicable
to the instant case.
Finally, no other circuit court has limited Zauderer’s holding to voluntary advertising. See, e.g.,
Disc. Tobacco City & Lottery, Inc. v. United States, 674
F.3d 509, 518 (6th Cir. 2012) (addressing, inter alia,
statute’s requirement that “tobacco manufacturers reserve significant packaging space for textual health
warnings”); Nat’l Elec. Mfrs. v. Sorrell, 272 F.3d 104,
107 (2d Cir. 2001) (addressing statute that required
“manufacturers of some mercury-containing products
to label their products and packaging to inform consumers that the products contain mercury and, on disposal, should be recycled or disposed of as hazardous
waste”). NAM does not state the prevailing view.
4. Zauderer’s “Uncontroversial” Requirement
According to CTIA, even if Zauderer is applicable,
the Court has not properly interpreted Zauderer’s
“factual and uncontroversial” requirement. More specifically, CTIA contends that the Court improperly
construed “uncontroversial” to mean accurate. According to CTIA, this position, although endorsed by
the Sixth Circuit, is a minority position.
CTIA’s argument is problematic for several reasons. First, although CTIA claims that the majority of
cases go against the Sixth Circuit, it has cited only one
case in support of its position – i.e., NAM, where the
majority opinion stated that “‘uncontroversial,’ as a legal test, must mean something different than ‘purely
factual.’” NAM, 800 F.3d at 528. As the sole circuit

103a
opinion so holding, NAM hardly represents the majority view on this issue.
Second, even in NAM, the court did not come up
with a clear definition for the term “uncontroversial”
and even suggested that uncontroversial should not
necessarily be equated with undisputed See id. at 529
(noting that “[a] controversy, the dictionaries tell us,
is a dispute, especially a public one” but, under that
definition, it was difficult to understand an earlier
court decision that certain country-of-origin disclosures were “uncontroversial” because there was a public dispute over such).
Third, NAM is not irreconcilable with the Court’s
ruling. There is a difference, under this Court’s interpretation, between “factual” and “uncontroversial.”
“Uncontroversial” should generally be equated with
the term “accurate”; in contrast, “factual” goes to the
difference between a “fact” and an “opinion.” Notably,
in the San Francisco CTIA case, the Ninth Circuit
made that distinction between fact and opinion in discussing Zauderer. See CTIA – Wireless Ass’n v. City &
County of San Francisco, 494 Fed. Appx. 752, 753-54
(9th Cir. 2012) (stating that the city’s “fact sheet contains more than just facts” – i.e., it also contained the
city’s “recommendations”; the “language could prove
to be interpreted by consumers as expressing San
Francisco’s opinion that using cell phones is dangerous”). The Seventh Circuit also made that same distinction in Entertainment Software Association v.
Blagojevich, 469 F.3d 641, 652-53 (7th Cir. 2006)
(stating that “[t]he State’s definition of this term [i.e.,
sexually explicit] is far more opinion-based than the
question of whether a particular chemical is within
any given product”).

104a
Finally, the Court finds CTIA’s interpretation of
“uncontroversial” untenable. A “controversy” cannot
be created any time there is a disagreement between
the parties because Zauderer would never apply, especially where there are health and safety risks,
which invariably are dependent in some degree on the
current state of science and research. A “controversy”
cannot automatically be deemed created any time
there is a disagreement about the science behind a
warning because science is almost always debatable
at some level (e.g., even if there is agreement that
there is a safety issue, there is likely disagreement
about at what point a safety concern is fairly implicated). Under CTIA’s position, any science-based
warning required by a governmental agency would
automatically be subject to heightened scrutiny under
the First Amendment. See Nat’l Elec., 272 F.3d at 116
(taking note of “the potentially wide-ranging implications of NEMA’s First Amendment complaint” as
“[i]nnumerable federal and state regulatory programs
require the disclosure of product and other commercial information,” including tobacco and nutritional
labeling and reporting of toxic substances and pollutants).
5. Misleading
CTIA asserts that, even if Zauderer’s “uncontroversial” requirement simply demands accuracy, here,
there is inaccuracy or, more specifically, the compelled
disclosure is misleading because it claims there is a
safety issue when, in fact, there is none. This argument is predicated on the fact that the FCC’s standards have built in a substantial safety margin (at least
for thermal effects of RF radiation) See 2013 FCC Reassessment, 28 F.C.C. Rcd. 3498, 3588 (2013) (“The

105a
limits were set with a large safety factor, to be well
below a threshold for unacceptable rises in tissue temperature. As a result, exposure well above the specified SAR limit should not create an unsafe condition.”).
CTIA’s argument is not persuasive, particularly
when the actual text of the notice required by the
amended ordinance is taken into account. The notice
provides:
To assure safety, the Federal Government requires that cell phones meet radio frequency
(RF) exposure guidelines. If you carry or use
your phone in a pants or shirt pocket or tucked
into a bra when the phone is ON and connected to a wireless network, you may exceed
the federal guidelines for exposure to RF radiation. Refer to the instructions in your phone
or user manual for information about how to
use your phone safely.
The first two sentences are undisputedly accurate.
The FCC promulgated guidelines for safety reasons.
Even though the FTC built a large margin into its RF
exposure guidelines, it did set specific limits and did
so in order to assure safety. CTIA does not challenge
those guidelines. Furthermore, carrying or using a
phone in the above-identified manner (without spacing) could lead a person to exceed the FCC guidelines
for exposure.
CTIA contends that, even if the two sentences are
technically accurate, the juxtaposition of the two gives
rise to the implication that carrying or using your
phone in a pants or shirt pocket or tucked into a bra

106a
when the phone is on and connected to a wireless network is unsafe. But even though the FCC has indicated that such should not be unsafe (at least from a
thermal effects perspective), the fact remains that the
FCC still decided to set the guidelines at particular
levels because of its safety concerns. Thus, ultimately,
CTIA’s beef should be with the FCC. If CTIA believes
that the safety margin is too generous because there
is no real safety concern at that level, it should take
that matter up with the FCC administratively. It has
not done so. Berkeley’s reference to these unchallenged FCC guidelines does not violate the First
Amendment.
6. Government Interest
Finally, CTIA reiterates its prior argument that,
even if Zauderer were to apply, there is no legitimate
governmental interest here because “courts have consistently held that the public’s right to know is insufficient to justify compromising protected constitutional rights.” Docket No. 4 (Mot. at 11) (internal quotation marks omitted). But the authority cited by
CTIA is not on point. For example, in International
Dairy Foods Association v. Amestoy, 92 F.3d 67 (2d
Cir. 1996), the state did not claim that health or safety
concerns prompted the passage of its labeling law but
instead defended the statute simply on the basis of
strong consumer interest and the public’s right to
know. See id. at 73 (also stating, that, “[a]bsent . . .
some indication that this information bears on a reasonable concern for human health or safety . . . , the
manufacturers cannot be compelled to disclose it”).
Here, Berkeley’s ordinance specifically identifies
safety as an animating concern in the stated findings
and purpose behind the notice requirement. See, e.g.,

107a
Berk. Mun. Code § 9.96.010(E) (“Consumers are not
generally aware of these safety recommendations.”)
(emphasis added). Because the ordinance is ultimately anchored in consumer awareness of FCC
guidelines designed to insure safety, the Court concludes that there is a legitimate, indeed substantial,
government interest here.
C. Irreparable Injury
As it did before, CTIA claims irreparable injury
because it could not “undo the damage to its reputation and customer goodwill from having put out a misleading disclosure that generated fear in consumers
about ‘exposure’ to cell phone ‘radiation.’” Opp’n at 16.
However, CTIA has generated no evidence to substantiate any such damage. Moreover, CTIA could prevent
or substantially mitigate any such damage by engaging in counterspeech as the ordinance authorizes.
While CTIA argues that forced counterspeech itself inflicts a First Amendment injury, that depends on
there being a First Amendment violation in the first
place. As the Court noted in its preliminary injunction
order, the claim of irreparable harm is ultimately
“predicated on the First Amendment argument,” an
argument which has no merit. Docket No. 53 (Order
at 34 n.13).
The Court again concludes that, even if serious
questions going to the merits were raised here (and
the Court finds that there are not), the balance of
hardships does not tip sharply in CTIA’s favor.
III. CONCLUSION
For the foregoing reasons, the Court grants the
City’s motion to dissolve the preliminary injunction.

108a
The Court further denies CTIA’s request that this order dissolving the preliminary injunction be stayed
pending appeal.
This order disposes of Docket No. 59.
IT IS SO ORDERED.
Dated: January 27, 2016

/s/
_____________________
EDWARD M. CHEN
United States District
Judge

109a

APPENDIX E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
CTIA - THE WIRELESS
ASSOCIATION,®
Plaintiff,
v.
THE CITY OF BERKELEY, CALIFORNIA,
et al.,
Defendants.

No. C-15-2529 EMC
ORDER GRANTING IN
PART AND DENYING IN
PART PLAINTIFF’S MOTION FOR PRELIMINARY INJUNCTION;
AND GRANTING
NRDC’S MOTION FOR
LEAVE TO FILE AMICUS BRIEF
(Docket Nos. 4, 36)

As alleged in its complaint, Plaintiff CTIA – The
Wireless Association (“CTIA”) is a not-for-profit corporation that “represents all sectors of the wireless industry, including but not limited to manufacturers of
cell phones and accessories, providers of wireless services, and sellers of wireless services, handsets, and
accessories.” Compl. J 18. Included among CTIA’s
members are cell phone retailers. See Compl. J 19.
CTIA has filed suit against the City of Berkeley and
its City Manager in her official capacity (collectively
“City” or “Berkeley”), challenging a City ordinance
that requires cell phone retailers to provide a certain
notice regarding radiofrequency (“RF”) energy emitted by cell phones to any customer who buys or leases

110a
a cell phone. According to CTIA, the ordinance is
preempted by federal law and further violates the
First Amendment. Currently pending before the
Court is CTIA’s motion for a preliminary injunction in
which it seeks to enjoin enforcement of the ordinance.
Having considered the parties’ briefs and accompanying submissions, as well as the oral argument of counsel, the Court hereby GRANTS in part and DENIES
in part the motion.1
I.

FACTUAL & PROCEDURAL BACKGROUND

A. City Ordinance
RF energy is “‘a form of electromagnetic radiation
that is emitted by cell phones.’” In re Reassessment of
FCC Radiofrequency Exposure Limits & Policies, 28
F.C.C. Rcd. 3498, 3585 (Mar. 29, 2013) [hereinafter
“2013 FCC Reassessment”]. The City ordinance at issue concerns RF energy emitted by cell phones.
The ordinance at issue is found in Chapter 9.96 of
the Berkeley Municipal Code. It provides in relevant
part as follows:
A. A Cell phone retailer shall provide to each
customer who buys or leases a Cell phone a
notice containing the following language:

1

The National Resources Defense Council (“NRDC”) has filed
a motion for leave to file an amicus brief in conjunction with the
preliminary injunction proceedings. This motion is hereby
GRANTED. CTIA has failed to show that it would be prejudiced
by the Court’s consideration of the brief, particularly because
CTIA had sufficient time to submit a proposed opposition to
NRDC’s proposed amicus brief.

111a
The City of Berkeley requires that you be provided the following notice:
To assure safety, the Federal Government requires that cell phones meet radio frequency
(RF) exposure guidelines. If you carry or use
your phone in a pants or shirt pocket or tucked
into a bra when the phone is ON and connected to a wireless network, you may exceed
the federal guidelines for exposure to RF radiation. This potential risk is greater for children. Refer to the instructions in your phone
or user manual for information about how to
use your phone safely.
B. The notice required by this Section shall
either be provided to each customer who buys
or leases a Cell phone or shall be prominently
displayed at any point of sale where Cell
phones are purchased or leased. If provided to
the customer, the notice shall include the
City’s logo, shall be printed on paper that is no
less than 5 inches by 8 inches in size, and shall
be printed in no smaller than a 18-point font.
The paper on which the notice is printed may
contain other information in the discretion of
the Cell phone retailer, as long as that information is distinct from the notice language required by subdivision (A) of this Section. If
prominently displayed at a point of sale, the
notice shall include the City’s logo, be printed
on a poster no less than 8-1/2 by 11 inches in
size, and shall be printed in no small than a
28-point font. The City shall make its logo
available to be incorporated in such notices.

112a
Berkeley Mun. Code § 9.96.030.
The stated findings and purpose behind the notice
requirement are as follows:
A. Requirements for the testing of cell phones
were established by the federal government
[i.e., the Federal Communications Commission (“FCC”)] in 1996.
B. These requirements established “Specific Absorption Rates” (SAR[2]) for cell phones.[3]
C. The protocols for testing the SAR for cell
phones carried on a person’s body assumed
that they would be carried a small distance
away from the body, e.g., in a holster or belt
clip, which was the common practice at that
time. Testing of cell phones under these protocols has generally been conducted based on an
assumed separation of 10-15 millimeters.
D. To protect the safety of their consumers, manufacturers recommend that their cell phones
be carried away from the body, or be used in
conjunction with hands-free devices.
E. Consumers are not generally aware of these
safety recommendations.
F. Currently, it is much more common for cell
phones to be carried in pockets or other loca-

2
SAR is “a measure of the amount of RF energy absorbed by
the body from cell phones.” CTIA – The Wireless Ass’n v. City &
County of San Francisco, 827 F. Supp. 2d 1054, 1056 (N.D. Cal.
2011) (Alsup, J.).
3
See 47 C.F.R. § 2.1093 (setting RF energy exposure limits).

113a
tions rather than holsters or belt clips, resulting in much smaller separation distances than
the safety recommendations specify.
G. Some consumers may change their behavior to
better protect themselves and their children if
they were aware of these safety recommendations.
H. While the disclosures and warnings that accompany cell phones generally advise consumers not to wear them against their bodies, e.g.,
in pockets, waistbands, etc., these disclosures
and warnings are often buried in fine print,
are not written in easily understood language,
or are accessible only by looking for the information on the device itself.
I.

The purpose of this Chapter is to assure that
consumers have the information they need to
make their own choices about the extent and
nature of their exposure to radio frequency radiation.

Berkeley Mun. Code § 9.96.010.
Prior to issuing the ordinance, the City conducted
a telephone survey on the topic of cell phones. Data
was collected from 459 Berkeley registered voters. See
Jensen Decl. ¶ 6. Seventy percent of those surveyed
were not “aware that the government’s radiation tests
to assure the safety of cell phones assume that a cell
phone would not be carried against your body, but
would instead be held at least 1- to 15 millimeters
from your body.” Jensen Decl., Ex. A (survey and results).

114a
B. FCC Pronouncements
As indicated by the above, the FCC has set RF energy exposure standards for cell phones. The present
RF energy exposure limits were established in 1996.
See generally FCC Consumer Guide, Wireless Devices
and
Health
Concerns,
available
at
https://www.fcc.gov/guides/wireless-devicesandhealth-concerns (last visited September 17, 2015)
[hereinafter “FCC Consumer Guide”]. This was done
pursuant to a provision in the Telecommunications
Act of 1996 (“TCA”) that instructed the agency “to prescribe and make effective rules regarding the environmental effects of radio frequency emissions.” 104 P.L.
104 (1996).
The FCC has also issued some pronouncements
regarding RF energy emission and cell phones, three
of which are discussed briefly below.
1. FCC KDB Guidelines
First, as CTIA alleges in its complaint,
[t]he FCC’s Office of Engineering and
Technology
Knowledge
Database
(“KDB”) advises cell phone manufacturers [as opposed to cell phone retailers] to
include in their user manual a description of how the user can operate the
phone under the same conditions for
which its SAR was measured. See FCC
KDB, No. 447498, General RF Exposure
Guidelines, § 4.2.2(4).
Compl. J 75; see also 2013 FCC Reassessment, 28
F.C.C. Rcd. 3498, 3587 (stating that “[m]anufacturers

115a
have been encouraged since 2001 to include information in device manuals to make consumers aware
of the need to maintain the body-worn distance – by
using appropriate accessories if they want to ensure
that their actual exposure does not exceed the SAR
measurement obtained during testing”).
The relevant guideline from the FCC’s KDB Office
provides as follows:
Specific information must be included in
the operating manuals to enable users to
select body-worn accessories that meet
the minimum test separation distance
requirements. Users must be fully informed of the operating requirements
and restrictions, to the extent that the
typical user can easily understand the
information, to acquire the required
body-worn accessories to maintain compliance. Instructions on how to place and
orient a device in body-worn accessories,
in accordance with the test results,
should also be included in the user instructions. All supported body-worn accessory operating configurations must be
clearly disclosed to users through conspicuous instructions in the user guide
and user manual to ensure unsupported
operations are avoided. . . .
FCC KDB, No. 447498, General RF Exposure
Guidelines, §
4.2.2(4),
available
at
https://apps.fcc.gov/oetcf/kdb/forms/FTSSearchResultPage.cfm?switch=P&id=20676 (last visited September 17, 2015).

116a
2. FCC Consumer Guide
The FCC currently has a FCC Consumer Guide
regarding wireless devices and health concerns. In the
FCC Consumer Guide, the agency states, inter alia, as
follows:


“Several US government agencies and international organizations work cooperatively to
monitor research on the health effects of RF
exposure. According to the FDA and the World
Health Organization (WHO), among other organizations, to date, the weight of scientific
evidence has not effectively linked exposure to
radio frequency energy from mobile devices
with any known health problems.” FCC Consumer Guide.



“Some health and safety interest groups have
interpreted certain reports to suggest that
wireless device use may be linked to cancer
and other illnesses, posing potentially greater
risks for children than adults. While these assertions have gained increased public attention, currently no scientific evidence establishes a causal link between wireless device
use and cancer or other illnesses. Those evaluating the potential risks of using wireless devices agree that more and longer-term studies
should explore whether there is a better basis
for RF safety standards than is currently
used. The FCC closely monitors all of these
study results. However, at this time, there is
no basis on which to establish a different
safety threshold than our current requirements.” Id.

117a


“Even though no scientific evidence currently
establishes a definite link between wireless
device use and cancer or other illnesses, and
even though all cell phones must meet established federal standards for exposure to RF
energy, some consumers are skeptical of the
science and/or the analysis that underlies the
FCC’s RF exposure guidelines. Accordingly,
some parties recommend taking measures to
further reduce exposure to RF energy. The
FCC does not endorse the need for these
practices, but provides information on some
simple steps that you can take to reduce your
exposure to RF energy from cell phones. For
example, wireless devices only emit RF energy when you are using them and, the closer
the device is to you, the more energy you will
absorb.” Id. (emphasis in original).



“Some parties recommend that you consider
the reported SAR value of wireless devices.
However, comparing the SAR of different devices may be misleading. First, the actual SAR
varies considerably depending upon the conditions of use. The SAR value used for FCC approval does not account for the multitude of
measurements taken during the testing.
Moreover, cell phones constantly vary their
power to operate at the minimum power necessary for communications; operation at maximum power occurs infrequently. Second, the
reported highest SAR values of wireless devices do not necessarily indicate that a user is
exposed to more or less RF energy from one
cell phone than from another during normal

118a
use (see our guide on SAR and cell phones).
Third, the variation in SAR from one mobile
device to the next is relatively small compared
to the reduction that can be achieved by the
measures described above. Consumers should
remember that all wireless devices are certified to meet the FCC maximum SAR standards, which incorporate a considerable safety
margin.” Id.
3. 2013 FCC Reassessment
Finally, in 2013, the FCC issued its Reassessment. See generally 2013 FCC Reassessment, 28
F.C.C. Rcd. 3498. One of the components of the Reassessment was a Notice of Inquiry, “request[ing] comment to determine whether our RF exposure limits
and policies need to be reassessed.” Id. at 3500.
We adopted our present exposure limits
in 1996, based on guidance from federal
safety, health, and environmental agencies using recommendations published
separately by the National Council on
Radiation Protection and Measurements
(NCRP) and the Institute of Electrical
and Electronics Engineers, Inc. (IEEE).
Since 1996, the International Commission on Non-Ionizing Radiation Protection (ICNIRP) has developed a recommendation supported by the World
Health Organization (WHO), and the
IEEE has revised its recommendations
several times, while the NCRP has continued to support its recommendation as

119a
we use it in our current rules. In the Inquiry, we ask whether our exposure limits remain appropriate given the differences in the various recommendations
that have developed and recognizing additional progress in research subsequent
to the adoption of our existing exposure
limits.
Id. at 3501.
The FCC included the following comments in its
Reassessment:


“Since the Commission is not a health and
safety agency, we defer to other organizations
and agencies with respect to interpreting the
biological research necessary to determine
what levels are safe. As such, the Commission
invites health and safety agencies and the
public to comment on the propriety of our general present limits and whether additional
precautions may be appropriate in some cases,
for example with respect to children. We recognize our responsibility to both protect the
public from established adverse effects due to
exposure to RF energy and allow industry to
provide telecommunications services to the
public in the most efficient and practical manner possible. In the Inquiry we ask whether
any precautionary action would be either useful or counterproductive, given that there is a
lack of scientific consensus about the possibility of adverse health effects at exposure levels
at or below our existing limits. Further, if any
action is found to be useful, we inquire

120a
whether it could be efficient and practical.” Id.
at 3501-02.


“In the Inquiry we ask questions about several
other issues related to public information, precautionary measures, and evaluation procedures. Specifically, we seek comment on the
feasibility of evaluating portable RF sources
without a separation distance when worn on
the body to ensure compliance with our limits
under present-day usage conditions. We ask
whether the Commission should consistently
require either disclosure of the maximum SAR
value or other more reliable exposure data in
a standard format – perhaps in manuals, at
point-of-sale, or on a website.” Id. at 3502.



“The Commission has a responsibility to ‘provide a proper balance between the need to protect the public and workers from exposure to
potentially harmful RF electromagnetic fields
and the requirement that industry be allowed
to provide telecommunications services to the
public in the most efficient and practical manner possible.’ The intent of our exposure limits
is to provide a cap that both protects the public based on scientific consensus and allows for
efficient and practical implementation of wireless services. The present Commission exposure limit is a ‘bright-line rule.’ That is, so
long as exposure levels are below a specified
limit value, there is no requirement to further
reduce exposure. The limit is readily justified
when it is based on known adverse health effects having a well-defined threshold, and the

121a
limit includes prudent additional safety factors (e.g., setting the limit significantly below
the threshold where known adverse health effects may begin to occur). Our current RF exposure guidelines are an example of such regulation, including a significant ‘safety’ factor,
whereby the exposure limits are set at a level
on the order of 50 times below the level at
which adverse biological effects have been observed in laboratory animals as a result of tissue heating resulting from RF exposure. This
‘safety’ factor can well accommodate a variety
of variables such as different physical characteristics and individual sensitivities — and
even the potential for exposures to occur in excess of our limits without posing a health hazard to humans.”4 Id. at 3582.


“Despite this conservative bright-line limit,
there has been discussion of going even further to guard against the possibility of risks
from non-thermal biological effects, even
though such risks have not been established
by scientific research. As such, some parties

4
Some contend that RF energy can have both thermal biological effects and nonthermal biological effects. See, e.g., Miller
Decl. ¶¶ 7, 10-14 (noting that “RF radiation is non-ionizing radiation,” that “[n]on-ionizing radiation can harm through thermal
effects, usually only in high dosage,” and that “[t]here is an increasingly clear body of evidence that non-ionizing radiation can
harm through non-thermal effects as well,” including cancer;
adding that the evidence indicates that “RF fields are not just a
possible human carcinogen but a probable human carcinogen”).
The safety factor built in by the FCC seems to be addressed to
the thermal biological effects only.

122a
have suggested measures of ‘prudent avoidance’ – undertaking only those avoidance activities which carry modest costs.” Id. at 358283 (emphasis added).


“Given the complexity of the information on
research regarding non-thermal biological effects, taking extra precautions in this area
may fundamentally be qualitative and may
not be well-served by the adoption of lower
specific exposure limits without any known,
underlying biological mechanism. Additionally, adoption of extra precautionary
measures may have the unintended consequence of ‘opposition to progress and the refusal of innovation, ever greater bureaucracy,
. . . [and] increased anxiety in the population.’
Nevertheless, we invite comment as to
whether precautionary measures may be appropriate for certain locations which would
not affect the enforceability of our existing exposure limits, as well as any analytical justification for such measures.” Id. at 3583.



“We significantly note that extra precautionary efforts by national authorities to reduce
exposure below recognized scientificallybased limits is considered by the WHO to be
unnecessary but acceptable so long as such efforts do not undermine exposure limits based
on known adverse effects. Along these lines,
we note that although the Commission supplies information to consumers on methods to
reduce exposure from cell phones, it has also
stated that it does not endorse the need for nor
set a target value for exposure reduction, and

123a
we seek comment on whether these policies
are appropriate. We also observe that the FDA
has stated that, ‘available scientific evidence
– including World Health Organization
(WHO) findings released May 17, 2010 –
shows no increased health risk due to radiofrequency (RF) energy, a form of electromagnetic radiation that is emitted by cell phones.’
At the same time, the FDA has stated that
‘[a]lthough the existing scientific data do not
justify FDA regulatory actions, FDA has
urged the cell phone industry to take a number of steps, including ... [d]esign[ing] cell
phones in a way that minimizes any RF exposure to the user.’ We seek information on
other similar hortatory efforts and comment
on the utility and propriety of such messaging
as part of this Commission’s regulatory regime.” Id. at 3584-85.


“Commission calculations similar to those in
Appendix D suggest that some devices may
not be compliant with our exposure limits
without the use of some spacer to maintain a
separation distance when body-worn, although this conclusion is not verifiable for individual devices since a test without a spacer
has not been routinely performed during the
body-worn testing for equipment authorization. Yet, we have no evidence that this poses
any significant health risk. Commission rules
specify a pass/fail criterion for SAR evaluation
and equipment authorization. However, exceeding the SAR limit does not necessarily im-

124a
ply unsafe operation, nor do lower SAR quantities imply ‘safer’ operation. The limits were
set with a large safety factor, to be well below
a threshold for unacceptable rises in tissue
temperature. As a result, exposure well above
the specified SAR limit should not create an
unsafe condition. We note that, even if a device is tested without a spacer, there are already certain separations built into the SAR
test setup, such as the thickness of the mannequin shell, the thickness of the device exterior case, etc., so we seek comment on the implementation of evaluation procedures without a spacer for the body-worn testing configuration. We also realize that SAR measurements are performed while the device is operating at its maximum capable power, so that
given typical operating conditions, the SAR of
the device during normal use would be less
than tested. In sum, using a device against the
body without a spacer will generally result in
actual SAR below the maximum SAR tested;
moreover, a use that possibly results in noncompliance with the SAR limit should not be
viewed with significantly greater concern
than compliant use.” Id. at 3588.
II. DISCUSSION
A. Legal Standard
“‘A plaintiff seeking a preliminary injunction
must establish that he is likely to succeed on the merits, that he is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of equities tips in his favor, and that an injunction is in the

125a
public interest.’” Network Automation, Inc. v. Advanced Sys. Concepts, 638 F.3d 1137, 1144 (9th Cir.
2011) (quoting Winter v. Natural Res. Defense Council, Inc., 555 U.S. 7 (2008) (rejecting the position that,
“when a plaintiff demonstrates a strong likelihood of
prevailing on the merits, a preliminary injunction
may be entered based only on a ‘possibility’ of irreparable harm”)). The Ninth Circuit has held that the “serious questions” approach survives Winter when applied as part of the four-element Winter test. In other
words, “serious questions going to the merits” and a
hardship balance that tips sharply toward the plaintiff can support issuance of an injunction, assuming
the other two elements of the Winter test are also met.
See Alliance For The Wild Rockies v. Cottrell, 632 F.3d
1127, 1132 (9th Cir. 2011).
B. Likelihood of Success on the Merits
As noted above, the thrust of CTIA’s complaint is
twofold: (1) the Berkeley ordinance is preempted by
federal law and (2) the ordinance violates the First
Amendment. Thus, the Court must evaluate the likelihood of success as to each contention.
1. Preemption
The specific preemption argument raised by CTIA
is conflict preemption.5 “Conflict preemption is implicit preemption of state law that occurs where ‘there
is an actual conflict between state and federal law.’
Conflict preemption ‘arises when [1] ‘compliance with

5

CTIA has claimed only conflict preemption and not other
kinds of preemption such as e.g., field preemption. See, e.g., Reply
at 12-13 (arguing that the City “challenges a field preemption
argument that CTIA does not raise”) (emphasis in original).

126a
both federal and state regulations is a physical impossibility,’ . . . or [2] when state law ‘stands as an obstacle to the accomplishment and execution of the full
purposes and objectives of Congress.’” McClellan v. IFlow Corp., 776 F.3d 1035, 1040 (9th Cir. 2015).
Here, CTIA puts at issue only obstacle preemption, not impossibility preemption. Under Supreme
Court law, “[w]hat is a sufficient obstacle is a matter
of judgment, to be informed by examining the federal
statute as a whole and identifying its purpose and intended effects.” Crosby v. Nat’l Foreign Trade Council,
530 U.S. 363, 373 (2000). “‘If the purpose of the [federal] act cannot otherwise be accomplished – if its operation within its chosen field must be frustrated and
its provisions be refused their natural effect – the
state law must yield to the regulation of Congress
within the sphere of its delegated power.’” Id.
In the case at bar, the federal statute at issue is
the TCA, “which [inter alia] directed the FCC to ‘make
effective rules regarding the environmental effects of
[RF] emissions’ within 180 days of the TCA’s enactment [in 1996].” Farina, 625 F.3d at 106; see also 47
C.F.R. § 2.1093 (setting exposure limits). CTIA argues
that the purposes underlying the statute are twofold:
(1) to achieve a balance between the need to protect
the public’s health and safety and the goal of providing an efficient and practical telecommunications services for the public’s benefit and (2) to ensure nationwide uniformity as to this balance. In support of this
argument, CTIA relies on the Third Circuit’s decision
Farina v. Nokia, Inc., 625 F.3d 97 (3d Cir. 2010).
The Court agrees with CTIA that Farina is an instructive case with respect to the purposes underlying

127a
the above TCA provision. In Farina, the plaintiff sued
on the ground that “cell phones, as currently manufactured, are unsafe to be operated without headsets
because the customary manner in which they are used
– with the user holding the phone so that the antenna
is positioned next to his head – exposes the user to
dangerous amounts of radio frequency (‘RF’) radiation.” Id. at 104. The Third Circuit held that the plaintiff’s lawsuit was subject to obstacle preemption. The
court noted first that, “although [the plaintiff] disavow[ed] any challenge to the FCC’s RF standards,
that is the essence of his complaint. . . . In order for
[the plaintiff] to succeed, he necessarily must establish that cell phones abiding by the FCC’s SAR guidelines are unsafe to operate without a headset.” Id. At
122. The court then concluded that there was obstacle
preemption, particularly because “regulatory situations in which an agency is required to strike a balance between competing statutory objectives lend
themselves to a finding of conflict preemption.” Id. At
123.
The reason why state law conflicts with federal law in these balancing situations is plain.
When Congress charges an agency with balancing competing objectives, it intends the
agency to use its reasoned judgment to weigh
the relevant considerations and determine
how best to prioritize between these objectives. Allowing state law to impose a different
standard permits a re-balancing of those considerations. A state-law standard that is more
protective of one objective may result in a
standard that is less protective of others.

128a
Id. The FCC was tasked with a balancing act – not
only to “protect[] the health and safety of the public,
but also [to] ensur[e] the rapid development of an efficient and uniform network, one that provides effective
and widely accessible service at a reasonable cost.” Id.
at 125. “Were the FCC’s standards to constitute only
a regulatory floor upon which state law can build, juries could re-balance the FCC’s statutory objectives
and inhibit the provision of quality nationwide service.” Id.
Moreover, in Farina, the Third Circuit also stated
that uniformity was one of the purposes underlying
the TCA:
The wireless network is an inherently national system. In order to ensure the network
functions nationwide and to preserve the balance between the FCC’s competing regulatory
objectives, both Congress and the FCC recognized uniformity as an essential element of an
efficient wireless network. Subjecting the
wireless network to a patchwork of state
standards would disrupt that uniformity and
place additional burdens on industry and the
network itself.
Id. at 126.
Finally, as noted in Farina, the legislative history
for the TCA, which instructed the FCC to “to prescribe
and make effective rules regarding the environmental
effects of radio frequency emissions,” 104 P.L. 104
(1996) (discussing § 704), includes a House Report
that also indicates uniformity is an important goal.
The House Report states, inter alia:

129a
The Committee finds that current State and
local requirements, siting and zoning decisions by non-federal units of government,
have created an inconsistent and, at times,
conflicting patchwork of requirements which
will inhibit the deployment of Personal Communications Services (PCS) as well as the rebuilding of a digital technology-based cellular
telecommunications network. The Committee
believes it is in the national interest that uniform, consistent requirements, with adequate
safeguards of the public health and safety, be
established as soon as possible. Such requirements will ensure an appropriate balance in
policy and will speed deployment and the
availability of competitive wireless telecommunications services which ultimately will
provide consumers with lower costs as well as
with a greater range and options for such services.
H.R. Rep. No. 104-204, at 94 (1996).6
But even though Farina persuasively identifies
the purposes underlying the TCA provision at issue,

6

The Court notes, however, that statement in the House Report is not clearly targeted at the requirement that the agency
make rules regarding RF energy emissions. This is because § 704
of the TCA concerned not only this directive but also another –
i.e., that the FCC “prescribe a national policy for the siting of
commercial mobile radio services facilities.” H.R. Rep. No. 104
204, at 94 (also stating that “[t]he siting of facilities cannot be
denied on the basis of Radio Frequency (RF) emission levels
which are in compliance with the Commission RF emission regulated levels”).

130a
the limited disclosure mandated by the Berkeley ordinance does not, with one exception, impose an obstacle
to those purposes. As noted above, the notice required
by the City ordinance states as follows:
The City of Berkeley requires that you be provided the following notice:
To assure safety, the Federal Government requires that cell phones meet radio frequency
(RF) exposure guidelines. If you carry or use
your phone in a pants or shirt pocket or tucked
into a bra when the phone is ON and connected to a wireless network, you may exceed
the federal guidelines for exposure to RF radiation. This potential risk is greater for children. Refer to the instructions in your phone
or user manual for information about how to
use your phone safely.
Berkeley Mun. Code § 9.96.030(A). This disclosure, for
the most part, simply refers consumers to the fact that
there are FCC standards on RF energy exposure –
standards which assume a minimum spacing of the
cell phone away from the body – and advises consumers to refer to their manuals regarding maintenance
of such spacing. The disclosure mandated by the
Berkeley ordinance is consistent with the FCC’s statements and testing procedures regarding spacing. See,
e.g., FCC Consumer Guide (advising “on some simple
steps that you can take to reduce your exposure to RF
energy from cell phones[;] [f]or example, wireless devices only emit RF energy when you are using them
and, the closer the device is to you, the more energy
you will absorb”); 2013 FCC Reassessment, 28 F.C.C.
Rcd. at 3588 (stating that “Commission calculations .

131a
. . suggest that some devices may not be compliant
with our exposure limits without the use of some
spacer to maintain a separation distance when bodyworn, although this conclusion is not verifiable for individual devices since a test without a spacer has not
been routinely performed during the body-worn testing for equipment authorization”). It is also consistent
with the FCC’s own requirement that cell phone manufacturers disclose to consumers information and advice about spacing. See FCC KDB, No. 447498, General RF Exposure Guidelines, § 4.2.2(4). Thus, the ordinance does not ban something the FCC authorizes
or mandates. And CTIA has failed to point to any FCC
pronouncement suggesting that the agency has any
objection to warning consumers about maintaining
spacing between the body and a cell phone. Moreover,
the City ordinance, because it is consistent with FCC
pronouncements and directives, does not threaten national uniformity.
There is, however, one portion of the notice required by the City ordinance that is subject to obstacle
preemption – namely, the sentence “This potential
risk is greater for children.” Berkeley Mun. Code §
9.96.030(A). Notably, this sentence does not say that
the potential risk may be greater for children; rather,
the sentence states that the potential risk is greater.
But whether the potential risk is, in fact, greater for
children is a matter of scientific debate. The City has
taken the position in this lawsuit that its notice is
simply designed to reinforce a message that the FCC
already requires and make consumers aware of FCC
instructions and mandates, see, e.g., Opp’n at 1, 4, but
the FCC has never made any pronouncement that

132a
there is a greater potential risk for children, and, certainly, the FCC has not imposed different RF energy
exposure limits that are applicable to children specifically. At most, the FCC has taken note that there is
a scientific debate about whether children are potentially at greater risk. See, e.g., FCC Consumer Guide
(“Some health and safety interest groups have interpreted certain reports to suggest that wireless device
use may be linked to cancer and other illnesses, posing
potentially greater risks for children than adults.
While these assertions have gained increased public
attention, currently no scientific evidence establishes
a causal link between wireless device use and cancer
or other illnesses.”); 2013 FCC Reassessment, 28
F.C.C. Rcd. at 3501 (“[T]he Commission invites health
and safety agencies and the public to comment on the
propriety of our general present limits and whether
additional precautions may be appropriate in some
cases, for example with respect to children.”). Importantly, however, the FCC has not imposed different exposure limits for children nor does it mandate
special warnings regarding children’s exposure to RF
radiation from cell phones. Thus, the content of the
sentence – that the potential risk is indeed greater for
children compared to adults – threatens to upset the
balance struck by the FCC between encouraging commercial development of all phones and public safety,
because the Berkeley warning as worded could materially deter sales on an assumption about safety risks
which the FCC has refused to adopt or endorse.7
7

At the hearing, the City argued that there is a greater potential risk because of behavioral differences between children
and adults. See Cortesi Decl. 11 5-8 (testifying, inter alia, that
children are heavy users of cell phones, that they often sleep with

133a
Accordingly, although CTIA has not demonstrated a likelihood of success or even serious question
on the merits in its preemption challenge to the main
portion of the notice, it has established a likelihood of
success on its claim that the warning about children
is preempted.
2. First Amendment
Having determined that the required statement,
“This potential risk is greater for children,” is likely
preempted by federal law, the Court now addresses
CTIA’s likelihood of success with respect to its First
Amendment challenge to the remainder of the notice.8

their phones on or next to their beds, that they often text which
leads to them keeping phones close to their bodies, etc.). The City
contends that CTIA has done nothing to refute the evidence submitted by the City on the behavioral differences, and thus the
evidence of record establishes that the potential risk is greater.
This argument, however, has little merit in light of the FCC evidence cited above, which indicates that at most there is a scientific debate regarding the risk to children. Moreover, the wording
of the notice suggests to the general public that the danger to
children arises from their inherent biological susceptibility to RF
radiation, not behavioral susceptibility.
8
The Court shall evaluate the ordinance as if the sen- tence
regarding children were excised from the text. This approach is
appropriate in light of Berkeley Municipal Code § 1.01.100
which, in effect, allows for severance. See Berkeley Mun. Code §
1.01.100 (“If any section, subsection, sentence, clause or phrase
of this code is for any reason held to be invalid or unconstitutional, such decision shall not affect the validity of the remaining
portions of this code. The council hereby declares that it would
have passed this code, and each section, subsection, sentence,
clause and phrase thereof, irrespective of the fact that any one or
more sections, subsections, sentences, clauses or phrases had
been declared invalid or unconstitutional, and if for any reason
this code should be declared invalid or unconstitutional, then the

134a
a. Level of Scrutiny
With respect to CTIA’s First Amendment claim,
the Court must first determine what First Amendment test should be used to evaluate the ordinance at
issue. CTIA contends that strict scrutiny must be applied because the ordinance is neither content nor
viewpoint neutral. See Reed v. Town of Gilbert, 135 S.
Ct. 2218, 2228, 2230 (2015) (stating that “strict scrutiny applies either when a law is content based on its
face or when the purpose and justification for the law
are content based”; adding that “[g]overnment discrimination among viewpoints . . . is a ‘more blatant’
and ‘egregious form of content discrimination’”). But
in making this argument, CTIA completely ignores
the fact that the speech rights at issue here are its
members’ commercial speech rights. See Hunt v. City
of L.A., 638 F.3d 703, 715 (9th Cir. 2011) (stating that
“[c]ommercial speech is ‘defined as speech that does
no more than propose a commercial transaction’”;
“‘strong support’ that the speech should be characterized as commercial speech is found where the speech
is an advertisement, the speech refers to a particular
product, and the speaker has an economic motivation”). The Supreme Court has clearly made a distinction between commercial speech and noncommercial
speech, see, e.g., Central Hudson Gas & Elec. Corp. v.
Pub. Serv. Comm’n, 447 U.S. 557, 562-63 (1980) (stating that “[t]he Constitution . . . accords a lesser protection to commercial speech than to other constitutionally guaranteed expression”); see also Nat’l Ass’n
of Mfrs. v. SEC, No. 13-5252, 2015 U.S. App. LEXIS

original ordinance or ordinances shall be in full force and effect.”).

135a
14455, at *75-76 (D.C. Cir. Aug. 18, 2015) (noting that,
“as the Supreme Court has emphasized, the starting
premise in all commercial speech cases is the same:
the First Amendment values commercial speech for
different reasons than non-commercial speech”), and
nothing in its recent opinions, including Reed, even
comes close to suggesting that that well- established
distinction is no longer valid.9
CTIA contends that, even if the commercial
speech rubric is applied, the ordinance should be subject to at least intermediate scrutiny, pursuant to Central Hudson:
If the communication is neither misleading
nor related to unlawful activity, . . . [t]he State
must assert a substantial interest to be
achieved by restrictions on commercial
speech. Moreover, the regulatory technique
must be in proportion to that interest. The
limitation on expression must be designed
carefully to achieve the State’s goal. Compliance with this requirement may be measured
by two criteria. First, the restriction must directly advance the state interest involved. . . .
. Second, if the governmental interest could be
served as well by a more limited restriction on
commercial speech, the excessive restrictions
cannot survive.
Central Hudson, 447 U.S. at 564. But as indicated by
the above language, Central Hudson was addressing
9

Ironically, the classification of speech between commer- cial
and noncommercial is itself a content-based distinction. Yet it
cannot seriously be contended that such classification itself runs
afoul of the First Amendment.

136a
restrictions on commercial speech. Here, the Court is
not confronted with any restrictions on CTIA members’ commercial speech; rather, the issue is related to
compelled disclosure of commercial speech. The Supreme Court has treated restrictions on commercial
speech differently from compelled disclosure of such
speech. This difference in treatment was first articulated in the plurality decision in Zauderer v. Office of
Disciplinary Counsel of the Supreme Court of Ohio,
471 U.S. 626 (1985), and subsequently affirmed by the
majority opinion in Milavetz, Gallp & Milavetz, P.A.
v. United States, 559 U.S. 229 (2010).
Because Zauderer is a critical opinion, the Court
briefly discusses its holding. The plaintiff in Zauderer
was an attorney. He ran an advertisement in which
he “publiciz[ed] his willingness to represent women
who had suffered injuries resulting from their use of
a contraceptive device known as the Dalkon Shield Intrauterine Device.” Id. at 630. In the advertisement,
the plaintiff stated that “‘[t]he case are handled on a
contingent fee basis of the amount recovered. If there
is no recovery, no legal fees are owed by our clients.’”
Id. at 631. Based on the advertisement, the state Office of Disciplinary Counsel filed a complaint against
the plaintiff, alleging that the plaintiff had violated a
disciplinary rule because the advertisement “fail[ed]
to inform clients that they would be liable for costs (as
opposed to legal fees) even if their claims were unsuccessful” and therefore was deceptive. Id. at 633. The
state supreme court agreed with the state Office of
Disciplinary Counsel. The plaintiff appealed, asserting that his First Amendment rights had been violated.

137a
In resolving the issue, the plurality began by
noting that [o]ur general approach to restrictions on commercial speech is . . . by now
well settled. The States and the Federal Government are free to prevent the dissemination
of commercial speech that is false, deceptive,
or misleading. Commercial speech that is not
false or deceptive and does not concern unlawful activities, however, may be restricted only
in the service of a substantial governmental
interest, and only through means that directly
advance that interest [i.e., Central Hudson].
Id. at 638.
The plurality pointed out, however, that there are
“material differences between disclosure requirements and outright prohibitions on speech.” Id. at 650.
While, “in some instances compulsion to speak may be
as violative of the First Amendment as prohibitions
on speech,” that is not always the case. Id. Here, the
state was not “‘prescrib[ing] what shall be orthodox in
politics, religion, [etc].’”; rather,
[t]he State has attempted only to prescribe
what shall be orthodox in commercial advertising, and its prescription has taken the form
of a requirement that appellant include in his
advertising purely factual and uncontroversial information about the terms under which
his services will be available. Because the extension of First Amendment protection to
commercial speech is justified principally by
the value to consumers of the information
such speech provides, appellant’s constitutionally protected interest in not providing

138a
any particular factual information in his advertising is minimal. Thus, in virtually all our
commercial speech decisions to date, we have
emphasized that because disclosure requirements trench much more narrowly on an advertiser’s interest than do flat prohibitions on
speech, “[warnings] or [disclaimers] might be
appropriately required . . . in order to dissipate the possibility of consumer confusion or
deception.”
We do not suggest that disclosure requirements do not implicate the advertiser’s First
Amendment rights at all. We recognize that
unjustified or unduly burdensome disclosure
requirements might offend the First Amendment by chilling protected commercial speech.
But we hold that an advertiser’s rights are adequately protected as long as disclosure requirements are reasonably related to the
State’s interest in preventing deception of consumers.
Id. at 651 (emphasis added).
The plurality then held that this standard was
satisfied in the case at hand.
Appellant’s advertisement informed the public
that “if there is no recovery, no legal fees are owed by
our clients.” The advertisement makes no mention of
the distinction between “legal fees” and “costs,” and to
a layman not aware of the meaning of these terms of
art, the advertisement would suggest that employing
appellant would be a no-lose proposition in that his
representation in a losing cause would come entirely

139a
free of charge. The assumption that substantial numbers of potential clients would be so misled is hardly a
speculative one: it is a commonplace that members of
the public are often unaware of the technical meanings of such terms as “fees” and “costs” – terms that,
in ordinary usage, might well be virtually interchangeable. When the possibility of deception is as
self-evident as it is in this case, we need not require
the State to “conduct a survey of the . . . public before
it [may] determine that the [advertisement] had a tendency to mislead.” The State’s position that it is deceptive to employ advertising that refers to contingent-fee arrangements without mentioning the client’s liability for costs is reasonable enough to support
a requirement that information regarding the client’s
liability for costs be disclosed.
Id. at 652-53. Accordingly, Zauderer suggests that
compelled disclosure of commercial speech, unlike
suppression or restriction of such speech, is subject to
rational basis review rather than intermediate scrutiny.
Approximately fifteen years later, a majority of
the Supreme Court addressed Zauderer in Milavetz.
Milavetz concerned the constitutionality of the
Bankruptcy Abuse Prevention and Consumer Protection Act of 2005 (“BAPCPA”). The act regulated the
conduct of debt relief agencies, i.e., “professionals who
provide bankruptcy assistance to consumer debtors.”
Milavetz, 559 U.S. at 232. Part of the act required debt
relief agencies to make certain disclosures in their advertisements. See id. at 233. The parties disagreed as
to whether Central Hudson or Zauderer provided the

140a
applicable standard in evaluating the statute. The Supreme Court concluded that Zauderer governed, noting as follows:
The challenged provisions of § 528 share the
essential features of the rule at issue in Zauderer.
As in that case, § 528’s required disclosures are
intended to combat the problem of inherently misleading commercial advertisements – specifically,
the promise of debt relief without any reference to
the possibility of filing for bankruptcy, which has
inherent costs. Additionally, the disclosures entail
only an accurate statement identifying the advertiser’s legal status and the character of the assistance provided, and they do not prevent debt relief
agencies . . . from conveying any additional information.
Id. at 250. The Court then determined that “§ 528’s
requirements that [the petitioner] identify itself as a
debt relief agency and include information about its
bankruptcy-assistance an related services are ‘reasonably related to the [Government’s] interest in preventing deception of consumers.’” Id. at 252-53. Accordingly, it “upheld those provisions as applied to [the petitioner].” Id. at 253.
Since Zauderer and Milavetz, circuit courts have
essentially characterized the Zauderer test as a rational basis or rational review test. See, e.g., Nat’l
Ass’n, 2015 U.S. App. LEXIS 14455, at *55 (stating
that “[t]he Supreme Court has stated that rational basis review applies to certain disclosures of ‘purely factual and uncontroversial information’”; quoting Zauderer); King v. Governor of N.J., 767 F.3d 216, 236 (3d

141a
Cir. 2014) (stating that Zauderer “outlin[ed] the ‘material differences between disclosure requirements
and outright prohibitions on speech’ and subject[ed] a
disclosure requirement to rational basis review”);
Safelite Group v. Jepsen, 764 F.3d 258, 259 (2d Cir.
2014) (characterizing Zauderer as “rational basis review”); Centro Tepeyac v. Montgomery County, 722
F.3d 184, 189 (4th Cir. 2013) (noting that, under Zauderer, “disclosure requirements aimed at misleading
commercial speech need only survive rational basis
scrutiny”); Disc. Tobacco City & Lottery, Inc. v. United
States, 674 F.3d 509, 559 n.8 (6th Cir. 2012) (characterizing Zauderer as a “rational-basis rule”); see also
Pharm. Care Mgmt. Ass’n v. Rowe, 429 F.3d 294, 316
(1st Cir. 2005) (Boudin, J., concurring) (stating that
“[t]he idea that these thousands of routine regulations
require an extensive First Amendment analysis is
mistaken” because Zauderer is in essence a rational
basis test). This is consistent with the underlying theory of the First Amendment. As the Second Circuit
has noted, “mandated disclosure of accurate, factual,
commercial information does not offend the core First
Amendment values of promoting efficient exchange of
information or protecting individual liberty interests”
– indeed, “disclosure further, rather than hinders, the
First Amendment goal of the discovery of truth and
contributes to the efficiency of the ‘marketplace of
ideas.’” Nat’l Elec. Mfrs. Ass’n v. Sorrell, 272 F.3d 104,
114 (2d Cir. 2001).
CTIA protests that, even if Zauderer makes a distinction between restrictions on commercial speech
and compelled disclosure, the more lenient test articulated in Zauderer is applicable only where the gov-

142a
ernmental interest at issue is the prevention of consumer deception, and that, here, the governmental interest is in public health or safety, not consumer deception. But tellingly, no court has expressly held that
Zauderer is limited as CTIA proposes. In fact, several
circuit courts have held to the contrary. For example,
in American Meat Institute v. United States Department of Agriculture., 760 F.3d 18 (D.C. Cir. 2014), the
D.C. Circuit, sitting en banc, considered a regulation
of the Secretary of Agriculture that required disclosure of country-of-origin information about meat products. The plaintiffs argued that the regulation violated their First Amendment rights. The question for
the court was whether “the test set forth in Zauderer
applies to government interests beyond consumer deception.” Id. at 21. The court began by acknowledging
that
Zauderer itself does not give a clear answer.
Some of its language suggests possible confinement to correcting deception. Having already described the disclosure mandated
there as limited to “purely factual and uncontroversial information about the terms under
which [the transaction was proposed],” the
Court said, “we hold that an advertiser’s
rights are adequately protected as long as
[such] disclosure requirements are reasonably
related to the State’s interest in preventing
deception of consumers.” (It made no finding
that the advertiser’s message was “more likely
to deceive the public than to inform it,” which
would constitutionally subject the message to
an outright ban. The Court’s own later appli-

143a
cation of Zauderer in Milavetz, Gallop & Milavetz, P.A. v. United States, 559 U.S. 229
(2010), also focused on remedying misleading
advertisements, which was the sole interest
invoked by the government. Given the subject
of both cases, it was natural for the Court to
express the rule in such terms. The language
could have been simply descriptive of the circumstances to which the Court applied its new
rule, or it could have aimed to preclude any
application beyond those circumstances.
The language with which Zauderer justified
its approach, however, sweeps far more
broadly than the interest in remedying deception. After recounting the elements of Central
Hudson, Zauderer rejected that test as unnecessary in light of the “material differences between disclosure requirements and outright
prohibitions on speech.” Later in the opinion,
the Court observed that “the First Amendment interests implicated by disclosure requirements are substantially weaker than
those at stake when speech is actually suppressed.” After noting that the disclosure took
the form of “purely factual and uncontroversial information about the terms under which
[the] services will be available,” the Court
characterized the speaker’s interest as “minimal”: “Because the extension of First Amendment protection to commercial speech is justified principally by the value to consumers of
the information such speech provides, appellant’s constitutionally protected interest in

144a
not providing any particular factual information in his advertising is minimal.” All told,
Zauderer’s characterization of the speaker’s
interest in opposing forced disclosure of such
information as “minimal” seems inherently
applicable beyond the problem of deception, as
other circuits [e.g., the Second and First] have
found.
Id. at 21-22.
In National Electrical, the Second Circuit also rejected a reading of Zauderer as being limited to a situation where the government’s interest is prevention
of consumer deception. The case concerned a Vermont
statute that “require[d] manufacturers of some mercury-containing products to label their products and
packaging to inform consumers that the products contain mercury and, on disposal, should be recycled or
disposed of as hazardous waste.” Nat’l Elec., 272 F.3d
at 107. The court acknowledged that
the compelled disclosure at issue here was not
intended to prevent “consumer confusion or
deception” per se, but rather to better inform
consumers about the products they purchase.
Although the overall goal of the statute is
plainly to reduce the amount of mercury released into the environment, it is inextricably
intertwined with the goal of increasing consumer awareness of the presence of mercury
in a variety of products. Accordingly, we cannot say that the statute’s goal is inconsistent
with the policies underlying First Amendment
protection of commercial speech, described

145a
above, and the reasons supporting the distinction between compelled and restricted commercial speech. We therefore find that it is
governed by the reasonable-relationship rule
in Zauderer.
We believe that such a reasonable relationship is plain in the instant case. The prescribed labeling would likely contribute directly to the reduction of mercury pollution,
whether or not it makes the greatest possible
contribution. It is probable that some mercury
lamp purchasers, newly informed by the Vermont label, will properly dispose of them and
thereby reduce mercury pollution. By encouraging such changes in consumer behavior, the
labeling requirement is rationally related to
the state’s goal of reducing mercury contamination.
We find that the Vermont statute is rationally
related to the state’s goal, notwithstanding
that the statute may ultimately fail to eliminate all or even most mercury pollution in the
state.
Id. at 115; see also N.Y. St. Rest. Ass’n v. N.Y. City Bd.
of Health, 556 F.3d 114, 133 (2d Cir. 2009) (stating
that “Zauderer’s holding was broad enough to encompass nonmisleading disclosure requirements”).
The First and Sixth Circuits are in accord with the
D.C. and Second Circuits. See Pharm. Care, 429 F.3d
at 310 n.8 (noting that “we have found no cases limiting Zauderer [to potentially deceptive advertising directed at consumers]”); Disc. Tobacco, 674 F.3d at 556
57 (discussing National Electrical approvingly); cf.

146a
Pharm. Care, 429 F.3d at 316 (Boudin, J., concurring)
(stating that “[t]he idea that these thousands of routine regulations require an extensive First Amendment analysis is mistaken” because Zauderer is in essence a rational basis test). Furthermore, in an unpublished decision, the Ninth Circuit addressed a San
Francisco ordinance which also imposed a notice requirement on cell phone retailers (based on RF energy
emission), but the court did not hold that Zauderer
was limited to circumstances in which a state or local
government was trying to prevent potentially misleading advertising. See generally CTIA – The Wireless Ass’n v. City & County of San Francisco, 494 Fed.
Appx. 752 (9th Cir. 2012). The court assumed Zauderer applied to mandatory disclosures directed at
health and safety, not consumer deception.
The circuit authority cited above is persuasive,
and thus the Court disagrees with CTIA’s interpretation of Zauderer as being limited to preventing consumer deception. Indeed, it would make little sense to
conclude that the government has greater power to
regulate commercial speech in order to prevent deception than to protect public health and safety, a core
function of the historic police powers of the states. See,
e.g., Hill v. Colorado, 530 U.S. 703, 715 (2000) (stating
that “[it] is a traditional exercise of the States’ ‘police
powers to protect the health and safety of their citizens’”); Barnes v. Glen Theatre, 501 U.S. 560, 569
(1991) (noting that “[t]he traditional police power of
the States is defined as the authority to provide for
the public health, safety, and morals”).
Moreover, there is a persuasive argument that,
where, as here, the compelled disclosure is that of
clearly identified government speech, and not that of

147a
the private speaker, a standard even less exacting
than that established in Zauderer should apply. In
Zauderer, the plaintiff-attorney was being compelled
to speak, and nothing about that compelled speech indicated it was anyone’s speech but the plaintiff-attorney’s. In contrast, here, CTIA’s members are being
compelled to communicate a message, but the message being communicated is clearly the City’s message, and not that of the cell phone retailers. See, e.g.,
Berkeley Mun. Code § 9.96.030(A)-(B) (providing that
the notice shall state “The City of Berkeley requires
that you be provided the following notice” and that
“the notice shall include the City’s logo”). In other
words, while CTIA’s members are being compelled to
provide a mandated disclosure of Berkeley’s speech,
no one could reasonably mistake that speech as emanating from a cell phone retailer itself. Where a law
requires a commercial entity engaged in commercial
speech merely to permit a disclosure by the government, rather than compelling speech out of the mouth
of the speaker, the First Amendment interests are less
obvious. Notably, at the hearing, CTIA conceded that
there would be no First Amendment violation if the
City handed out flyers or had a poster board immediately outside a cell phone retailer’s store. But that
then begs the question of what is the difference between that conduct and the conduct at issue herein –
i.e., where the City information is being provided at
the sales counter inside the store instead of immediately outside the store. While the former certainly
seems more intrusive, that is more so because it seems
to impinge on property rights rather than on expressive rights. CTIA has not cited any appellate authority addressing the proper standard of First Amend-

148a
ment review where the government requires mandatory disclosure of government speech by a private
party in the context of commercial speech.
To be sure, there are First Amendment limits to
the government’s ability to require that a speaker
carry a hostile or inconsistent message of a third
party, at least in the context of noncommercial speech.
See, e.g., Hurley v. Irish-Am. Gay, Lesbian & Bisexual
Grp. of Boston, 515 U.S. 557 (1995) (holding that First
Amendment rights of a parade organizer and council
were violated when they were required to include a
gay rights organization in their parade); Pac. Gas &
Elec. Co. v. Pub. Utils. Comm’n of Cal., 475 U.S. 1
(1986) (plurality decision) (concluding that the First
Amendment rights of privately owned utility company
were violated by an order from the California Public
Utilities Commission that required the company to include in its billing envelopes speech of a third party
with which the company disagreed); Miami Herald
Pub’g Co. v. Tornillo, 418 U.S. 241, 243, 256, 258
(1974) (holding that “a state statute granting a political candidate a right to equal space to reply to criticism and attacks on his record by a newspaper violates the guarantees of a free press”; noting that the
“statute exacts a penalty on the basis of the content of
a newspaper” and also “intru[des] into the function of
editors”). But, as stated above, these cases involved
noncommercial speech, not commercial speech as
here. See, e.g., PG&E, 475 U.S. at 9 (noting that company’s newsletter, which was included in the billing
envelopes, covered a wide range of topics, “from energy-saving tips to stories about wildlife conservation,
and from billing information to recipes,” and thus “extend[ed] well beyond speech that [simply] proposes a

149a
business transaction”; citing Zauderer and Central
Hudson). This is a significant distinction, particularly
because First Amendment analysis in the commercial
speech context assumes that more speech, so long as
it is not misleading, enhances the marketplace (as
well as the marketplace of ideas). See Zauderer, 471
U.S. at 651 (noting that “the extension of First
Amendment protection to commercial speech is justified principally by the value to consumers of the information such speech provides”). That is why the Court
in Zauderer afforded particular deference to the government’s decision to compel disclosures (in contrast
to laws restricting speech). Here, the ordinance expressly affords retailers the right to add comments to
the notice, and there is no showing that adding comments would be a significant burden on retailers.
Moreover, Miami Herald can be distinguished on
an additional ground. More specifically, in Miami Herald, the primary concern was the chilling of speech by
the entity subject to the disclosure requirement as a
consequence of the challenged law. See Miami Herald,
418 U.S. at 257 (noting that, “[f]aced with the penalties that would accrue to any newspaper that published news or commentary arguably within the reach
of the right-of-access statute, editors might well conclude that the safe course is to avoid controversy”). In
contrast to Miami Herald, here, there is no real claim
that the retailer’s speech is chilled by the Berkeley ordinance; in fact, as indicated above, the ordinance expressly allows retailers to add “other information” at
the retailer’s discretion. Berkeley Mun. Code §
9.96.030(B).
While CTIA has argued that being forced to engage in counter-speech (i.e., speech in response to the

150a
City notice) is, in and of itself, a First Amendment
burden (as indicated in PG&E), that is not necessarily
true where commercial speech is at issue. As the City
points out, Zauderer spoke only in terms of chilling
speech as a First Amendment burden in the context of
commercial speech. See Zauderer, 471 U.S. at 651
(stating that “unjustified or unduly burdensome disclosure requirements might offend the First Amendment by chilling protected commercial speech”); see
also Am. Meat, 760 F.3d at 27 (acknowledging the
same; also stating that “Zauderer cannot justify a disclosure so burdensome that it essentially operates as
a restriction on constitutionally protected speech”).
This makes sense as the value of commercial speech
comes from the information it provides – i.e., more
speech, not less. That being said, even if CTIA were
correct that the right not to speak had some application to commercial speech, he need for counter-speech
– at least in the circumstances presented herein – are
minimal, as discussed infra.
Thus, there is good reason to conclude that the
First Amendment test applicable in this case should
be even more deferential to the government than the
test in Zauderer. More particularly, the rational basis
test applicable to compelled display of government
speech need not be cabined by the Zauderer’s requirement that the compelled disclosure be “purely factual
and uncontroversial.” Zauderer, 471 U.S. at 651. In
Zauderer, it made sense that the Supreme Court imposed the baseline requirement that the compelled
speech be purely factual and uncontroversial because,
where speech is in fact purely factual and uncontroversial, then the speaker’s interest in countering such

151a
information is minimal. The Zauderer test thus insures any First Amendment interest against compelled speech is minimal. But where there is attribution of the compelled speech to someone other than the
speaker – in particular, the government – the Zauderer factual-and-uncontroversial requirement is not
needed to minimize the intrusion upon the plaintiff’s
First Amendment interest.
Instead, under more general rational basis principles, the challenged law must be reasonably related to
a legitimate governmental interest. In particular, if
the law furthers a legitimate government interest in
requiring disclosure of governmental speech, it should
be upheld. This is not to say that First Amendment
interest in this context is nonexistent. Even though no
speech is compelled out of the mouth of retailers and
there is no claim that their speech is chilled, the fact
that they may feel compelled to respond to Berkeley’s
notice arguably implicates to some extent the First
Amendment. See PG&E, 471 U.S. at 15 (in case involving noncommercial speech, noting that the company “may be forced either to appear to agree with
[third party’s] views [included in the company’s billing
envelope] or to respond”). Because there is an arguable First Amendment interest, it may reasonably be
contended that the more exacting forum of rational
basis review (which some commentators have labeled
“rational basis with bite,” see Bishop v. Smith, 760
F.3d 1070, 1099 (10th Cir. 2014) (citing law review articles addressing “rational basis with bite,” “rational
basis with teeth,” or “rational basis plus”); Powers v.
Harris, 379 F.3d 1208, 1224-25 n.21 (10th Cir. 2004)
(same)), which requires an examination of actual state

152a
interests and whether the challenged law actually furthers that interest rather than the traditional rational
basis review which permits a law to be upheld if rationally related to any conceivable interest. Compare
Romer v. Evans, 517 U.S. 620 (1996) (holding that a
Colorado constitutional amendment that prohibited
all legislative, executive, or judicial action designed to
protect homosexual persons from discrimination
“lacks a rational relationship to legitimate state interests”); City of Cleburne, Tex. v. Cleburne Living Ctr.,
473 U.S. 432 (1985) (striking down under rational basis city council decision preventing group home for
mentally disabled); Plyler v. Doe, 457 U.S. 202 (1982)
(invalidating under rational basis portion of statute
excluding immigrant children from public schools),
with Williamson v. Lee Optical, 348 U.S. 483 (1955)
(applying traditional rational relationship test in
evaluating constitutionality of legislation). See also
Wal-Mart Stores, Inc. v. City of Turlock, 483 F. Supp.
2d 1023, 1038, n 6 (E.D. Cal. 2007) (recognizing
Cleburne/Romer approach commonly referred as “rational basis with bite”).
For purposes of this opinion, the Court shall evaluate the Berkeley ordinance under the more rigorous
rational basis review as well as the Zauderer test. As
discussed below, both of these standards have been
met in the instant case.
b. Application of Rational Basis Test
In identifying the government interest supporting
the notice required by the ordinance, Berkeley argues
that it simply seeks to insure fuller consumer awareness of the FCC’s SAR testing procedures and di-

153a
rective to manufacturers to disclose the spacing requirements used to insured SAR does not exceed
stated levels. Promoting consumer awareness of the
government’s testing procedures and guidelines obviously is a legitimate governmental interest. Compare
Sorrell v. IMS Health Inc., 131 S. Ct. 2653, 2672
(2011) (stating that “the government’s legitimate interest in protecting consumers from ‘commercial
harms’ explains ‘why commercial speech can be subject to greater governmental regulation than noncommercial speech’”), with Int’l Dairy Foods Ass’n v.
Amestoy, 92 F.3d 67, 74 (2d Cir. 1996) (stating that
“consumer curiosity alone is not a strong enough state
interest to sustain the compulsion of even an accurate,
factual statement in a commercial context”). And the
mandated notice (apart from the warning about risk
to children) furthers and is reasonably related that
governmental interest. As noted in the preemption
analysis above, nothing in the required Berkeley notice contradicts what the FCC has said and done, and
the upshot of the notice (advising consumers to consult the cell phone instructions or user manual on how
to safely use the phone) tracks what the FCC requires.
CTIA argues that framing the governmental interest as insuring consumer awareness begs the question and misses the real mark. It contends that the
real asserted interest here is purported public safety
and that the mandated notice is misleading because it
suggests a substantial risk to health that does not in
fact exist. To the extent the true ultimate governmental interest for the ordinance is public health and
safety (since the purpose of referring consumers to the
user manual is so that consumers will know how to
“use your phone safely”), such an interest undoubtedly

154a
is a legitimate public interest. See, e.g., Hispanic Taco
Vendors v. Pasco, 994 F.2d 676, 680 (9th Cir. 1993)
(finding ordinance that regulated itinerant vending
and imposed licensing fees supported by legitimate
governmental interests in, e.g., health and safety).
The question then is whether the ordinance is reasonably related to such interest. Notwithstanding CTIA’s
argument to the contrary, the Court concludes that it
is.
While there is scientific uncertainty as to the relationship between SAR levels and the risk of, e.g.,
cancer, and there is scientific debate about whether
nonthermal as well as thermal effects of RF radiation
may pose health risks, there is a reasonable scientific
basis to believe that RF radiation at some levels can
and do present health risks. The SAR limits were established by the FCC in the interests of safety in view
of the potential risks of RF radiation exposure. Although current maximum SAR levels set by the FCC
were designed to provide a comfortable margin, at
least with respect to risks posed by the thermal effect
of RF radiation, the FCC has in fact established specific limits to SAR exposure and uses those limits in
the testing and approval of cell phones for sale to the
public. And testing procedures governed by FCC rules
incorporating those SAR limits assume a minimal
amount of spacing of the cell phone from the body,
without which SAR levels may exceed the established
guidelines. See CTIA, 827 F. Supp. 2d at 1062 (noting
that “the FCC has implicitly recognized that excessive
RF radiation is potentially dangerous[;] [i]t did so
when it ‘balanced’ that risk against the need for a
practical nationwide cell phone system,” and “[t]he
FCC has never said that RF radiation poses no danger

155a
at all, only that RF radiation can be set at acceptable
levels”), rev’d on other grounds, 494 Fed. Appx. 752
(9th Cir. 2012). Unless the Court were to find that the
FCC guidelines themselves are scientifically baseless
and hence irrational – which no one has asked this
Court to do – the mandated notice here, being predicated on the FCC’s guidelines, is reasonably related to
a legitimate governmental interest.10 In short, so long
as the challenged law requiring display and disclosure
of governmental message in the context of commercial
speech is supported by some reasonable scientific basis, it is likely to pass the rational basis test applicable
under the First Amendment.
c.

Application of Zauderer Test

Even if the ordinance is subject to the more specific Zauderer test,11 see CTIA, 494 Fed. Appx. at 752

10

The mere fact of scientific uncertainty and/or inexactitude
does not render the government’s interest in issuing safety warnings to the public irrational or unreasonable. Such uncertainty
and inexactitude inheres in the assessment of any risk. To require the government to prove a particular quantum of danger
before issuing safety warnings would jeopardize an immeasurable number of laws, regulations, and directives. See Nat’l Elec.,
272 F.3d at 116 (taking note of “the potentially wide-ranging implications of NEMA’s First Amendment complaint,” as “[i]nnumerable federal and state regulatory programs require the disclosure of product and other commercial information,” ranging
from securities disclosures and disclosures in prescription drug
advertisements to tobacco and nutritional labeling and California’s Proposition 65).
11
At the hearing, the Court discussed with the parties who
had the burden of proof with respect to the Zauderer test. Where
a commercial speech restriction is at issue, the party seeking to
uphold the restriction bears the burden of proof in justifying it.
See Thompson v. W. States Med. Ctr., 535 U.S. 357, 373 (2002).

156a
(addressing San Francisco ordinance also imposing a
notice requirement on cell phone retailers and applying Zauderer), the Berkeley ordinance would likely be
upheld. Under Zauderer, the predicate requirement is
that the compelled speech must be factual and uncontroversial. But how a court should determine whether
such speech is factual and uncontroversial is not clear.
For example, a good case can be made that a court
should tread carefully before deeming compelled
speech controversial for Zauderer purposes. As the
Sixth Circuit has noted, facts alone “can disconcert,
displease, provoke an emotional response, spark controversy, and even overwhelm reason”; thus, the court
rejected “the underlying premise that a disclosure
that provokes a visceral response must fall outside
Zauderer’s ambit.” Disc. Tobacco, 674 F.3d at 569
(adding that “whether a disclosure is scrutinized under Zauderer turns on whether the disclosure conveys
factual information or an opinion, not on whether the
disclosure emotionally affects its audience or incites
controversy”). The Sixth Circuit also made the point
that the use of the word “uncontroversial” appeared
only once in Zauderer and that elsewhere the Zauderer plurality simply “refer[red] to a commercial
speaker disclosing ‘factual information’ and ‘accurate
information.’” Id. at 559 n.8 (citing Zauderer, 471 U.S.
at 651 & n.14). Furthermore, in Milavetz, the Supreme Court did not repeat the use of the term and
instead “use[d] the language required factual infor-

But here, the Court is not dealing with a commercial speech restriction but rather a compelled disclosure. For purposes of this
opinion, the Court need not resolve the issue of who bears the
burden of proof.

157a
mation and only an accurate statement when describing the characteristics of a disclosure that is scrutinized for a rational basis.” Id. (emphasis in original;
citing Milavetz, 1130 S. Ct. at 1339-40). Accordingly,
this Court agrees with the Sixth Circuit that the term
“uncontroversial” should generally be equated with
the term “accurate.”
As for the requirement that the compelled speech
be factual (or accurate), in any given case, it is easy to
conceive of an argument that, even if the compelled
speech is technically accurate, (1) it is still suggestive
of an opinion or (2) it is misleading. For example, on
the former, one could contend that the mere fact that
the government is compelling the speech in the first
place indicates that it is the government’s opinion that
there is a point of concern for the public. One could
also argue that the compelled speech is misleading because it omits more specific information.
But Zauderer cannot be read to establish a “factual and uncontroversial” requirement that can be so
easily manipulated that it would effectively bar any
compelled disclosure by the government. This is particularly true where public health and safety are at
issue, as in the instant case. Any time there is an element of risk to public health and safety, practically
any speech on the matter could be deemed misleading
unless there were a disclosure of everything on each
side of the scientific debate – an impossible task. One
could easily imagine that an overly rigorous “factual
and uncontroversial” test would render even the Surgeon General’s textual warnings found on cigarette
packages a violation of the First Amendment. See 15
U.S.C. § 1333(a) (listing warnings, including “Tobacco
smoke can harm your children,” “Tobacco smoke

158a
causes fatal lung disease in nonsmokers,” and “Quitting smoking now greatly reduces serious risks to your
health”); see also Nat’l Elec., 272 F.3d at 116 (taking
note of “the potentially wide-ranging implications of
NEMA’s First Amendment complaint,” as “[i]nnumerable federal and state regulatory programs require
the disclosure of product and other commercial information,” ranging from securities disclosures and disclosures in prescription drug advertisements to tobacco and nutritional labeling and California’s Proposition 65).
Turning to the City ordinance at issue here, the
Court finds that the factual-and-uncontroversial
predicate requirement has likely been met, particularly as the Court has now found the sentence regarding children preempted. With that sentence excised,
the ordinance provides in relevant part as follows:
The City of Berkeley requires that you be provided the following notice:
To assure safety, the Federal Government requires that cell phones meet radio frequency
(RF) exposure guidelines. If you carry or use
your phone in a pants or shirt pocket or tucked
into a bra when the phone is ON and connected to a wireless network, you may exceed
the federal guidelines for exposure to RF radiation. This potential risk is greater for chil
dren. Refer to the instructions in your phone
or user manual for information about how to
use your phone safely.
Berkeley Mun. Code § 9.96.030(A).
The notice contains accurate and uncontroversial
information – i.e., that the FCC has put limits on RF

159a
energy emission with respect to cell phones and that
wearing a cell phone against the body (without any
spacer) may lead the wearer to exceed the limits. This
is consistent with the FCC’s directive to cell phone
manufacturers to advise consumers about minimum
spacing to be maintained between the body and a cell
phone, and although there is in fact a good safety margin (at least for thermal effects of RF radiation), nothing indicates that the FCC objects to informing consumers about spacing the phone away from the body.
CTIA takes issue with the use of the words
“safety” and “radiation,” but the use of both words is
accurate and uncontroversial. Regarding “safety,” the
FCC clearly imposed limits because of safety concerns. The limits that the agency ultimately chose reflected a balancing of the risk to public health and
safety against the need for a practical nationwide cell
phone system, but it cannot be denied that safety was
a part of that calculus. See CTIA, 827 F. Supp. 2d at
1062 (in the San Francisco ordinance case, noting
that, “[e]ven the FCC has implicitly recognized that
excessive RF radiation is potentially dangerous” because it “‘balanced’ that risk against the need for a
practical nationwide cell phone system[;] [t]he FCC
has never said that RF radiation poses no danger at
all, only that RF radiation can be set at acceptable levels”), rev’d on other grounds, 494 Fed. Appx. 752 (9th
Cir. 2012). As for the term “radiation,” RF energy is
undisputedly a form of radiation. See 2013 FCC Reassessment, 28 F.C.C. Rcd. at 3585 (stating that RF energy is “‘a form of electromagnetic radiation that is
emitted by cell phones’”). That the City notice does not
make the finer distinction that RF energy is non-ion-

160a
izing radiation rather than ionizing radiation is immaterial as that distinction would likely have little
meaning to the public. As for CTIA’s contention that
there may be a negative association with nuclear radiation (ionizing radiation), that seems unlikely, particularly in this day and age when radiation comes
from various sources in everyday life, including, e.g.,
radios, televisions, and microwave ovens. No one seriously contends that consumers are likely to believe
cell phones emit nuclear radiation or something akin
to that.
Finally, CTIA protests that the notice is misleading because, even if a cell phone is worn against the
body, it is unlikely that the federal guidelines for SAR
will be exceeded. See Mot. at 15-16 (arguing that”this
may be possible only ‘with the device transmitting
continuously and at maximum power [such as might
happen during a call with a handset and the phone in
the user’s pocket at the fringe of a reception area],’
and that ‘using a device against the body without a
spacer will generally result in an actual SAR below
the maximum SAR testing’”). But as indicated above,
the Court is wary about any contention that a compelled disclosure – particularly where the message in
the disclosure is attributed to the government – is
misleading simply because the disclosure does not describe with precision the magnitude of the risk; the
point remains that the FCC established certain limits
regarding SAR, limits which have not been challenged
as illegal. The mandated disclosure truthfully states
that federal guidelines may be exceeded where spacing is not observed, just as the FDA accurately warns
that “Tobacco smoke can harm your children.” More

161a
importantly, the sentence criticized by CTIA is tempered by the following sentence: “Refer to the instructions in your phone or user manual for information
about how to use your phone safely.” That is the upshot of the disclosure – users are advised to consult
the manual wherein the FCC itself mandates disclosures about maintaining spacing. See FCC KDB, No.
447498, General RF Exposure Guidelines, § 4.2.2(4).
This is, in essence, factual in nature for purposes of
Zauderer.
For the foregoing reasons, the Court finds that the
City notice, with the sentence regarding children excised from the text on preemption grounds, likely
meets the Zauderer factual-and-uncontroversial predicate requirement.
d. Government Interest
As indicated above, under the Zauderer test, if the
disclosure requirement is factual and uncontroversial,
then it does not violate the First Amendment so long
as it is reasonably related to the governmental interest. This test has been met, for largely the reasons articulated above in discussing the traditional rational
review test. Given the fact that the spacing requirements employed by the FCC were established to insure maximum specific levels of SAR are not exceeded
and the FCC acknowledges there is a connection between SAR and safety, even if the precise parameters
and limits are matters of scientific debate, the ordinance appears “reasonably related” to a legitimate
government interest.

162a
e.

Undue Burden

Finally, CTIA contends that the disclosure requirement here cannot be upheld because it still violates the First Amendment as it is unduly burdensome. But for this argument to succeed, CTIA cannot
show just any kind of burden; rather, it must show a
First Amendment burden, i.e., a burden on speech.
CTIA has not made any argument that the City
ordinance would chill its or its members’ speech; rather, it contends that there is a burden on its or its
members’ speech because they would rather remain
silent but, with the compelled disclosure, are now being forced to engage in counter-speech. As noted
above, the City asserts that, where commercial speech
is at issue, the only cognizable burden is chilling of
speech, not the burden of being compelled to speak.
While this position has some grounding in Zauderer,
which identified only the chilling of commercial
speech as a burden, see Zauderer, 471 U.S. at 651, the
Court need not definitively resolve whether compelled
commercial counter-speech can be an undue burden
because, even accepting that it can,12 the burden here
to CTIA or its members is nothing more than minimal.
The ordinance gives retailers the discretion to add
their own speech to Berkeley’s message. And because
the City’s required notice contains factual and uncontroversial information, the need for “corrective” counter-speech is minimal.

12

As noted above, there is an arguable First Amendment interest in not being compelled to respond to speech of a third
party, though the only precedent for such a proposition is in the
context of noncommercial speech.

163a

f.

Summary on First Amendment Claim

On the first preliminary injunction factor, the
Court cannot say that CTIA has established a strong
likelihood of success on the merits with respect to its
First Amendment claim. Nor has it raised serious
question on the merits. While the sentence in the
Berkeley ordinance regarding the potential risk to
children is likely preempted, the remainder of the City
notice is factual and uncontroversial and is reasonably related to the City’s interest in public health and
safety.
Moreover, the disclosure requirement does not impose an undue burden on CTIA or its members’ First
Amendment rights.
C. Likelihood of Irreparable Harm and Balancing of Equities
CTIA’s argument on both the likelihood of irreparable harm and the balancing of equities largely depends on there being preemption or a First Amendment violation in the first place.13 See Mot. at 21 (citing Elrod v. Burns, 427 U.S. 347, 373 (1976) (stating
that “the loss of First Amendment freedoms, for even
minimal periods of time, unquestionably constitutes
irreparable injury”)). But, as discussed above, the
likelihood of success on both the preemption and First
13

CTIA also argues irreparable harm to its members’ customer goodwill and business reputations and from the threatened enforcement of a preempted ordinance, see Mot. at 22, but
ultimately these arguments are predicated on the First Amendment argument. In any event, CTIA has made no satisfactory
showing that its business interests are jeopardized by the Berkeley notice if the warning about children is excised.

164a
Amendment claims is weak once the sentence on children is excised from the text of the City notice.
Accordingly, the second and third preliminary injunction factors, like the first, do not weigh in CTIA’s
favor.
D. Public Interest
Finally, the fourth preliminary injunction factor
does not weigh in CTIA’s favor – again because of the
weakness of its claims on the merits. CTIA contends
that the public interest does not weigh in favor of the
City because “accurate and balanced disclosures regarding RF energy are already available,” Mot. at 23
(emphasis in original), but the City has a fair point
that, in spite of the availability, there is evidence that
the public does not know about those disclosures. See,
e.g., Jensen Decl., Ex. A (survey) (reflecting that a majority of persons surveyed were, e.g., not “aware that
the government’s radiation tests to assure the safety
of cell phones assume that a cell phone would not be
carried against your body, but would instead be held
at least 1- to 15 millimeters from your body”). Furthermore, as suggested above, there is a public interest in
public safety as well as assuring fuller consumer
awareness, particularly where the federal government through the FCC has endorsed consumer awareness by requiring that cell phone manufacturers provide information about spacing to consumers.
III. CONCLUSION
For the foregoing reasons, the Court grants in
part and denies in part CTIA’s motion for a preliminary injunction. The motion is granted to the extent
the Court finds a likely successful preemption claim

165a
with respect to the sentence in the City notice regarding children’s safety. The motion is denied to the extent the Court finds that a First Amendment claim
and preemption claim are not likely to succeed on the
remainder of the City notice language.
The Berkeley ordinance is enjoined, unless and
until the sentence in the City notice regarding children safety is excised from the notice.
This order disposes of Docket Nos. 4 and 36
IT IS SO ORDERED.
Dated: September 21, 2015
/s/
EDWARD M. CHEN
United States District
Judge

166a

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CTIA–THE WIRELESS ASSOCIATION,
Plaintiff-Appellant,

No. 16-15141
D.C. No.
3:15-cv-02529
EMC

v.
CITY OF BERKELEY, California; CHRISTINE DANIEL,
City Manager of Berkeley, California, in her official capacity,

ORDER

Defendants-Appellees.
Filed October 11, 2017
Before: William A. Fletcher, Morgan B. Christen,
and Michelle T. Friedland, Circuit Judges.
Order;
Concurrence by Judges W. Fletcher and Christen;
Dissent by Judge Wardlaw

167a
SUMMARY*
Civil Rights
The panel denied a petition for panel rehearing
and denied a petition for rehearing en banc on behalf
of the court. Judge Friedland voted to grant both.
In its opinion filed on April 21, 2017, the panel affirmed the district court’s order denying a request for
a preliminary injunction seeking to stay enforcement
of a City of Berkeley ordinance requiring cell phone
retailers to inform prospective cell phone purchasers
that carrying a cell phone in certain ways may cause
them to exceed Federal Communications Commission
guidelines for exposure to radio-frequency radiation.
Applying Zauderer v. Office of Disciplinary Counsel of
the Supreme Court of Ohio, 471 U.S. 626 (1985), the
panel held that the City’s compelled disclosure of commercial speech complied with the First Amendment
because the information in the disclosure was reasonably related to a substantial governmental interest
and was purely factual. Accordingly, the panel concluded that plaintiff had little likelihood of success on
its First Amendment claim that the disclosure compelled by the Berkeley ordinance was unconstitutional.
Concurring in the denial of the petition for rehearing en banc, Judges W. Fletcher and Christen stated
that their majority opinion held that under Zauderer,
the City of Berkeley may compel “purely factual and
*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

168a
controversial” speech by a retailer at the point of sale.
The judges stated that the majority joined four sister
circuits when it held that Zauderer permitted compelled commercial speech even in the absence of consumer deception. The judges stated that applying
Zauderer to permit compelled commercial speech only
when it prevents consumer deception, as suggested by
the dissent, would result in a circuit split.
Dissenting from the denial of rehearing en banc,
Judge Wardlaw stated that the court should have
taken this case en banc to clarify that Zauderer’s rational basis standard applies only when the government compels speech to prevent consumer deception.
_________________________________________________
COUNSEL
Theodore B. Olson (argued), Helgi C. Walker, Jacob T.
Spencer, and Samantha A. Daniels, Gibson Dunn &
Crutcher LLP, Washington, D.C.; Joshua S. Lipshutz
and Joshua D. Dick, Gibson Dunn & Crutcher LLP,
San Francisco, California; for Plaintiff-Appellant.
Lester Lawrence Lessig, III (argued), Cambridge,
Massachusetts; Amanda Shanor, New Haven, Connecticut; Savith Iyengar, Deputy City Attorney; Zach
Cowan, City Attorney; Berkeley City Attorney’s Office, Berkeley, California; for Defendants-Appellants.
Robert Corn-Revere and Ronald G. London, Davis
Wright Tremaine LLP, Washington, D.C., for Amicus
Curiae The Association of National Advertisers, Inc.
Claire Woods and Michael E. Wall, San Francisco,
California; as and for Amicus Curiae Natural Resources Defense Council.

169a
Pratik A. Shah, James E. Tysse, and Raymond P. Tolentino, Akin Gump Strauss Hauer & Feld LLP,
Washington, D.C.; Kathryn Comerford Todd and Warren Postman, U.S. Chamber Litigation Center Inc.,
Washington, D.C.; for Amicus Curiae Chamber of
Commerce of the United States.
Richard P. Bress, Melissa Arbus Sherry, Michael E.
Bern, and George C. Chipev, Latham & Watkins LLP,
Washington, D.C.; James K. Lynch and Marcy C.
Priedeman, Latham & Watkins LLP, San Francisco,
California; for Amicus Curiae American Beverage Association.
_________________________________________________
ORDER
Judge W. Fletcher and Judge Christen have voted
to deny the Appellant’s petition for rehearing and petition for rehearing en banc, filed May 5, 2017. Judge
Friedland voted to grant both.
A judge of the court called for a vote on the petition for rehearing en banc. A vote was taken, and a
majority of the non-recused active judges of the court
failed to vote for en banc rehearing. Fed. R. App. P.
35(f).
The petition for rehearing and the petition for rehearing en banc, filed May 5, 2017, are DENIED.
_________________________________________________
W. FLETCHER and CHRISTEN, Circuit Judges,
concurring in the denial of the petition for rehearing
en banc:
Our opinion largely speaks for itself. We held under Zauderer v. Office of Disciplinary Counsel, 471

170a
U.S. 626 (1985), that the City of Berkeley may compel
“purely factual and controversial” speech by a retailer
at the point of sale. Our dissenting colleague would
read Zauderer narrowly to permit compelled commercial speech only when it prevents consumer deception.
Four of our sister circuits have read Zauderer
broadly to permit compelled commercial speech when
it conveys purely factual and uncontroversial information, even in the absence of consumer deception.
See Nat’l Ass’n of Mfrs.v. SEC, 800 F.3d 518, 522 (D.C.
Cir. 2015) (upholding compelled “point of sale disclosures”); Am. Meat Inst. v. U.S. Dep’t of Agric., 760 F.3d
18, 22 (D.C. Cir. 2014) (en banc); Pharm. Care Mgmt.
Ass’n v. Rowe, 429 F.3d 294, 310 n.8 (1st Cir. 2005);
Safelite Group v. Jepsen, 764 F.3d 258 (2d Cir. 2014)
(declining to extend Zauderer to compelled speech describing the goods or services of another company, but
leaving intact earlier Second Circuit cases upholding
compelled commercial speech about a company’s own
goods or services); N.Y. State Rest. Ass’n v. N.Y. City
Bd. of Health, 556 F.3d 114, 133 (2d Cir. 2009); Nat’l
Elec. Mfrs. Ass’n v. Sorrell, 272 F.3d 104, 114 (2d Cir.
2001); Discount Tobacco City & Lottery, Inc. v. United
States, 674 F.3d 509, 566 (6th Cir. 2012). We joined
these circuits. See CTIA–The Wireless Ass’n v. City of
Berkeley, 854 F.3d 1105 (9th Cir. 2017); see also Am.
Beverage Ass’n v. City & Cty. of San Francisco, Nos.
16-16072 & 16-16073 (9th Cir. Sept. 19, 2017).
Two of our sister circuits have sustained compelled commercial speech that prevented consumer
deception. Because there was such deception, they did
not need to reach the question whether “purely factual
and uncontroversial” commercial speech may be compelled in the absence of deception. See Pub. Citizen,

171a
Inc. v. La. Attorney Disciplinary Bd., 632 F.3d 212
(5th Cir. 2011); 1-800-411-Pain Referral Serv.v. Otto,
744 F.3d 1045 (8th Cir. 2014). We do not know how, if
the facts had presented the question, these circuits
would have decided it.
Our colleague would have us create a circuit split
with the D.C., First, Second and Sixth Circuits. We
decline to do so on two grounds. First, circuit splits are
generally to be avoided. Second, and more important,
we believe that our four sister circuits got it right.
_________________________________________________
WARDLAW, Circuit Judge, dissenting from denial of
rehearing en banc:
Ordinarily, I do not file “dissentals,” particularly
where there is an existing dissent. I am compelled to
write here, however, because Judge Friedland’s dissent, which I agree with entirely, rests principally on
the ground that the required disclosure is itself misleading, whereas I believe the panel majority applied
the wrong legal standard. We should have taken this
case en banc to clarify that Zauderer’s rational basis
standard applies only when the government compels
speech to prevent consumer deception. See Zauderer
v. Office of Disciplinary Counsel, 471 U.S. 626, 651
(1985) (“[B]ecause disclosure requirements trench
much more narrowly on an advertiser’s interests than
do flat prohibitions on speech, ‘warnings or disclaimers might be appropriately required . . . in order to
dissipate the possibility of consumer confusion or deception.’”). The majority extended Zauderer beyond

172a
the context of preventing consumer deception to instances where the government compels speech for its
own purposes.1
See CTIA–The Wireless Ass’n v. City of Berkeley,
854 F.3d 1105, 1117 (9th Cir. 2017). Moreover, it expanded Zauderer to retailers who sell, and not necessarily advertise, the consumer products at issue. See
id. at 1110. By allowing the opinion to stand, we have
condoned the panel majority’s deference to the City of
Berkeley’s well-intentioned, but unconstitutional, incursion into First Amendment rights.
Although commercial speech is afforded “lesser
protection” than “other constitutionally guaranteed
speech,” commercial speech is nonetheless protected
speech. See Cent. Hudson Gas & Elec. Corp. v. Pub.
Serv. Comm’n, 447 U.S. 557, 562–63 (1980). Supreme
Court precedent is clear that if the government is to
compel commercial speech that is “neither misleading
nor related to unlawful activity, . . . [t]he State must

1

Despite the panel majority’s insistence to the contrary, there
is discord among our sister circuits about whether Zauderer applies broadly to allow the government to compel commercial
speech to serve its own purposes. Compare, e.g., Am. Meat Inst.
v. U.S. Dep’t of Agric., 760 F.3d 18, 22 (D.C. Cir. 2014) (en banc)
(applying Zauderer to a Department of Agriculture labeling requirement), with Nat’l Ass’n of Mfrs. v. SEC, 800 F.3d 518, 522
(D.C. Cir. 2015) (confining Zauderer to advertising only), and
Nat’l Elec. Mfrs. Ass’n v. Sorrell, 272 F.3d 104, 114 (2d Cir. 2011)
(applying Zauderer to a Vermont labeling law), with Safelite
Grp., Inc. v. Jepsen, 764 F.3d 258, 263–64 (2d Cir. 2014) (applying intermediate scrutiny to a Connecticut disclosure law that
required automobile insurers to notify car owners of their repair
shop options). Rather than advocate a circuit split, my reading of
our sister circuits’ opinions simply acknowledges that the law remains unsettled.

173a
assert a substantial interest to be achieved by [the]
restrictions . . . [and] the restriction must directly advance the state interest involved.” Id. at 564. The
panel majority opinion applies minimal constitutional
scrutiny to Berkeley’s potentially misleading radiation disclosure, merely because it is not technically
false. CTIA, 854 F.3d at 1120. The Supreme Court
has never been so deferential to government-compelled speech. See Sorrell v. IMS Health, Inc., 564
U.S. 552, 570 (2011) (“Facts, after all, are the beginning point for much of the speech that is most essential to advance human knowledge and to conduct human affairs.”); Wooley v. Maynard, 430 U.S. 705, 714
(1977) (“The right to speak and the right to refrain
from speaking are complementary components of the
broader concept of ‘individual freedom of mind.’”). The
government is not allowed to compel disclosures to
shape consumer behavior to its own design, particularly when governments have other powerful means,
such as taxation, market regulation, and education efforts, to advance their interests. See 44 Liquormart v.
Rhode Island, 517 U.S. 484, 507 (1996).
I share Judge Friedland’s concerns that a proliferation of warnings and disclosures compelled by local
municipal authorities could detract from the attention
consumers should pay to warnings that really matter.
See CTIA, 854 F.3d at 1126 (Friedland, J., dissenting
in part). Time which a prospective purchaser must
spend puzzling over the City of Berkeley’s warning is
time not spent acquiring more pertinent product information. In this era where accurate, unbiased information is an increasingly rare commodity, the panel
majority’s holding that the government can compel a

174a
private entity to disclose “factual” and “uncontroversial” information with only a tenuous link to a “more
than trivial” government interest is quite troubling.
The loosening of long-held traditional speech principles governing compelled disclosures and commercial speech only muddies the waters. After this case,
the City of Berkeley is permitted to require retailers
to display a potentially misleading disclosure about
the dangers of cell phones that is completely unnecessary in light of the carefully calibrated, FCC-approved
disclosures in the user’s manual accompanying each
new cell phone. Meanwhile, across the bay, San Francisco may not require advertisers of soft drinks with
added sugars to warn of the products’ adverse health
effects. Am. Beverage Ass’n v. City & Cty. of S.F., Nos.
16-16072 & 16-16073, slip op. at 5–6 (9th Cir. Sept.
19, 2017) (purporting to rely on CTIA and Zauderer).
These opinions, which require district judges to make
essentially factual judgments about a disclosure’s veracity and its burden on a business even before the
parties have developed an evidentiary record, are
bound to frustrate any court that attempts to reconcile
them. And, more importantly, what’s next? Is each
state or local government in our Circuit going to rely
on the misplaced analysis of Zauderer in CTIA and
American Beverage Association to pass ordinances
compelling disclosures by their citizens on any issue
the city council votes to promote, without any regard
to Central Hudson?
If the multitudinous governing bodies in our Circuit desire to compel speech from their citizens, they
should show a substantial state interest and use narrowly tailored means to achieve it. Judge Nelson’s
concurrence in American Beverage Association, slip

175a
op. at 28, adds to the confusion by evoking the Central
Hudson standard, and concluding that San Francisco’s means were not narrowly tailored to the interest it sought to promote. We should have taken the
opportunity that CTIA provided us to clarify our conflicting law on compelled disclosures and explain
when Zauderer’s rational basis standard applies, as
opposed to the Central Hudson standard generally applicable to commercial speech.
I respectfully dissent from the denial of rehearing
en banc, and am looking forward to our next compelled
disclosure case.

176a

APPENDIX G
Berkeley Municipal Code Chapter 9.96 –
Requiring Notice Concerning Radio Frequency
Exposure of Cell Phones
§ 9.96.010. Findings and Purpose
A. Requirements for the testing of cell phones were
established by the federal government in 1996.
B. These requirements established “Specific Absorption Rates” (SAR) for cell phones.
C. The protocols for testing the SAR for cell phones
carried on a person’s body assumed that they would
be carried a small distance away from the body, e.g.,
in a holster or belt clip, which was the common practice at that time. Testing of cell phones under these
protocols has generally been conducted based on an
assumed separation of 10-15 millimeters.
D. To protect the safety of their consumers, manufacturers recommend that their cell phones be carried
away from the body, or be used in conjunction with
hands-free devices.
E. Consumers are not generally aware of these safety
recommendations.
F. Currently, it is much more common for cell phones
to be carried in pockets or other locations rather than
holsters or belt clips, resulting in much smaller separation distances than the safety recommendations
specify.

177a
G. Some consumers may change their behavior to
better protect themselves and their children if they
were aware of these safety recommendations.
H. While the disclosures and warnings that accompany cell phones generally advise consumers not to
wear them against their bodies, e.g., in pockets, waistbands, etc., these disclosures and warnings are often
buried in fine print, are not written in easily understood language, or are accessible only by looking for
the information on the device itself.
I. The purpose of this Chapter is to assure that consumers have the information they need to make their
own choices about the extent and nature of their exposure to radio frequency radiation. (Ord. 7404-NS §
1 (part), 2015)
§ 9.96.020. Definitions
For the purposes of this Chapter, the following terms
shall have the following meanings, unless the context
requires otherwise.
A. “Cell phone” means a portable wireless telephone
device that is designed to send or receive transmissions through a cellular radiotelephone service, as defined in Section 22.99 of Title 47 of the Code of Federal
Regulations. A cell phone does not include a wireless
telephone device that is integrated into the electrical
architecture of a motor vehicle.
B. “Cell phone retailer” means any person or entity
that sells or leases, or offers to sell or lease, Cell
phones to the public, where the sale or lease occurs
within the City of Berkeley, including Formula cell
phone retailers. “Cell phone retailer” shall not include: (1) anyone selling or leasing Cell phones over

178a
the telephone, by mail, or over the internet; or (2) anyone selling or leasing Cell phones directly to the public at a convention, trade show, or conference, or otherwise selling or leasing Cell phones directly to the
public within the City of Berkeley on fewer than 10
days in a year.
C. “Formula cell phone retailer” means a Cell phone
retailer that sells or leases cell phones to the public,
or which offers Cell phones for sale or lease, through
a retail sales establishment located in the City of
Berkeley that, along with eleven or more other retail
sales establishments located in the United States,
maintains two or more of the following features: a
standardized array of merchandise; a standardized facade; a standardized decor and color scheme; a uniform apparel; standardized signage; or, a trademark
or service mark. (Ord. 7404-NS § 1 (part), 2015)
§ 9.96.030. Required notice
A. A Cell phone retailer shall provide to each customer who buys or leases a Cell phone a notice containing the following language:
The City of Berkeley requires that you be provided the
following notice:
To assure safety, the Federal Government requires
that cell phones meet radio frequency (RF) exposure
guidelines. If you carry or use your phone in a pants
or shirt pocket or tucked into a bra when the phone is
ON and connected to a wireless network, you may exceed the federal guidelines for exposure to RF radiation. Refer to the instructions in your phone or user
manual for information about how to use your phone
safely.

179a
B. The notice required by this Section shall either be
provided to each customer who buys or leases a Cell
phone or shall be prominently displayed at any point
of sale where Cell phones are purchased or leased. If
provided to the customer, the notice shall include the
City’s logo, shall be printed on paper that is no less
than 5 inches by 8 inches in size, and shall be printed
in no smaller than a 18-point font. The paper on
which the notice is printed may contain other information in the discretion of the Cell phone retailer, as
long as that information is distinct from the notice
language required by subdivision (A) of this Section.
If prominently displayed at a point of sale, the notice
shall include the City’s logo, be printed on a poster no
less than 8-1/2 by 11 inches in size, and shall be
printed in no small than a 28-point font. The City
shall make its logo available to be incorporated in
such notices.
C. A Cell phone retailer that believes the notice language required by subdivision (A) of this Section is not
factually applicable to a Cell phone model that retailer
offers for sale or lease may request permission to not
provide the notice required by this Section in connection with sales or leases of that model of Cell phone.
Such permission shall not be unreasonably withheld.
(Ord. 7443-NS § 1, 2015; Ord. 7404-NS § 1 (part),
2015)
§ 9.96.040. Violation – remedies
A. Each individual Cell phone that is sold or leased
contrary to the provisions of this Chapter shall constitute a separate violation.
B. Remedies for violation of this Chapter shall be
limited to citations under Chapter 1.28.

